<html>
<title> - H.R. 3109, TO AMEND THE MIGRATORY BIRD TREATY ACT TO EXEMPT CERTAIN ALASKAN NATIVE ARTICLES; H.R. 3409, ``NATIONAL WILDLIFE REFUGE EXPAN- SION LIMITATION ACT OF 2013''; H.R. 5026, ``FISH HATCHERY PROTECTION ACT''; AND H.R. 5069, ``FEDERAL DUCK STAMP ACT OF 2014''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 H.R. 3109, TO AMEND THE MIGRATORY 
                 BIRD TREATY ACT TO EXEMPT CERTAIN 
                 ALASKAN NATIVE ARTICLES; H.R. 3409,
                 ``NATIONAL WILDLIFE REFUGE EXPAN- 
                 SION LIMITATION ACT OF 2013'';
                 H.R. 5026, ``FISH HATCHERY PROTECTION 
                 ACT''; AND H.R. 5069, ``FEDERAL DUCK 
                 STAMP ACT OF 2014''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE
                               
                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, July 23, 2014

                               __________

                           Serial No. 113-81

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  
	  

          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 23, 2014.........................     1

Statement of Members:
    Dingell, Hon. John, a Representative in Congress from the 
      State of Michigan..........................................     7
        Prepared statement of....................................     8
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Gosar, Hon. Paul, a Representative in Congress from the State 
      of Arizona.................................................    10
        Prepared statement of....................................    13
        Exhibit 1 submitted for the record.......................    34
        Exhibits 2-6 submitted for the record....................    42
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Territory of the Northern Mariana Islands.........     4
        Prepared statement of....................................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     9

Statement of Witnesses:
    Angius, Hon. Hildy, Chairman, Mohave County Board of 
      Supervisors................................................    48
        Prepared statement of....................................    50
    Cornell, Martin Clifford III, Grant Administrator, Friends of 
      Brazoria Wildlife Refuges..................................    64
        Prepared statement of....................................    65
    Guertin, Steve, Deputy Director, U.S. Fish and Wildlife 
      Service....................................................    15
        Prepared statement of....................................    16
    Mansell, Hon. Robert E., Chairman, Arizona Game and Fish 
      Commission.................................................    22
        Prepared statement of....................................    24
    Pata, Jacqueline, Vice Chair, Sealaska Corporation...........    53
        Prepared statement of....................................    55
    Schmidt, Paul, Chief Conservation Officer, Ducks Unlimited...    58
        Prepared statement of....................................    60

Additional Materials Submitted for the Record:
    Association of Fish & Wildlife Agencies, April 1, 2014 Letter 
      submitted for the record on H.R. 5026......................    79
    Cronkite News, July 23, 2014, Online article, ``Arizona 
      officials call for a halt to `devastating' hatchery 
      changes,'' by Julianne Logan...............................    84
    Ducks Unlimited, July 14, 2014 Letter submitted for the 
      record on H.R. 5069........................................    82
    List of documents submitted for the record retained in the 
      Committee's official files.................................    85
    Sport Fishing & Boating Partnership Council, July 10, 2014 
      Letter submitted for the record on H.R. 5026...............    81
    The Wilderness Society, July 22, 2014 Letter submitted for 
      the record on H.R. 3409....................................    83
    Trout Unlimited, July 22, 2014 Letter submitted for the 
      record on H.R. 5026........................................    12
                                     

 LEGISLATIVE HEARING ON H.R. 3109, TO AMEND THE MIGRATORY BIRD 
   TREATY ACT TO EXEMPT CERTAIN ALASKAN NATIVE ARTICLES FROM 
    PROHIBITIONS AGAINST SALE OF ITEMS CONTAINING NONEDIBLE 
  MIGRATORY BIRD PARTS, AND FOR OTHER PURPOSES; H.R. 3409, TO 
AMEND THE NATIONAL WILDLIFE REFUGE SYSTEM ADMINISTRATION ACT OF 
   1966 TO REQUIRE THAT ANY EXPANSION OF A NATIONAL WILDLIFE 
  REFUGE MUST BE EXPRESSLY AUTHORIZED BY STATUTE, ``NATIONAL 
WILDLIFE REFUGE EXPANSION LIMITATION ACT OF 2013''; H.R. 5026, 
    TO PROHIBIT CLOSING OR REPURPOSING ANY PROPAGATION FISH 
    HATCHERY OR AQUATIC SPECIES PROPAGATION PROGRAM OF THE 
  DEPARTMENT OF THE INTERIOR UNLESS SUCH ACTION IS EXPRESSLY 
   AUTHORIZED BY AN ACT OF CONGRESS, AND FOR OTHER PURPOSES, 
 ``FISH HATCHERY PROTECTION ACT''; AND H.R. 5069, TO AMEND THE 
 MIGRATORY BIRD HUNTING AND CONSERVATION STAMP ACT TO INCREASE 
IN THE PRICE OF MIGRATORY BIRD HUNTING AND CONSERVATION STAMPS 
TO FUND THE ACQUISITION OF CONSERVATION EASEMENTS FOR MIGRATORY 
  BIRDS, AND FOR OTHER PURPOSES, ``FEDERAL DUCK STAMP ACT OF 
                             2014''

                              ----------                              


                        Wednesday, July 23, 2014

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Young, Southerland; 
Sablan and Garcia.
    Also present: Representatives Gosar, Crawford, Fincher and 
Dingell.
    Dr. Fleming. The subcommittee will come to order. The 
Chairman notes the presence of quorum.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. Good morning. Today the subcommittee will 
conduct a hearing on several important legislative proposals. 
The first bill, H.R. 3109, was introduced by the gentleman from 
all of Alaska, Congressman Don Young, which makes a common-
sense modification to the Migratory Bird Treaty Act of 1918. 
Specifically, the bill would allow Alaskan Natives to utilize 
the non-edible parts of a migratory bird.
    Under current law, Alaskan Natives are permitted to harvest 
migratory birds for subsistence needs. They can use the non-
edible parts for handicrafts but are prohibited from selling 
those products. This is a nonsensical Federal policy and is 
contrary to the intent of the 1997 protocols to the Migratory 
Bird Treaties and the direct testimony of the director of the 
Fish and Wildlife Service who testified at the time that, ``The 
protocols do provide for the sale of authentic articles of 
handicraft using non-edible byproducts of birds.''
    The second bill, H.R. 3409, was introduced by Congressman 
Steve Fincher of Frog Jump, Tennessee. This bill would require 
that the Congress approve all new expansions of the units of 
the National Wildlife Refuge System. While I understand that 
the Fish and Wildlife Service wants maximum flexibility, what I 
do not understand is why any Member of this legislative body 
would oppose this bill. It is our constitutional responsibility 
to identify and allocate how our constituents' hard-earned tax 
dollars will be spent. If authorizing these expansions is such 
a problem, then why has no Member of Congress introduced a 
single bill to give the same flexibility to the Bureau of Land 
Management, the Bureau of Reclamation, the U.S. Forest Service 
or the U.S. Park Service?
    Under current law, it takes an Act of Congress to expand 
the boundaries of some of our most hallow and sacred national 
parks by even 1 acre. But the Fish and Wildlife Service can 
expand a refuge by hundreds of thousands of acres with little, 
if any, input from Congress.
    The third bill is H.R. 5026, the Fish Hatchery Protection 
Act, which has been introduced by our committee colleague, Paul 
Gosar of Flagstaff, Arizona. Under the terms of his 
legislation, the Fish and Wildlife Service would be prohibited 
from permanent closing, re-programming, re-purposing, de-
commissioning, significant altering or moving to caretaker 
status any propagation program unless authorized by Congress.
    I want to compliment the gentleman from Arizona for his 
tireless leadership on behalf of his constituents and all 
Americans who enjoy fishing in our Nation's lakes, rivers and 
streams.
    While the bill may be prescriptive, this agency needs to 
spend more time communicating with their partners. On March 5, 
the agency testified on its strategic hatchery and workplace 
policy report. At that time, Assistant Director David Hoskins 
stated that this report ``was not a decision document but an 
opportunity to engage partners and stakeholders, including 
Congress, state fish and wildlife agencies, tribes and others 
in a discussion of its major findings and recommendations.'' 
What Mr. Hoskins failed to tell us that day was that the 
Service had already terminated a number of propagation 
programs, particularly in Region 4, without telling anyone in 
Congress, the states or local communities.
    This failure to communicate prompted responses from both 
the Association of Fish and Wildlife Agencies and the Sport 
Fishing and Boating Partnership Council. In the first letter, 
the president of the Association representing all 50 states 
noted that, ``The report laid out a new desired direction 
without any direct input from any state partners who all have a 
vested interest in the management and production of fish from 
the National Fish Hatchery System.''
    The second letter by the Sport Fishing and Boating 
Partnership Council had a similar theme, that, ``The fact that 
no stakeholders, including the state agencies that depend on 
the National Fish Hatchery System, were consulted highlights 
the significant and problematic lack of transparency in the 
current direction of the fisheries program.''
    If nothing else, I am sure that H.R. 5026 has finally got 
the attention of the Fish and Wildlife Service.
    Finally, we will hear testimony on H.R. 5069, a bipartisan 
bill I am proposing with the Dean of the House, Congressman 
John Dingell, and Congressman Rob Wittman, Ron Kind and Jason 
Smith.
    This year is the 80th anniversary of the issuance of the 
first Federal Duck Stamp. Under the Federal Duck Stamp Act, the 
price of the hunting stamp would increase from $15 to $25. The 
$10 increase would be used exclusively for acquiring 
conservation easements, and the Congress would receive an 
annual report on expenditures. This would be the first price 
increase in 23 years. And the legislation is strongly supported 
by Ducks Unlimited, who we will hear from today.
    I am now pleased to recognize the Ranking Member, the 
distinguished gentleman from the Commonwealth of the Northern 
Marianas--which we will be visiting soon, I will add, for any 
statement he would like to make.

    [The prepared statement of Mr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
            Fisheries, Wildlife, Oceans and Insular Affairs
    Good morning, today, the subcommittee will conduct a hearing on 
several important legislative proposals.
    The first bill, H.R. 3109, was introduced by the gentleman from All 
of Alaska, Congressman Don Young, which makes a commonsense 
modification to the Migratory Bird Treaty Act of 1918. Specifically, 
the bill would allow Alaskan natives to utilize the non-edible parts of 
a migratory bird. Under current law, Alaskan natives are permitted to 
harvest migratory birds for subsistence needs. They can use the non-
edible parts for handicrafts but are prohibited from selling those 
products.
    This is a nonsensical Federal policy and it is contrary to the 
intent of the 1997 Protocols to the Migratory Bird Treaties and the 
direct testimony of the Director of the Fish and Wildlife Service who 
testified at that time that ``The Protocols do provide for the sale of 
authentic articles of handicraft using non-edible by-products of 
birds.''
    The second bill is H.R. 3409, was introduced by Congressman Steve 
Fincher of Frog Jump, Tennessee. This bill would require that the 
Congress approve all new expansions of units of the National Wildlife 
Refuge System.
    While I understand that the Fish and Wildlife Service wants maximum 
flexibility, what I don't understand is why any member of this 
legislative body would oppose this bill. It is our constitutional 
responsibility to identify and allocate how our constituent's hard 
earned tax dollars will be spent. If authorizing these expansions is 
such a problem, then why has no Member of Congress introduced a single 
bill to give the same flexibility to the Bureau of Land Management, the 
Bureau of Reclamation, the U.S. Forest Service or the U.S. Park 
Service? Under current law, it takes an Act of Congress to expand the 
boundaries of some of our most hallow and sacred national parks by even 
one acre but the Fish and Wildlife Service can expand a refuge by 
hundreds of thousands of acres with little, if any input, from the 
Congress.
    The third bill is H.R. 5026, the Fish Hatchery Protection Act, 
which has been introduced by our committee colleague, Paul Gosar of 
Flagstaff, Arizona. Under the terms of his legislation, the Fish and 
Wildlife Service would be prohibited from permanently closing, 
reprogramming, repurposing, decommissioning, significant altering, or 
moving to caretaker status any propagation program unless authorized by 
Congress.
    I want to compliment the gentleman from Arizona for his tireless 
leadership on behalf of his constituents and all Americans who enjoy 
fishing in our Nation's lakes, rivers and streams. While the bill may 
be prescriptive, this agency needs to spend more time communicating 
with their partners. On March 5, the agency testified on its Strategic 
Hatchery and Workplace Policy report. At that time, Assistant Director 
David Hoskins stated that this report ``Was not a decision document but 
an opportunity to engage partners and stakeholders, including Congress, 
State Fish and Wildlife Agencies, tribes and others in a discussion of 
its major findings and recommendations''.
    What Mr. Hoskins failed to tell us that day was that the Service 
had already terminated a number of propagation programs, particularly 
in Region 4, without telling anyone in Congress, the states or the 
local communities. This failure to communicate prompted responses from 
both the Association of Fish and Wildlife Agencies and the Sport 
Fishing and Boating Partnership Council. In the first letter, the 
President of the Association representing all 50 states noted that 
``The report laid out a new desired direction without any direct input 
from any state partners who all have a vested interest in the 
management and production of fish from the National Fish Hatchery 
System''. The second letter by the Sport Fishing and Boating 
Partnership Council had a similar theme that ``The fact that no 
stakeholders, including the state agencies that depend on the National 
Fish Hatchery System, were consulted highlights the significant and 
problematic lack of transparency in the current direction of the 
fisheries program''. If nothing else, I am sure that H.R. 5026 has 
finally got the attention of the Fish and Wildlife Service.
    Finally, we will hear testimony on H.R. 5069, a bipartisan bill I 
am proposing with the Dean of the House, Congressman John Dingell and 
Congressmen Rob Wittman, Ron Kind and Jason Smith. This year is the 
80th Anniversary of the issuance of the first Federal Duck Stamp.
    Under the Federal Duck Stamp Act, the price of the hunting stamp 
would increase from $15 to $25 dollars, the $10 increase would be used 
exclusively for acquiring conservation easements and the Congress would 
receive an annual report on expenditures. This would be the first price 
increase in 23 years and the legislation is strongly supported by Ducks 
Unlimited who we will hear from today.

                                 ______
                                 

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
DELEGATE IN CONGRESS FROM THE TERRITORY OF THE NORTHERN MARIANA 
                            ISLANDS

    Mr. Sablan. Well, thank you very much, Mr. Chairman. And 
thank you for holding today's hearing.
    Good morning everyone. And I am always in awe when the Dean 
of the House, Mr. John Dingell, is present in any room, one of 
our strong, very strong conservationists in Congress. And 
welcome, Congressman Dingell.
    Today, we will hear testimony on four bills related to 
programs that the U.S. Fish and Wildlife Service administers, 
including the Migratory Bird Treaty Act, the National Wildlife 
Refuge System and the National Fish Hatchery System. Some of 
these bills are well-intentioned, but I cannot help but notice 
that some of them are also at odds with each other, both in 
practice and in principle.
    I am happy to see we will be considering H.R. 5069, 
Chairman Fleming's bill to authorize an increase in the price 
of the Federal Duck Stamp from $15 to $25. Revenue from Duck 
Stamps provide funding for the purchase and conservation of 
wetland habitats, critical to maintaining healthy populations 
of waterfowl and other wildlife.
    This increase is long overdue. And while I do not support 
the provision of the bill that prohibits the additional funds 
from being used for fee simple purchase of land, I hope we can 
work together with the Senate to make a version of this bill 
law by the end of this Congress. High hopes working with the 
Senate.
    Ironically, while H.R. 5069 seeks to increase habitat for 
ducks, geese and other waterfowl prized by hunters, bird 
watchers and other outdoor enthusiasts, H.R. 3409 seeks to 
limit it. This bill would eliminate the Fish and Wildlife 
Service's authority to add lands to our National Wildlife 
Refuge System, requiring instead that each refuge expansion be 
approved by an Act of Congress. When you consider that 98 
percent of Duck Stamp dollars are currently spent on adding 
land to the National Wildlife Refuge, it is hard to imagine how 
someone could support both bills. Together H.R. 5069 and H.R. 
3409 would create a mandate to increase funding for the 
conservation of wetlands essential to the survival and recovery 
of waterfowl while at the same time prohibiting the Service 
from actually using it.
    Wildlife refuges provide immense benefits to Americans, 
particularly those who hunt, fish and otherwise enjoy the 
outdoors. In 2013, recreation in the refuge system generated 
$2.4 billion in sales and economic output, created 35,000 new 
U.S. jobs and $793 million in employment income, which 
contributed more than $342 million in tax revenue. And all 
these benefits were gained from a refuge system which occupies 
less than 1 percent of the land area of the contiguous United 
States. By comparison almost 2 percent of our land area is 
leased for exploitation of oil and gas reserves. And nearly 9 
percent is leased for livestock grazing.
    The logic of H.R. 3409 suggests that every new mineral 
lease or grazing allotment should also require congressional 
approval, a restriction we can all agree would be as unpopular 
as it is impractical.
    Meanwhile, H.R. 5026 would actually require the Service to 
continue funding programs within the National Fish Hatchery 
System because of the recreational and economic benefits they 
provide to local communities. Wildlife refuges provide an even 
larger jolt to local and regional economies in addition to 
supporting $32 billion in ecosystem services, like water 
filtration, fish and wildlife protection and carbon 
sequestration. Yet, somehow spending money on the refuge system 
is too much government for some. I would hope that those 
Members who support government-subsidized rearing of non-native 
fish will also support investments in wildlife refuges.
    Finally, H.R. 3109 seeks to provide an exemption to the 
Migratory Bird Treaty Act for Alaskan Native handicrafts. The 
exemption appears consistent with other important conservation 
laws, but also I realize we have treaty obligations that may 
complicate matters.
    I look forward to hearing from my witnesses about that and 
the other bills before us today. And I really look forward to 
having Chairman Fleming join me on the small island of Saipan 
very soon.
    Thank you very much and good morning.

    [The prepared statement of Mr. Sablan follows:]
Prepared Statement of the Hon. Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
    Thank you Mr. Chairman.
    Today we will hear testimony on four bills related to programs that 
the U.S. Fish and Wildlife Service administers, including the Migratory 
Bird Treaty Act, the National Wildlife Refuge System and the National 
Fish Hatchery System. Some of these bills are well intentioned, but I 
cannot help but notice that some of them are also at odds with each 
other, both in practice and in principle.
    I am happy to see we will be considering H.R. 5069, Chairman 
Fleming's bill to authorize an increase in the price of the Federal 
Duck Stamp from $15 to $25. Revenue from Duck Stamps provides funding 
for the purchase and conservation of wetland habitats critical to 
maintaining healthy populations of waterfowl and other wildlife. This 
increase is long overdue, and while I do not support the provision of 
the bill that would prohibit the additional funds from being used for 
fee simple purchase of land, I hope that we can work together with the 
Senate to make a version of this bill law by the end of this Congress.
    Ironically, while H.R. 5069 seeks to increase habitat for ducks, 
geese, and other waterfowl prized by hunters, birdwatchers, and other 
outdoor enthusiasts, H.R. 3409 seeks to limit it. This bill would 
eliminate the Fish and Wildlife Service's authority to add lands to our 
National Wildlife Refuge System, requiring instead that each Refuge 
expansion be approved by an Act of Congress.
    When you consider that 98 percent of Duck Stamp dollars are 
currently spent on adding land to National Wildlife Refuges, it is hard 
to imagine how someone could support both bills. Together, H.R. 5069 
and H.R. 3409 would create a mandate to increase funding for the 
conservation of wetlands essential to the survival and recovery of 
waterfowl, while at the same time prohibiting the Service from actually 
using it.
    Wildlife Refuges provide immense benefits to all Americans--
particularly those who hunt, fish, and otherwise enjoy the outdoors. In 
2013, recreation in the Refuge System generated $2.4 billion in sales 
and economic output, created 35,000 U.S. jobs and $793 million in 
employment income, which contributed more than $342 million in tax 
revenue.
    And all these benefits were gained from a Refuge System which 
occupies less than 1 percent of the land area of the contiguous United 
States. By comparison, almost 2 percent of our land area is leased for 
exploitation of oil and gas reserves and nearly 9 percent is leased for 
livestock grazing. The ``logic'' of H.R. 3409 suggests that every new 
mineral lease or grazing allotment should also require congressional 
approval, a restriction that we can all agree would be as unpopular as 
it is impractical.
    Meanwhile, H.R. 5026 would actually require the Service to continue 
funding programs within the National Fish Hatchery System, because of 
the recreational and economic benefits they provide to local 
communities. Wildlife Refuges provide an even larger jolt to local and 
regional economies--in addition to supporting $32 billion in ecosystem 
services like water filtration, fish and wildlife production, and 
carbon sequestration--yet somehow spending money on the Refuge System 
is too much government for some. I would hope that those members who 
support government subsidized rearing of non-native fish will also 
support investments in Wildlife Refuges.
    Finally, H.R. 3109 seeks to provide an exemption to the Migratory 
Bird Treaty Act for Alaskan Native handicrafts. The exemption appears 
consistent with other important conservation laws, but also I realize 
we have treaty obligations that may complicate matters. I look forward 
to hearing from our witnesses about that, and the other bills before us 
today.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman, and I look forward to 
the trip as well.
    At this time, I would ask unanimous consent that the 
gentleman from Michigan, Congressman John Dingell; the 
gentleman from Arizona, Congressman Paul Gosar; the gentleman 
from Tennessee, Congressman Steve Fincher; and the gentleman 
from Arkansas, Rick Crawford, be allowed to sit with the 
subcommittee and participate in the hearing. Hearing no 
objections, so ordered.
    Based on the traditions of the subcommittee, I would now 
like to recognize the Dean of the House, who is making his way, 
and we will certainly allow time, but the Dean of the House, 
Congressman John Dingell, for comments that he would like to 
make.

    STATEMENT OF THE HON. JOHN DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for your courtesy to 
me. I have a prepared statement which I will personally submit 
for the record.
    This is not the first time I have been in this room. I used 
to be in this room when it was the Committee on Interstate and 
Foreign Commerce, which had that painting done up there some 
time in the past.
    Dr. Fleming. Mr. Dingell?
    Mr. Dingell. That lady up there is----
    Dr. Fleming. Mr. Dingell, sir, would you turn your 
microphone on so we can better hear you?
    Mr. Dingell. I have a bad relationship with these, Mr. 
Chairman.
    But I later served on this when it was also the Committee 
on Merchant Marine and Fisheries during which time we did a 
great deal of work on trying to preserve the refuge system.
    It is a very happy system. It works well. And it has had no 
controversy that I can recall except one instance, which I 
recalled last night when I was going over it. Basically, the 
refuge, we have two proponents to the refuge system, the one 
which is set aside by Executive Order by the President. The 
other is that which comes out of the purses of Migratory Bird 
Duck Stamps.
    Your comments on that one were entirely fitting. And it is 
a serious problem that we are seeing land costs go up, receipts 
go down and the amount of land acquired being severely hurt.
    The Fish and Wildlife Service is a public-friendly 
institution. And it is not one which causes all manner of 
trouble and controversy, and particularly with regard to 
administration of refuges. They are open to hunting as much as 
the Congress allows. They are open to fishing. They are open to 
all kinds of beneficial recreational use. And they are 
generally very popular in the communities in which they are.
    We have one on which I have worked, which is the Detroit 
River International Wildlife Refuge and which we are bringing 
the Canadians in. And they are going to put some 11,000 acres 
where we are putting 6,000. And the number of our acres 
contributed is going to grow up as in times past.
    One of the things you would be surprised at is how much 
land is being given not by conservation organizations but by 
businesses. Ford gave us just recently Henry Ford II's private 
duck marsh, which is about 243 acres of really gorgeous land 
which is now available for public use and which ties into other 
recreational and conservation endeavors which we are making.
    The only instance in which I can recall where there was any 
differences at all with regard to including any land in a 
Migratory Bird Refuge occurred at a meeting of the Commission. 
The Commission has to sit there and to approve each and every 
one of these. And one of the requirements that the refuge--that 
the Commission wants to prove is, has the state approved? On 
one occasion, we had a little bit of sputtering down in Texas. 
And that was caused largely by the fact that there was a 
controversy between different agencies in the Texas government. 
I had the opportunity and the privilege to speak to two of the 
people who were up there and to say, ``Fellows, you have got 
together.'' Well, it turned out we got it all--we got it all 
stitched together. They were happy, and there is no controversy 
whatsoever.
    So I am here this morning, Mr. Chairman, to urge the 
increase in the Migratory Bird Stamp. It is a fine expenditure 
of money, and they are in lieu of cash payments--rather in lieu 
of tax payments, which were made available from refuge receipts 
which go to the states and the local units in government to 
address the problem if they are not able to get the amount of 
money that they used to get when these items were on the tax 
rolls. But they do have other benefits which are clearly 
visible.
    The first of the refuges which was created was in 1903 by 
Teddy Roosevelt. And it was Pelican Island down off the Florida 
coast. It is just about 100 years ago as a matter of fact that 
we are looking at.
    There has been virtually no controversy on this matter 
except in instances where the Presidents have been using their 
executive authority to increase the amount of land in the 
refuge by increasing single refuges or by increasing the total 
amounts.
    What I am here to speak to you about, Mr. Chairman, 
particularly is that, what I am talking about very specifically 
is the few bucks that are put into this by the migratory bird 
hunters who buy the Duck Stamps which are then used to pay for 
the cost of the lands which are then included in the refuge 
system. Those have created no controversy whatsoever, and I 
would hope that the committee, in its wisdom, would recognize 
that this is a desirable and a useful thing, one which creates 
no controversy and no difficulty.
    And I would point out one other thing. We have a policy on 
the Commission that the land may not be acquired except with 
the approval of the state, but it may also not be acquired if 
there is any controversy about it. And only in the fewest 
occasions have we ever used condemnation to acquire land. And 
the only times that I can recall that that ever was done, it 
was done when we had to use that device to clear title.
    So, Mr. Chairman, you have been extraordinarily courteous 
to me, the committee has. I thank you and my friends and 
colleagues on the committee, particularly our ranking friend, 
the Ranking Member. And I also see my old friend, Mr. Young, 
who used to work with me on this to deal with his Alaska land 
problems. We developed an extraordinary friendship during that 
time, one which has meant a lot to me.
    So, Mr. Chairman, your courtesy has been extraordinary, and 
I thank you for your kindness.

    [The prepared statement of Mr. Dingell follows:]
  Prepared Statement of the Hon. John D. Dingell, a Representative in 
     Congress from the State of Michigan on H.R. 3409 and H.R. 5069
    Chairman Fleming and Ranking Member Sablan, thank you for the 
opportunity to testify today about our country's wildlife refuge 
system, a system which I have spent my entire career working to expand 
and protect.
    On March 14, 1903, the Pelican Island National Wildlife Refuge was 
established by President Theodore Roosevelt as the first wildlife 
refuge. Over the last 100 years, presidents from both parties have 
created roughly 90 percent of our refuges.
    I remember hunting in Humbug Marsh on the Detroit River with my 
dear dad when I was young and I vowed it would be my life's mission to 
make sure these areas would exist for generations to come. These 
refuges are treasures, to be enjoyed by millions of people every year 
who want to hunt, fish, or just enjoy the outdoors. The refuge system 
boosts our economy as well. According to a study by the U.S. Fish and 
Wildlife Service, use of these national wildlife refuges generated $1.7 
billion in economic activity and supported 27,000 private sector jobs.
    Establishment of a refuge does not instantly make the Federal 
Government a steward of an area of land. It simply allows for the Fish 
and Wildlife Service to enter into a partnership with state and local 
governments. The executive branch must go through an exhaustive public 
process providing ample opportunity for public comment. If a community 
doesn't support it, the Fish and Wildlife Service does not go forward--
nor does the Service acquire land from anyone but a willing seller or 
participant. Moreover, before the Migratory Bird Conservation 
Commission votes on a Refuge expansion, or acquisition, for that 
matter, they gain both written and verbal approval from a 
representative of the affected state. To be clear, when these things 
come before the Commission there is no disagreement. None. And this 
through bipartisan administrations. The Federal Government simply does 
not take land from businesses or homeowners. My colleague, Member of 
the Natural Resources Committee, and fellow Member of the Commission, 
Mr. Wittman of Virginia can attest to that.
    While I have great respect for you, Mr. Chairman, and the sponsor, 
Mr. Fincher, I have serious reservations about H.R. 3409, the National 
Wildlife Refuge Expansion Limitation Act of 2013. This legislation 
would require Congress to authorize any expansion of a national 
wildlife refuge, doing away with a century of conservation precedent.
    We need to make conservation easier in this country, not harder. 
This bill would be detrimental to our Nation.
    I would also like to express my support for H.R. 5069, the Federal 
Duck Stamp Act of 2014. As a co-sponsor of this bipartisan legislation, 
I believe it is an excellent step in the right direction to expand and 
improve the refuge system. This bill would increase to price of a duck 
stamp from $15 to $25. This increase will allow Fish and Wildlife to 
acquire roughly 10,000 additional acres in conservation easements 
annually. While it is not the way I would have written the bill, it is 
significant progress which tracks with the current conservation trends.
    This subcommittee has the critical responsibility of overseeing our 
refuge system, one of our great national treasures that must be 
expanded and preserved for future generations. I hope my colleagues 
will do the right thing for the future of our refuge system by opposing 
H.R. 3409 and supporting H.R. 5069.
    Mr. Chairman, thank you for your courtesy. I yield back the balance 
of my time.

                                 ______
                                 

    Dr. Fleming. Well, I thank the gentleman. And certainly we 
know as Dean of the House, this is not your first rodeo, and we 
appreciate all the many years of work that you have done on 
this issue and similar issues. And, again, the Dean of the 
entire House, the Congressman from Michigan, who is retiring 
this year.
    So now the Chair would like to recognize a similar dean, 
Dean of the Republican House, the gentleman and only Member 
from Alaska.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. I thank you, Mr. Chairman. And, again, I 
acknowledge my good friend, John Dingell, for the work we have 
done together on a lot of fish and wildlife issues. It has been 
I think a good thing for the Nation.
    You may not know it but Mr. Dingell and I used to hunt 
together a lot, and he was a fine shot. I always admired him 
for that. I mean he did well.
    Mr. Dingell. We did very well.
    Mr. Young. And, Mr. Chairman, thank you for being here 
today.
    Thank you, Mr. Chairman and Ranking Member. My bill is very 
simple, H.R. 3109, although opposed by the administration, 
which is no surprise, for thousands of years, the inclusion of 
bones, feathers and other non-edible bird parts in traditional 
handicraft have been commonplace in Alaskan Native culture. 
However, the issue came to light a couple of years ago when a 
widely celebrated Tlingit artist was cited by the U.S. Fish and 
Game Service for including feathers in a piece he offered or 
sale. By the way, the feathers came from a roadkill. While he 
could have served jail time and received a hefty fine, he did 
settle with the Service because of the so-called interpretation 
of the law. But he did pay a couple of thousand dollars, which 
is no small fee for this one person.
    As a result of 2012, the Alaskan Federation of the Natives 
passed a resolution supporting a legislative fix for a problem 
that many Native artists were previously unaware even was a 
problem. The legislation you have before you today is a result 
of their request. H.R. 3109 would recognize legitimate 
subsistence needs of Alaskan Natives and allow the sale of 
handicrafts that include non-edible migratory parts. Handicraft 
sales are often a small but important economic activity for 
remote villages in my state.
    Further, other laws, such as the Marine Mammal Protection 
Act, include a similar subsistence exemption for other species, 
and H.R. 3109 seeks to apply equal treatment for this subject 
to the artistic community. The bill is unanimously supported by 
the Alaskan Natives of the Alaska Migratory Bird Co-Management 
Council, the managing body that helps inform subsistence bird 
hunting.
    Again, I thank you, Mr. Chairman and the Ranking Member, 
for including this bill in today's hearing, and I urge the 
committee to advance this bill. I yield back.
    Dr. Fleming. I thank the gentleman, my friend from Alaska.
    The chair now would like to recognize the gentleman from 
Arizona who is a member of the full committee, Congressman Paul 
Gosar, for any statement he would like to make on his bill, 
H.R. 5026, and any introductions he would like to make of the 
two distinguished witnesses from Arizona who will testify 
today.

  STATEMENT OF THE HON. PAUL GOSAR, A REPRESENTATIVE FROM THE 
                        STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman Fleming and members of the 
subcommittee. I thank you for the opportunity to testify 
regarding the future of the National Fish Hatchery System and 
the need for passage of H.R. 5026.
    I am extremely pleased to be joined today at this hearing 
by two witnesses from my home state of Arizona: Chairman Angius 
and Chairman Mansell. I really appreciate you both making the 
trip and look forward to your testimonies.
    The Fish Hatchery Protection Act, H.R. 5026, will preserve 
the propagation of fish hatcheries and propagation programs 
within the National Fish Hatchery System and stipulates that 
only Congress can authorize the termination or significant 
alteration of such facilities or programs.
    In November 2013, the Fish and Wildlife Service released a 
Strategic Hatchery and Workforce Planning Report. With the 
release of this report, the administration arbitrarily changed 
the priorities for the five different propagation program 
categories and announced their intent to close propagation 
programs and possibly hatcheries throughout the Nation in 
Fiscal Year 2015.
    The Fish and Wildlife Service is attempting to unilaterally 
turn over our National Fish Hatchery System into an Endangered 
Species Recovery Program. As a result of the November 2013 
report, the two propagation program categories which direct 
funds toward species conservation will receive almost all the 
funding from the hatchery system. Currently, there are at least 
28 recreational fish hatchery propagation programs on the 
Service's hit list. Such actions will be particularly harmful, 
especially in the light of the fact that our National Fish 
Hatchery System has already been reduced from approximately 140 
hatcheries to 70 hatcheries.
    The bureaucratic decision to terminate recreational fishing 
propagation programs is extremely misguided, as several of the 
hatcheries affected were constructed more than 50 years ago for 
the sole purpose of offsetting the loss of native fisheries 
resulting from the construction of Federal dams. This was the 
case for the Willow Beach National Fish Hatchery in my 
district, which was created to counter the negative impacts 
that resulted from the construction of the Hoover Dam.
    On November 24, 2013, the Willow Beach Hatchery was 
instructed by the U.S. Fish and Wildlife Service to terminate 
its recreational fishing propagation program. The pathetic 
excuse used by the Service for terminating the rainbow trout 
stocking program at the time was that the agency did not have 
the $1.5 to $8.5 million to repair a broken water supply line 
and keep the stocking program going. Recent engineering reports 
indicate these estimates were a gross exaggeration and that the 
broken water supply line will only cost around $100,000 to fix.
    Such deceptive behavior by the Fish and Wildlife Service 
cannot be tolerated. Furthermore, altering the fundamental 
goals and purposes of the National Fish Hatchery System should 
not be done via executive fiat and without an official public 
comment and without approval from Congress.
    Unfortunately, the Fish and Wildlife Service either does 
not get it or simply wants to focus on their own misguided 
agenda. When asked at a Capitol Hill briefing on the subject 
whether he considered the $28 return to local economies for 
every dollar invested, the representative for the Fish and 
Wildlife Service stated it is not something that factors into 
their decisionmaking. Really?
    Trout stocking propagation programs in Arkansas and 
Oklahoma are so successful that a recent economic analysis 
found that for every dollar from a fish hatchery operation 
budget spent, $95 was put back into the economy. Recreational 
fishing propagation programs generate hundreds of thousands of 
dollars of private and public investment from non-Federal 
entities. In 2011, recreational fishing supported nearly 
365,000 jobs and contributed more than $70 billion to our 
economy.
    My bill provides economic certainty for local communities 
and is retroactive to November 1, 2013, prior to the date when 
the Fish and Wildlife Service publicly announced their intent 
to terminate these important propagation programs.
    This legislation will preserve jobs and ensure the 
continuation of vibrant recreation fishing economies throughout 
the Nation. H.R. 5026 has bipartisan support and currently 
cosponsors of the bill include former Natural Resources 
Chairman Rick Rahall from West Virginia; Doug Collins from 
Georgia; Mike Michaud from Maine; Rick Crawford to my right 
from Arkansas; Ann Kirkpatrick, a Democrat from Arizona; Phil 
Roe from Tennessee; G.K. Butterfield from North Carolina; Kevin 
Cramer from North Dakota; Tim Griffin from Arkansas and Joe 
Heck from Nevada.
    The bill has also been endorsed by the Association of Fish 
and Wildlife Agencies, the American Sports Fishing Association 
and Mohave Board of Supervisors.
    Trout Unlimited also has some nice things to say about this 
bill, and I would like to submit their letter for the record at 
this time.
    Dr. Fleming. With no objection, so ordered.

    [The letter submitted for the record by Trout Unlimited 
follows:]

              Letter Submitted for the Record on H.R. 5026

                                   Trout Unlimited,
                                             Arlington, VA,
                                                     July 22, 2014.
Hon. Paul Gosar,
U.S. House of Representatives,
504 Cannon House Office Building,
Washington, DC 20515.

    Dear Representative Gosar:

    On behalf of more than 153,000 Trout Unlimited (TU) members, I 
write to thank you for attention to the funding and management issues 
regarding the hatcheries of the U.S. Fish and Wildlife Service (FWS), 
some of which are at risk of closure. These facilities provide a wealth 
of recreational fishing and youth education opportunities, and support 
thousands of jobs. We appreciate the goals of your Bipartisan Fish 
Hatchery Protection Act (H.R. 5026), the hearing to be held by the 
subcommittee on the bill, and your ongoing efforts to compel the FWS to 
do a better job of coordinating its hatchery decisions with state, 
Federal, and conservation group partners.
    The FWS Fisheries Program is a vital component of the Nation's 
fisheries conservation efforts. The Fisheries Program provides numerous 
benefits, including fish habitat restoration, invasive species 
management, and recreational fisheries. The state fishery management 
agencies also play an essential role in fisheries management across the 
Nation, and increasingly groups such as Trout Unlimited and The Nature 
Conservancy are working with the states and the FWS on fish habitat 
restoration projects.
    As budgets have tightened over the past several years, a 
fundamental problem has arisen: while the FWS continues to do exemplary 
work with TU and its partners on fish habitat, invasive species, and 
other projects that benefit recreational fisheries, it has fallen short 
in other areas. In particular, it has failed to work effectively with 
the states and other partners to maximize the benefits of its hatchery 
system.
    This problem has resulted in annual threats of disruptive hatchery 
closures, which thankfully have been avoided by effective directives 
and funding provided by Congress, and increasing amounts of funding 
provided for FWS mitigation hatcheries by Federal dam operating 
agencies such as the Army Corps, Bureau of Reclamation, and TVA.
    Congressional consideration of H.R. 5026 will help compel action on 
two needed solutions. First, Congress, FWS, state fishery agencies, and 
the Federal dam operating agencies need to work together to find the 
funding needed to keep the hatchery system functioning for the next 
several years to allow development of longer term solutions. For 
example, last year we commended TVA for its decision to fund its share 
of mitigation costs for hatcheries in the southeast for 3 years to 
allow for longer term solutions to be developed. Also, we support the 
strong language recently unveiled by the House Interior Appropriations 
Subcommittee in its FY 2015 bill and accompanying committee report to 
do just what we recommend: add $5 million to the administration's 
request for the hatchery program, and direct the FWS to do a better job 
of working with its state partners to find long-term solutions.
    Second, FWS must engage in a meaningful dialog with its Federal 
agency (Corps, TVA, and Bureau of Reclamation), state, and conservation 
group partners to develop long-term solutions. TU doesn't have all of 
the answers. In some cases, state agencies, perhaps aided with FWS 
funding, may be the best entities to operate some of facilities 
currently run by the FWS. What we do know is that agreement among 
partners on how to proceed is critical for future success. FWS must 
lead the dialog and find the solutions that are supported by its 
partners.
    Having worked on these issues for 25 years, we are confident that 
viable long-term solutions are within reach, and the modest funding 
needed to enable them is available. We appreciate your bill, the 
hearing on it, and the constructive role you continue to play to solve 
the problem.
    Thank you for your consideration of our views.

            Sincerely,

                                               Steve Moyer,
                             Vice President for Government Affairs.

                                 ______
                                 

    Dr. Gosar. My hope is that today's hearing will further 
strengthen the bipartisan effort to protect our National Fish 
Hatchery System, an important propagation program. I appreciate 
the opportunity to discuss this important legislation. And with 
that, Mr. Chairman, I yield back.

    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Chairman Fleming and members of the subcommittee, thank you for the 
opportunity to testify regarding the future of the National Fish 
Hatchery System and the need for passage of H.R. 5026.
    I am extremely pleased to be joined today at this hearing by two 
witnesses from my home state of Arizona. Chairman Angius and Chairman 
Mansell, I really appreciate you both making the trip and look forward 
to your testimonies.
    The Fish Hatchery Protection Act, H.R. 5026, will preserve 
propagation fish hatcheries and propagation programs within the 
National Fish Hatchery System and stipulates that only the Congress can 
authorize the termination or significant alteration of such facilities 
or programs.
    In November 2013, the Fish and Wildlife Service released its 
``Strategic Hatchery and Workforce Planning Report.'' With the release 
of this report, the administration arbitrarily changed the priorities 
for the five different propagation program categories and announced 
their intent to close propagation programs, and possibly hatcheries, 
throughout the Nation in Fiscal Year 2015.
    The Fish and Wildlife Service is attempting to unilaterally turn 
our National Fish Hatchery System into an endangered species recovery 
program. As a result of the November 2013 report, the top two 
propagation program categories which direct funds toward species 
conservation, are now receiving almost all the funding from the 
Hatchery System. Currently, there are a total of 28 recreational 
fishing propagation programs that have been terminated or slated for 
termination. Such actions will be particularly harmful, especially in 
light of the fact that our National Fish Hatchery System has already 
been reduced from approximately 140 hatcheries to 70 hatcheries.
    The bureaucratic decision to terminate recreational fishing 
propagation programs is extremely misguided as several of the 
hatcheries affected were constructed more than 50 years ago for the 
sole purpose of offsetting the loss of native fisheries resulting from 
the construction of Federal dams. This is the case for the Willow Beach 
National Fish Hatchery in my district which was created in 1962 to 
counter the negative impacts on fishery resources that resulted from 
construction of the Hoover Dam.
    On November 24, 2013, the Willow Beach Hatchery was instructed by 
the U.S. Fish and Wildlife Service to focus on producing suckers and 
other fish that do not attract anglers or generate revenues for local 
economies and to terminate its recreational fishing propagation 
program.
    The excuse used by the Service for terminating the rainbow trout 
stocking program at the time was that the agency didn't have the $1.5 
to $8.5 million to repair a broken water supply line. Recent 
engineering reports indicate these estimates were a gross exaggeration 
and that the broken water supply line will only cost around $250,000 to 
fix.
    Such deceptive behavior by the Fish and Wildlife Service cannot be 
tolerated. Furthermore, altering the fundamental goals and purposes of 
the National Fish Hatchery System should not be done via executive fiat 
and without a public comment period or approval from Congress.
    Recreational fishing propagation programs are the driving force for 
many rural economies.
    Unfortunately, the Fish and Wildlife Service either doesn't get it 
or simply wants to focus on their own misguided agenda. When asked at a 
Capitol Hill briefing on the subject whether he considered the $28 
dollar return to local economies for every dollar invested, the 
representative for the Service stated that is ``not something that 
factors into their decisionmaking.''
    The trout stocking propagation programs in Arkansas and Oklahoma 
are so successful that a recent economic analysis found that for 
``every $1 of hatchery operational budget spent, $95 was put back into 
the economy.''
    Recreational fishing propagation programs generate hundreds of 
thousands of dollars of private and public investment from non-Federal 
entities. In 2011, recreational fishing supported nearly 365,000 jobs 
and contributed more than $70 billion to our economy.
    My bill provides economic certainty for local communities as it is 
retroactive to November 1, 2013, prior to the date when the Fish and 
Wildlife Service publically announced their intent to terminate these 
important propagation programs and hatcheries. This legislation will 
preserve jobs and ensure the continuation of vibrant recreational 
fishing economies throughout the Nation.
    H.R. 5026 has bipartisan support and current co-sponsors of the 
bill include: Representatives Doug Collins (R-GA), Mike Michaud (D-ME), 
Rick Crawford (R-AR), Ann Kirkpatrick (D-AZ), Phil Roe (R-TN), Kevin 
Cramer (R-ND), Tim Griffin (R-AR) and Joe Heck (R-NV).
    My hope is that today's hearing will further strengthen the 
bipartisan effort to protect our National Fish Hatchery System and 
important propagation programs. I appreciate the opportunity to discuss 
this important legislation and with that, Mr. Chairman, I yield back.

                                 ______
                                 

    Dr. Fleming. The gentleman yields his time.
    I thank you all for your opening statements and comments.
    We would now like to hear from our first panel of 
witnesses, which includes Mr. Steve Guertin, Deputy Director 
for Policy, U.S. Fish and Wildlife Service; and the Honorable 
Robert E. Mansell, Chairman, Arizona Game and Fish Commission.
    Your written testimony will appear in full in the hearing 
record so I ask that you keep your oral statements to 5 
minutes, as outlined in our invitation letter to you and under 
Committee Rule 4(a).
    Our microphones are not automatic. I think you are probably 
familiar with them but, as you can tell, it is important to 
have the tip close by so we can pick up sound. The time clock 
will be under green 4 minutes, then yellow for a minute, and 
when it turns red, please go ahead and immediately complete 
your comments.
    Mr. Guertin, you are now recognized for 5 minutes to 
present testimony on behalf of the U.S. Fish and Wildlife 
Service.

  STATEMENT OF STEVE GUERTIN, DEPUTY DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Guertin. Chairman Fleming, Ranking Minority Member 
Sablan and members of the subcommittee, I am Steve Guertin, 
deputy director for the United States Fish and Wildlife 
Service.
    Mr. Chairman, thank you for your leadership in introducing 
H.R.----
    Mr. Young. Hold that microphone a little closer to you, 
please.
    Mr. Guertin. I'm sorry, Congressman.
    Mr. Young. Is it on?
    Mr. Guertin. Is that better?
    Mr. Young. Yes, OK.
    Mr. Guertin. Thank you, Congressman.
    Mr. Chairman, thank you for your leadership in introducing 
H.R. 5069, to increase the price of the Federal Duck Stamp. The 
price of the Duck Stamp has not changed since 1991 while the 
cost of purchasing land has tripled. This price increase will 
restore the Duck Stamp's purchasing power. At a time when 
wetlands in the Prairie Pothole Region are decreasing, H.R. 
5069 will provide the revenue that is needed to conserve key 
habitats for migratory waterfowl.
    The Duck Stamp is a critical tool that benefits hunters and 
wildlife enthusiasts who make substantial contributions to the 
Nation's economy in pursuit of their passions.
    We support H.R. 5069 and have some suggestions that would 
make the bill even more effective. We look forward to 
discussing these with the subcommittee as the bill moves 
through the legislative process.
    The Department opposes the other bills before the 
subcommittee today. H.R. 3409, the National Wildlife Refuge 
Expansion Limitation Act, would create hurdles and uncertainty 
in the Service's effective and transparent land planning 
protection process. This process is rooted in the organic act 
for the National Wildlife Refuge System. It has resulted in the 
deliberate and transparent expansion of many popular national 
wildlife refuges. These expansions have enhanced wildlife 
conservation. They have also been boons to local communities by 
providing visitors with opportunities to hunt, fish and observe 
wildlife while contributing to numerous sectors of the economy.
    Congress provided the Service with the tools to create and 
expand refuges, and the Service has used this authority in a 
manner that is transparent, involves public engagement and is 
based on scientific data driven by our mission to conserve 
priority habitat and ecosystems.
    When high-priority conservation needs align with public 
support and the presence of willing sellers, the Service is 
able to expand an acquisition boundary. We do not expand 
refuges without substantial support from the local citizens, 
and our refuges want to be good neighbors and a source of pride 
for the communities where they are located.
    It is also important to be clear about the effect of an 
acquisition boundary. It authorizes the Service to purchase fee 
title or conservation easements within the boundary from 
willing sellers if and when funds are appropriated by the U.S. 
Congress.
    H.R. 5026, the Fish Hatchery Protection Act, would prohibit 
the Service from closing or reprogramming funds for any fish 
propagation hatchery or propagation program within the National 
Fish Hatchery System unless it is expressly authorized by the 
U.S. Congress. This would jeopardize our ability to be good 
managers and effective stewards of the hatchery system. For 
example, the bill would affect our ability to shift resources 
among hatchery facilities or even within a facility. It would 
also require the Service to produce fish and eggs that may not 
be needed or even requested by our partners and stakeholders 
leading to inefficient and potentially wasteful expenditures of 
taxpayer funds.
    H.R. 3409 would amend the Migratory Bird Treaty Act to 
authorize activities that may be in violation of international 
treaty obligations. Our understanding is that Migratory Bird 
Treaty obligations greatly limit the activities that the bill 
would exempt. The Service is working closely with the Alaska 
Migratory Bird Co-Management Council to more clearly define 
these limitations but this review is not complete at this time.
    We believe the Council process will produce the best 
opportunity for Alaskan Natives while providing sustainable 
migratory bird populations and ensuring the integrity of the 
international migratory bird conservation treaties.
    Mr. Chairman, that concludes my statement. We are happy to 
answer any questions that you may have. We look forward to 
working with the subcommittee on the Federal Duck Stamp Act, 
and we again thank you for introducing this bill.

    [The prepared statement of Mr. Guertin follows:]
  Prepared Statement of Steve Guertin, Deputy Director, U.S. Fish and 
 Wildlife Service, Department of the Interior on H.R. 3109, H.R. 3409, 
                        H.R. 5026, and H.R. 5069
    Chairman Fleming, Ranking Member Sablan, and members of the 
subcommittee, I am Steve Guertin, Deputy Director of the U.S. Fish and 
Wildlife Service (Service) within the Department of the Interior 
(Department). I appreciate the opportunity to appear before the 
subcommittee today to testify on a range of bills that affect the 
Service's mission and responsibilities.
  h.r. 3109, a bill to amend the migratory bird treaty act to exempt 
certain alaska native articles from prohibitions against sale of items 
   containing nonedible migratory bird parts, and for other purposes.
    The Department recognizes the economic and cultural need in Alaska 
Native communities to improve their quality of life with opportunities 
to benefit from their unique handicrafts and other traditional items. 
However, the Department does not support H.R. 3109. This bill would 
amend the Migratory Bird Treaty Act (MBTA) to provide statutory 
authority for activities that may be in violation of current 
international migratory bird conservation treaty obligations.
    The MBTA implements four international treaties the United States 
holds with Canada, Mexico, Japan, and Russia. These treaties protect a 
wide range of avian families and species that migrate through or 
stopover in the United States and the treaty nations. The MBTA 
prohibits ``take,'' possession, sale, barter, purchase, shipment, or 
transport of birds, feathers, eggs or other such products, and it is in 
part designed to protect bird populations from vulnerability to the 
demands of commercial use. For example, in 1886, 5 million birds were 
estimated to be killed for their feathers. When Congress passed the 
MBTA in 1918, it sought to put an end to the commercial trade in birds 
and their feathers that, by the early years of the 20th century, had 
devastated populations of many native bird species.
    H.R. 3109 would allow Alaskan Natives to make and sell any 
handicraft or clothing made from the nonedible parts of federally 
protected bird species from birds taken in a manner that is not 
wasteful, provided these are made without the use of mass copying 
devices. Our understanding is that migratory bird treaty obligations 
greatly limit such activities. The Service is working closely with the 
Alaska Migratory Bird Co-Management Council to more clearly define 
these limitations, but this review is not complete. We would be pleased 
to keep your subcommittee apprised of these efforts and to continue to 
work with you to address this very important issue.
    h.r. 3409, the national wildlife refuge expansion limitation act
    The Department strongly opposes H.R. 3409, the National Wildlife 
Refuge Expansion Limitation Act. H.R. 3409 would create an additional, 
uncertain hurdle to the Service's effective and transparent Land 
Protection Planning (LPP) process. This process has resulted in the 
careful expansion of many popular refuges that are vital for wildlife 
conservation, valued and supported by local communities, provide 
visitors with opportunities to hunt, fish and observe wildlife, and 
contribute to numerous sectors of the economy. When priority 
conservation needs and values, public support, and the presence of 
willing sellers align to allow for the establishment or expansion of a 
refuge, the Service must be able to act. Authority to strategically 
grow the Refuge System, as we have been directed to do by Congress, is 
important to the conservation of our Nation's fish and wildlife 
populations.
    The Refuge System is the world's premiere network of public lands 
devoted solely to the conservation of wildlife and habitat. It 
encompasses over 150 million acres of land and water, preserves a 
diverse array of land, wetland, and ocean ecosystems. The Refuge System 
offers about 47 million visitors per year the opportunity to fish, 
hunt, observe and photograph wildlife, as well as learn about nature 
through environmental education and interpretation. These visitors make 
refuges an important economic driver, generating nearly $2.4 billion 
for local economies each year. Investing in the Refuge System is a 
sound use of taxpayer dollars as each dollar appropriated for the 
Refuge System returns nearly $5 in economic benefits. Refuges also 
provide local communities with other ecosystem services, such as 
improved water quality, increased property values, and access to 
quality wildlife-dependent recreation.
    However the Refuge System, with all its benefits, is facing ever 
increasing pressures and difficulties. Populations are growing rapidly, 
the amount of undeveloped land is declining, the economic environment 
is challenging, and we are faced with conservation crises on several 
fronts. The Service must be strategic, flexible, and responsive in 
protecting declining undeveloped lands to ensure sufficient habitat is 
maintained to support America's wildlife populations in the future. In 
the National Wildlife Refuge System Improvement Act of 1997, Congress 
directed the Service to ``plan and direct the continued growth of the 
System in a manner that is best designed to accomplish the mission of 
the System, to contribute to the conservation of the ecosystems of the 
United States, to complement efforts of states and other Federal 
agencies to conserve fish and wildlife and their habitats, and to 
increase support for the System and participation from conservation 
partners and the public.'' Congress provided the Service with the tools 
to create and expand refuges and the Service has used this authority in 
a manner that is transparent, rooted in public engagement and founded 
on scientific data driven by our mission to conserve habitat and 
ecosystems.
    On January 30, 2014, the Service published a draft strategic growth 
policy to ensure that we continue to responsibly concentrate our 
limited resources on land protection efforts that make the greatest 
contribution to the conservation of species in a strategic, cost-
effective, and transparent manner.
    The Service uses land protection planning to study opportunities to 
conserve land, including by adding it to the Refuge System. Conserving 
wildlife through land protection is an adaptive, public, and voluntary 
process, founded on the best scientific processes and data available. 
We use this data to identify gaps in the conservation estate, which we 
define as lands that are protected at local or landscape scales by 
private, state, or Federal partners.
    When a need to conserve land is identified, a preliminary proposal 
is submitted to the Service's Director for approval to develop a 
detailed LPP. Development of a LPP is a public process, during which we 
reach out to state agencies, local communities, Congressional offices, 
and partners to inform and help shape the plan. The LPP is a planning 
document, not an acquisition plan. The Service uses the best available 
scientific information to analyze the effects of the LPP and 
alternatives on the physical, biological, social, and economic 
environment.
    If a LPP is approved, after a long period of study and public 
engagement, an acquisition boundary for the refuge is authorized. It is 
important to be clear about the effect of an authorized acquisition 
boundary: it authorizes the Service to purchase fee title or 
conservation easements within that boundary from willing sellers. Such 
purchases are subject to available funds and overall Service 
acquisition priorities. In many cases, much of the land within refuge 
acquisition boundaries remains in private ownership. The approved 
acquisition boundary gives landowners, within the boundary, another 
option for how they use their land.
    The expansion of an acquisition boundary does not result in new 
restrictions or regulations on landowners within or adjacent to the 
boundary. An expanded boundary does not lead to condemnation of private 
property or any form of coercive purchases. This is a voluntary program 
and it has been long-standing Service policy to acquire lands from 
willing sellers only. The expansion of an acquisition boundary does not 
lead to an aggressive campaign to purchase land or easements covering 
large swaths within the boundary. Rather, land purchases tend to occur 
gradually, taking decades to even begin to acquire significant portions 
of the land within the boundary for the refuge.
    As an example of how this process works, the Service considered a 
proposal to expand the acquisition boundaries for Chickasaw and Lower 
Hatchie National Wildlife Refuges, located in Tennessee, to protect and 
restore this high-quality bottomland hardwood forest habitat as well as 
places where the public can hunt, fish, and observe wildlife. The 
preliminary proposal encompassed approximately 120,000 acres in 
Lauderdale, Tipton, Haywood, and Dyer Counties in Tennessee. The public 
process for this proposal began in December 2012 when the Service 
launched a public scoping effort to seek input on the proposal. 
Congressman Fincher, sponsor of H.R. 3409, expressed his constituents' 
concerns with and opposition to the Service's proposed boundary 
expansion, and the project was halted. We simply do not create or 
expand refuges without substantial support from the local citizens. Our 
refuges want to be good neighbors and a source of pride for the 
communities where they are located.
    Public input also shaped the establishment of the Everglades 
Headwaters National Wildlife Refuge and Conservation Area. When the 
Service engaged the public during the planning process, the River Ranch 
Property Owners Association, a group of local landowners, opposed the 
establishment of the refuge and conservation area, envisioning that the 
Service would close access to any purchased lands as other Federal 
agencies had done elsewhere in Florida. We actively engaged with the 
River Ranch community and established a level of trust and 
understanding after multiple meetings over the course of a year. The 
Service listened to their concerns and, as a result, reevaluated our 
initial proposal. Ultimately, we removed the River Ranch landholdings 
from the proposal while maintaining the conservation integrity of the 
project. The overall outcome of the discussions between the Service and 
the River Ranch community has led to understanding and support for the 
Everglades Headwaters project.
    Without question, providing high-quality stewardship of the 
Nation's wildlife refuges requires resources, and refuge managers must 
make decisions within a prioritized framework to ensure key assets 
remain at sustainable levels. The Service sometimes faces questions 
about how the operational needs and maintenance backlog within the 
Refuge System relate to its pursuit of acquiring new fee-title land or 
conservation easements.
    The Service has a mandate to conserve fish, wildlife, and plants 
and their habitats. One of the most effective ways to do this is to 
protect areas that hold the greatest value for wildlife. Another 
compelling reason to purchase land or acquire easements is that 
consolidating fragmented lands often reduces operations and maintenance 
needs, thereby saving taxpayer dollars.
    Most new fee title or conservation easements acquired by the Refuge 
System simply serve to fill in the gaps. Many are private inholdings 
within or adjacent to an existing refuge parcel. Private inholdings may 
seem of small consequence, especially if the majority of the 
surrounding land is already protected and managed for wildlife, but 
those inholdings can have a disproportionate and often adverse effect 
on the ability of a refuge to achieve its purpose. Strategic 
acquisitions of fee title or easements can simplify management and 
reduce expenses related to signage, fencing, law enforcement patrols, 
legal permits, rights-of-way conflicts, fire-fighting, road 
maintenance, habitat management and restoration, and invasive species 
management. Such strategic acquisitions help the Service meet important 
conservation objectives.
              h.r. 5026, the fish hatchery protection act
    The Department strongly opposes H.R. 5026, the Fish Hatchery 
Protection Act, which would prohibit the closing, reprogramming, 
repurposing, decommissioning, significant alteration, or move to 
caretaker status of any fish and other aquatic species propagation 
hatchery or propagation program within the National Fish Hatchery 
System unless it is expressly authorized by an Act of Congress, for a 
period of more than 10 years, retroactive to November 1, 2013.
    The Department opposes this legislation because it would jeopardize 
our ability to fulfill our ongoing legal obligations, respond to new 
and constantly evolving environmental challenges, fulfill the 
expectations of our Federal, tribal, state and local partners, and 
cost-effectively manage the National Fish Hatchery System within an 
already strained Federal budget.
    The National Fish Hatchery System, comprised of 72 National Fish 
Hatcheries, 1 Historic National Fish Hatchery, Fish Technology Centers, 
Fish Health Centers, and the Aquatic Animal Drug Approval Partnership 
Program, has played a critical role in conserving America's fisheries 
for more than 140 years. This national and highly specialized network 
of facilities and employees not only provides fish and other species 
for stocking into America's waterways, helping to sustain economically 
and recreationally important fisheries, it plays a vital role in the 
recovery of threatened and endangered species, the restoration of 
imperiled species, and in fulfilling our trust obligations to Native 
American tribes.
    Working with our state partners, the National Fish Hatchery System 
restores native fish populations that support significant recreational 
fisheries, and H.R. 5026 would limit our ability to adapt the system to 
meet those challenges. The National Fish Hatchery System also 
propagates fish, native mussels, and other aquatic species listed as 
threatened or endangered species under the Endangered Species Act 
(ESA), and restores declining species before they are listed. The 
Service's work to propagate aquatic species also addresses our 
responsibilities under other Federal statutes, such as the Fish and 
Wildlife Coordination Act, as well as mitigation requirements 
established for individual Federal water resource development projects.
    In addition to the conservation mandates established by Federal 
fish and wildlife statutes, the Department has broad trust 
responsibilities to Native American Tribes. These include 
responsibilities required by treaty, statute, or pursuant to a consent 
decree or court order. By helping to ensure that tribes have continued 
access to native species important to their way of life, the National 
Fish Hatchery System also plays an essential role in meeting these 
trust responsibilities.
    The National Fish Hatchery System, however, has struggled with 
declining funding for a number of years. Significant increases in 
operational costs for fish food, fuel for distribution vehicles, and 
energy costs have contributed to these fiscal challenges. In Fiscal 
Year (FY) 2012 alone, the National Fish Hatchery System incurred a $2.1 
million shortfall in overall funding, and needed to reprogram Deferred 
Maintenance funding to cover operational shortfalls and continue fish 
propagation. The Service realized that this approach was not 
sustainable.
    As a result of those fiscal challenges and other financial issues 
plaguing the National Fish Hatchery System, the Service assembled a 
team of experts from across the county in 2012 to conduct a 
comprehensive review of the 70 active propagation hatcheries. The 
purpose of this review was to position hatcheries to meet national 
aquatic resource conservation needs, operate hatcheries consistent with 
available funding and without having to borrow from other accounts, 
identify the highest priority propagation programs, and make informed 
management decisions under a range of potential budget scenarios. The 
National Fish Hatchery System: Strategic Hatchery and Workforce 
Planning Report (Report) is the product of that comprehensive review. 
It offers management options and recommendations to put the system on 
more sound and sustainable financial footing.
    One of the findings of the Report is that reimbursable funding is 
an important resource for our hatcheries. Over the past several years, 
the Service has successfully negotiated reimbursement or developed 
agreements with the U.S. Army Corps of Engineers, the Tennessee Valley 
Authority, and others to help cover the costs associated with 
mitigation fish production. In FY 2014, Congress provided $4.7 million 
in Corps funding for mitigation reimbursement. In addition, the Service 
and the Tennessee Valley Authority recently reached a 3-year funding 
agreement through 2016 that will provide $900,000 to the Service each 
year.
    As the Service announced in November 2013 when the Report was 
released, we do not intend to close any hatcheries in FY 2014. 
Moreover, Congress provided the Service with $46,528,000 to operate the 
National Fish Hatchery System in the recently enacted FY 2014 Omnibus, 
which is substantially more than we anticipated had sequestration 
continued into FY 2014. However, that level of funding is still not 
sufficient to fully cover our operational costs for all of our 
propagation programs at current levels.
    The Service is using the Report to engage partners and 
stakeholders, including state fish and wildlife agencies, tribes, and 
others, in a discussion on its major findings and recommendations. We 
are seeking their input on how we should operate the National Fish 
Hatchery System more efficiently and within available resources in the 
future. Taking into consideration their input, current and anticipated 
funding levels, the costs to operate our existing propagation programs, 
and the Report's findings and recommendations, we will consider how we 
can continue to further streamline our operations to better reflect the 
Service's priorities and bring expenditures in line with available 
funding. Our hope is that by engaging in a transparent and open dialog 
with this subcommittee and others in Congress, our partners and 
stakeholders, we can chart a unified course forward for the National 
Fish Hatchery System that not only allows us to operate the system on 
sound financial footing, but positions the system to better meet 
current and future conservation challenges.
    Toward this end, the President has requested $48.617 million for 
operation of the National Fish Hatchery System in FY 2015, 
approximately $2 million more than Congress appropriated in FY 2014. 
But even at these increased funding levels, the Service needs 
flexibility to operate the system to fulfill our ongoing legal 
obligations under the ESA and other statutes, address new environmental 
challenges, meet the expectations of our Federal, tribal, state and 
local partners, and manage the National Fish Hatchery System, cost-
effectively and within budget.
    By preventing the Service from making even modest changes in 
current operations of individual hatcheries or species propagation 
programs, H.R. 5026 would make it difficult for us to utilize the 
National Fish Hatchery System to respond to the changing and increasing 
needs of threatened, endangered, and imperiled aquatic species. As a 
result of a number of factors, including natural disasters, the 
National Fish Hatchery System serves as a critical refuge for a growing 
number of these species, which depend on the system for their survival, 
reintroduction and recovery.
    By restricting the Service's ability to shift resources among 
hatchery facilities or even within a facility, this provision would 
also force us to produce fish and eggs that may not be needed, or even 
requested, by our partners and stakeholders, leading to inefficient and 
potentially wasteful expenditures of taxpayer funds. Funds, for 
example, that could instead be better spent to help restore local 
native and recreationally important fisheries.
    We allocate these funds each year out to the seven regions that 
operate and maintain our 70 propagation hatcheries and rely heavily on 
our Regional Directors and their staff to decide how best to use these 
funds within their regions and in coordination with the states. In many 
instances, hatchery production targets are coordinated with the states, 
and may change from year to year with changing circumstances and 
resource needs. This unprecedented level of restrictions of species-
specific operations across our 70 propagation hatcheries would limit 
our ability to respond to these and other changing environmental and 
management challenges, which inevitably arise.
             h.r. 5069, the federal duck stamp act of 2014
    Mr. Chairman, thank you for your leadership in introducing 
legislation to increase the price of the Federal Migratory Bird Hunting 
and Conservation Stamp, commonly known as the Duck Stamp. A price 
increase is critically needed to restore the Duck Stamp's eroding 
purchasing power, so that there is sufficient revenue available to 
provide adequate habitat for migratory waterfowl to find food, rest 
during migrations, and to raise their young. The Duck Stamp is a 
critical tool for sportsmen and women, as well as wildlife enthusiasts, 
who make substantial contributions to the Nation's economy in the 
pursuit of their passions.
    The price of the Duck Stamp is set by Congress through the 
Migratory Bird Hunting and Conservation Stamp Act. The price of the 
Duck Stamp has remained at $15 since 1991. Based on the Consumer Price 
Index, the stamp would need to cost more than $26 today to have the 
same buying power that $15 had in 1991. However, the increased cost of 
land, including easements, during this period has risen even more 
dramatically. Between 1991 and 2013, the Service's average cost per fee 
acre increased from $450 to $1,590, and the Service's average cost per 
easement acre increased from $112 to $765. In 1991, revenue from the 
Duck Stamp enabled the Service to protect 91,000 acres of waterfowl 
habitat for the Refuge System. However, in 2013, the Service was able 
to protect significantly less habitat, despite allocating nearly 80 
percent of the funding to easement acquisition, because land values in 
important migratory bird areas have increased by up to 600 percent.
    An increase in the price of the Duck Stamp is a top priority for 
the Department and has been included in the President's budget 
proposals over the past number of years, and during the administrations 
of the past two Presidents. We strongly support the increase that would 
be accomplished through H.R. 5069, the Federal Duck Stamp Act of 2014, 
and support the legislation. We have some suggestions that would make 
the bill even more effective, and look forward to discussing these with 
the subcommittee as the bill moves through the legislative process.
    To understand the importance of restoring the purchasing power of 
the Duck Stamp, it is helpful to look back to its origins and its role 
in restoring North America's great migratory waterfowl populations. The 
restoration of the continent's waterfowl following a grave decline is a 
grand conservation success story. It is a story that involves sportsmen 
in partnership with states, Congress, and Federal agencies applying 
science to habitat protection and restoration efforts. Because of 
strategic, science-based actions taken by these partners to conserve 
key habitats along the four major North American flyways, migratory 
waterfowl populations are improving. This work has maintained our 
hunting tradition, and has significantly contributed to the economies 
of many states through the recreational activities of hunters and 
outdoor enthusiasts.
    The Duck Stamp plays a critical role in this conservation 
partnership and its success story. Created in 1934, the Duck Stamp 
represents the permit required by the Migratory Bird Treaty Act of 1918 
to hunt waterfowl. Every waterfowl hunter who is more than 15 years old 
is required to carry a Duck Stamp into the field. Duck Stamp revenue is 
deposited in the Migratory Bird Conservation Fund (MBCF), through which 
the Service, with the approval of the Migratory Bird Conservation 
Commission, acquires wetland and associated habitats to support 
populations of waterfowl. Ninety-eight percent of the receipts from 
Duck Stamp sales are used to acquire important migratory bird breeding, 
migration, and wintering habitat, which is added to the National 
Wildlife Refuge System (Refuge System). Since 1934, sales of the Duck 
Stamp have helped to add more than 5.6 million acres of waterfowl 
habitat to the Refuge System. These acquisitions have benefited 
individual refuges all across the county, in 45 states. In many cases, 
acquisitions made through the MBCF account for 100 percent or a 
substantial percentage of a refuge's total land. These protected lands 
not only benefit waterfowl, but also countless other wildlife species, 
as well as increased opportunities for outdoor and wildlife-dependent 
recreation, such as hunting.
    While the Duck Stamp's price has been static since 1991, other 
factors affecting habitat conservation have significantly changed. Land 
prices in prime waterfowl nesting habitat have increased; price 
increases of crops and other factors have expanded conversion of native 
prairie to farm lands; and a warming climate is evaporating prairie 
``pothole'' wetlands.
    The Prairie Pothole Region is vital to waterfowl populations. The 
U.S. portion of the Prairie Pothole Region includes parts of Montana, 
North Dakota, South Dakota, Minnesota, and Iowa. Approximately 118 
million acres of land, 21 million acres of grass cover, and 2.63 
million wetland basins support more than 300 species of migrating and 
resident birds. Termed America's ``Duck Factory,'' this formerly 
glaciated landscape is the most productive area for nesting waterfowl 
on the continent. The region also provides stopover habitat for 
migratory waterfowl, shorebirds, waterbirds, and songbirds.
    A Service study and report, Status and Trends of Prairie Wetlands 
in the United States 1997 to 2009, found that wetlands in the Prairie 
Pothole Region declined by an estimated 74,340 acres between 1997 and 
2009--an average annual net loss of 6,200 acres. In addition to these 
losses, millions of acres of prairie wetlands are threatened with 
degradation from extreme weather patterns, rising agricultural 
commodity prices, and oil and gas development, putting further pressure 
on the most valuable breeding area for ducks in the Americas. Continued 
vigilance in monitoring and protecting the Prairie Pothole Region is 
needed to ensure it remains healthy for waterfowl for generations to 
come.
    Funding provided by the sale of Duck Stamps is a critical component 
of conservation in the Prairie Pothole Region, and in other important 
waterfowl areas in the Nation. The Administration's proposed budget for 
fiscal year 2015 includes a legislative proposal to amend the Migratory 
Bird and Hunting Conservation Stamp Act (16 U.S.C. 718b) to increase 
the sales price for Duck Stamps from $15 to $25, beginning in 2015. 
With the additional receipts that would be generated from the proposed 
price increase, the Service anticipates the additional annual 
acquisition of approximately 7,000 acres in fee and approximately 
10,000 acres in conservation easements. After 2015, the 
administration's legislation also proposes that the price of the 
Federal Migratory Bird Hunting and Conservation Stamp can be increased 
by the Secretary of the Interior, after appropriate consultation with 
the Migratory Bird Conservation Commission. This component of the 
administration's proposal is important to helping ensure that the Duck 
Stamp's purchasing power does not substantially erode in the future.
    Mr. Chairman, H.R. 5069 takes a different approach by providing for 
a one-time increase, and mandating that the increase be used only for 
the purchase of easements. Currently, the Service, working in 
cooperation with the Migratory Bird Conservation Commission, uses Duck 
Stamp proceeds for purchases of both fee title lands and conservation 
easements. We recommend maintaining the current discretion to ensure 
the most strategic and beneficial acquisitions can be made, without 
limiting the Service's discretion to purchase lands in fee title when 
necessary. One consideration is that access to certain lands by hunters 
is often not possible across easement lands, and we use fee title 
acquisition to provide such access.
    We would greatly appreciate the opportunity to work with the 
subcommittee on this legislation moving forward and thank you for your 
leadership and for introducing H.R. 5069. H.R. 5069 would allow the 
Service to ensure that the ``Duck Factory'' and other key habitats are 
protected into the future and that waterfowl populations continue to 
thrive for the continuing benefit of the American people.
                               conclusion
    Thank you for the opportunity to provide testimony on this range of 
legislation that addresses multiple responsibilities of the Service for 
the conservation of our Nation's fish and wildlife for the benefit of 
our citizens. In particular, Mr. Chairman, thank you for your 
leadership on H.R. 5069, the Federal Duck Stamp Act of 2014. I am happy 
to answer any questions the subcommittee may have and we look forward 
to working with the subcommittee members as you consider these bills.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Guertin. Chairman Mansell, you 
are now recognized for 5 minutes to present testimony on behalf 
of the Arizona Game and Fish Commission.
    Mr. Mansell. Thank you, Mr. Chairman.
    Dr. Fleming. I'm sorry, we have one other thing to do, one 
item of business, I apologize. The Chair now recognizes Mr. 
Gosar for some introductions.
    Dr. Gosar. Thank you, Mr. Chairman. It is my pleasure to 
introduce Robert Mansell, Chairman of the Arizona Game and Fish 
Commission and a lifelong resident of my home state of Arizona.
    Mr. Mansell hails from Winslow, Arizona and was confirmed 
as a member of the Arizona Game and Fish Commission in March of 
2011. He is an avid outdoorsman, hunter, angler, boater, pilot 
and community leader.
    Chairman Mansell has a long and distinguished career in 
public service and was superintendent of the Winslow Unified 
School District from 2003 to 2009. He is an active member of 
his community and previously served on the Winslow City 
Council.
    Chairman Mansell grew up around fish hatcheries and his 
father and uncle served as fish hatchery superintendents at the 
Canyon Creek and Tonto Creek Hatcheries, respectfully.
    He holds a master's of art degree in education and a 
bachelor of science degree in education science from Northern 
Arizona University.
    Chairman Mansell, I certainly and sincerely appreciate you 
making the trip. You are now recognized for your testimony, 
thank you.
    Dr. Fleming. You are recognized a second time.

STATEMENT OF THE HON. ROBERT E. MANSELL, CHAIRMAN, ARIZONA GAME 
                      AND FISH COMMISSION

    Mr. Mansell. Thank you, Mr. Chairman, Ranking Member Sablan 
and members of the committee. And thank you, Congressman Gosar, 
for your kind comments.
    It is really an honor to come before you and speak to you 
about H.R. 5026. I want to add a little bit about my history. I 
am a lifelong resident of Arizona. I am a volunteer citizen 
conservationist. What I am not, I am not a biologist. I am not 
a scientist. And you will soon realize I am not a paid public 
speaker, but I am going to give it a try anyway.
    Congressman Gosar mentioned that my father was a biologist 
and was a fish hatchery superintendent. As a child, I grew up 
observing firsthand the workings of fish hatcheries.
    The Arizona Game and Fish Commission is a firm proponent of 
the North American Model of Wildlife Conservation. This Model 
has seven tenets but the two main tenets are that wildlife 
belongs to everyone. And unlike other parts of the world where 
wildlife may belong to the landowner or wildlife may belong to 
the elite, in America, wildlife belongs to everyone.
    The second one is that wildlife must be managed so it can 
be sustained forever. It is the hunter and the fisherman who 
buy a license and the revenue from excised tax on the sale of 
hunting and fishing licenses that provide the financial 
backbone for this conversation.
    And I want to mention the Dingell-Johnson Act. And what a 
pleasure to be in the same room with Mr. Dingell. And I am not 
sure, I think in the early 1950s, your father sponsored the 
Dingell-Johnson Act, which provided money for fishing. So thank 
you, sir.
    Mr. Dingell. Thank you. My dad was very proud of that.
    Mr. Mansell. Thank you. The Arizona Game and Fish has a 
vested interest in the National Fish Hatchery System and what 
changes could mean for our fisheries, recreational 
opportunities and our state hatchery system. A national survey 
on wildlife-associated recreation was commissioned by the U.S. 
Fish and Wildlife Service in 2011. And it reported that there 
are over 636,000 fishermen in Arizona resulting in a yearly 
expenditure in excess of $1.5 billion.
    Mr. Chair, in the West, we have had a longtime relationship 
with the U.S. Fish and Wildlife Hatchery System. States rely on 
the production of sport fish to meet critical fisheries 
management and recreational needs. The National Fish Hatchery 
System has a trust responsibility to ensure sufficient stocks 
for sport fishing purposes. This is important for Arizona and 
the Nation.
    I am going to cite three examples of the impact the 
National Fish Hatchery System have in Arizona. And the first 
one is the Ennis National Fish Hatchery in Montana. We receive 
over two million trout eggs annually from this fish hatchery. 
If this was to cease, we would have to do one of two things: 
look elsewhere for our trout eggs, and, quite frankly, this may 
be difficult as there is not really a trout egg store where you 
can go and purchase two million trout eggs, or we will have to 
restructure a hatchery. I am told that the restructuring of a 
hatchery may take as long as 3 years and cost several million 
dollars. Obviously, we have not budgeted several million 
dollars, but more importantly we do not feel our state could 
survive 3 years without trout production.
    The Willow Beach Hatchery, which brought me here today, is 
downstream from Lake Mead on the Colorado River. It produces 
150,000 trout annually, stocked in the lower Colorado River. 
Two other hatcheries in Arizona are the Williams Creek and 
Alchesay Hatchery, both on the White Mountain Indian 
Reservation, and they produce all of our Apache trout eggs for 
Arizona. Willow Beach, again it is downstream from Lake Mead, 
was built in 1959 and produces rainbow trout for recreational 
purposes.
    On November 21, 2013, the Service reported to us an 
emergency stocking of 11,000 rainbow trout and additionally 
that 40,000 had died because of water quality caused by lack of 
infrastructure repair. Only after this, did Arizona become 
aware of the soon-to-be-published Strategic Hatchery and 
Workforce Planning Report. We were informed by the U.S. Fish 
and Wildlife Service that all trout stocking would end. Willow 
Beach is ground zero in discovering the Service's new 
priorities established under this report.
    Mr. Chair, I must make clear that neither the Arizona Game 
and Fish Commission or Department leadership were consulted or 
participated in any discussions about this. It was simply a 
surprise. If not for the infrastructure failure at Willow 
Beach, we would not have found out the problem at this time. 
The infrastructure problem accelerated the release of the 
Service's plan to end trout production.
    Willow Beach is the tip of the iceberg.

    [The prepared statement of Mr. Mansell follows:]
 Prepared Statement of Robert Mansell, Chairman, Arizona Game and Fish 
                        Commission on H.R. 5026
    Good morning Chairman Fleming, Ranking Member Sablan and members of 
the subcommittee. Thank you for inviting me to be with you today to 
share the perspective of the Arizona Game and Fish Commission on H.R. 
5026, the bill authored by Mr. Gosar. My name is Robert Mansell a 
native Arizonan and the Chairman of the Arizona Game and Fish 
Commission.
    The Commission is a firm proponent of the North American Model of 
Wildlife Conservation; our fish and wildlife belong to all Americans, 
and need to be managed in a way that their populations will be 
sustained forever. The financial backbone of this model of wildlife 
conservation is the hunter and angler who pay the freight for wildlife 
conservation through their license dollars and Federal excise tax on 
hunting and fishing equipment.
    The Commission has a vested interest in the future of the National 
Fish Hatchery System and what changes to that system could mean to our 
fisheries, recreational opportunities and state hatchery systems. 
According to the 2011 National Survey of Fishing, Hunting and Wildlife 
Associated Recreation commissioned by the U.S. Fish and Wildlife 
Service over 636,000 people fish in Arizona, resulting in an estimated 
fishing expenditures of over $1.5 billion annually.
    Mr. Chairman, states, particularly in the West, have had a long-
standing relationship with the National Fish Hatchery System. The 
states rely on the production of federally cultured brood fish and 
sport fish to meet critical fisheries management and recreational 
demands. Many times fish must be produced in certain environments and 
in such a way as to meet mandates by the Service. We appreciate the 
difficult choices Federal agencies must make given the current budget 
climate; however, the National Fish Hatchery System's trust 
responsibility is to ensure sufficient fish stocks for sport fishing 
purposes. This is not only important to Arizona and the Nation's 
economy but is vital to many of the state hatchery systems across the 
Nation. In Arizona for example:

    <bullet> Ennis National Fish Hatchery in Montana provides over 2 
            million triploid rainbow trout eggs annually to our state 
            hatcheries.
    <bullet> Willow Beach National Fish Hatchery along the Colorado 
            River rears an average of 150,000 rainbow trout stocked in 
            the Colorado River annually;
    <bullet> Williams Creek and Alchesay on the White Mountain Apache 
            Reservation in Arizona supply all of our Apache trout eggs 
            annually stocked in the White Mountains for sport fish 
            recreation.

    Willow Beach National Fish Hatchery located along the Colorado 
River south of the Hoover Dam, operated by the Service is part of the 
National Fish Hatchery System built in 1959 has operated as a 
mitigation hatchery since its existence to produce rainbow trout for 
recreational purposes. On November 21, 2013 the Service conducted an 
emergency stocking of 11,000 rainbow trout when the low water levels 
compromised the delivery system of water to the hatchery. However, over 
40,000 fish were lost due to a lack of water movement through the 
system that stemmed from a lack of infrastructure repairs.
    Only after this emergency did the state become aware of the plans 
set in motion by the, then, soon to be released, Strategic Hatchery and 
Workforce Planning Report. At that time the Service informed the state 
that they would end all trout stocking efforts in perpetuity. Mr. 
Chairman, while a small operation, Willow beach served as ground zero 
for many states in discovering the Service's ``new priorities'' 
established under this report. New priorities that the states were not 
consulted on and frankly, at least in Arizona, would not have found out 
about until much later except for the unfortunate incident at Willow 
Beach where an infrastructure issue prematurely accelerated the 
Service's plans to end sport fish production.
    Mr. Chairman, Willow Beach is just the tip of the iceberg. I flew 
here from San Antonio where I attended the Western Association of Fish 
and Wildlife Agency's annual meeting. All across America, states are 
looking at ways to shore up their sport fish programs given the fallout 
of this report.
    The state's long-standing relationship with the National Fish 
Hatchery System is in peril. Cessation of sport fish production at 
Federal hatcheries across the west will result in:

    <bullet> Loss of a successful economic driver.

    <bullet> Loss of recreational opportunities.

    <bullet> Reduced ability to get youth and the public outdoors.

    Mr. Chairman, according to the American Sport Fishing Association, 
more people in America fish than play golf and tennis combined. If 
fishing opportunities are severely curtailed, many state and Federal 
agencies will have fewer tools to get youth and the public recreating 
outdoors.
    The Arizona Game and Fish Commission appreciate Mr. Gosar's 
vigilance on this issue. We are supportive of the 10-year moratorium on 
National Fish Hatchery Closures and believe this will allow the Service 
and other Federal agencies the opportunity to properly consult with 
states to come up with a viable alternative.
    In closing, Mr. Chairman we appreciate the attention you and others 
are devoting to maintaining and enhancing a system crucial to sport 
fishing and fishery conservation work across the country. We strongly 
believe that the states, anglers and the whole American public benefit 
from the good work of the national fish hatcheries. Thank you for the 
opportunity to share our perspective with you and I would be please to 
respond to any questions.

                                 ______
                                 

    Dr. Fleming. Mr. Mansell, your time has expired, and your 
entire testimony will be entered into the record. We have a lot 
of questions for you, so let's move on. But, again, all of your 
written statement will be entered into the record.
    At this point, we will begin member questioning of our 
witnesses. To allow members to participate and to ensure that 
we can hear from all of our witnesses today, members are 
limited to 5 minutes for their questions. However, if members 
have additional questions, we can have more than one round of 
questioning.
    I now yield to myself for 5 minutes.
    Mr. Guertin, with regard to the Duck Stamp bill, H.R. 5069, 
has the Fish and Wildlife Service undertaken a study on the 
impact on the Federal Duck Stamp increase and at what level 
does the price become a major deterrent to migratory bird 
hunters?
    Mr. Guertin. Mr. Chairman, yes, we have looked at those 
potential factors, and we do not believe that a modest 
increase, as you envision, would have a significant negative 
impact on the sale of Duck Stamps. We annually sell about 1.5 
million a year. The average waterfowl hunter probably spends 
$300 or $400 a year, largely on ammunition and other equipment. 
We believe that the market is there for them to willingly step 
up to the plate and agree to this modest $10 increase because 
they fully understand the magnificent resources they are 
protecting and are willing to make that conservation 
investment.
    Dr. Fleming. OK, I appreciate your comments on that. And 
that is something we need to be sensitive to. In the private 
sector, we call that price point. At what point does the cost 
become a deterrent. We want to make sure that there are more 
birds for hunters, but we want to make sure that hunters do not 
feel in some way disengaged or firewalled from access to 
hunting.
    But I would agree with you, considering all the equipment 
and ammunition and the cost thereof, that it would seem to be a 
small price increase. And if you would, provide for us the 
information that you have, the studies that you may have done 
this far.
    A second question is, as I understand your testimony, 
Native Alaskans can shoot, eat and use non-edible parts in 
handicraft items, but they are prohibited from selling these 
products. Is it not true that any non-edible parts that are not 
used by the Native Alaskans are simply thrown away? And what is 
the logic of that policy?
    Mr. Guertin. Yes, Mr. Chairman. Under the Migratory Bird 
Treaty Act, it bars any individual from selling for commercial 
profit any of these body parts from species protected under the 
Act. So the practical effect is, yes, these parts would be 
discarded. However, this does not preclude individuals from 
presenting them or giving them as gifts or donating them as 
well. It just precludes them from selling them as a commercial 
entity.
    Dr. Fleming. Would the Fish and Wildlife Service support 
further refining of the Migratory Bird Treaties to allow 
Alaskan Natives to use non-edible parts of the migratory birds 
in a range of handicraft products?
    Mr. Guertin. Well, Mr. Chairman, we are currently working 
with the members of the Alaska Migratory Bird Co-Management 
Council, including Native Alaska representatives, Alaska Fish 
and Game and ourselves to explore what kind of opportunities 
there are to do just that. And our position is that allowing 
this leadership group in Alaska to work through potential 
solutions with a deadline of next spring would yield that kind 
of information for yourself and other congressional leaders on 
a potential path forward.
    Dr. Fleming. The staff reminds me that the committee voted 
on this 10 for, 2 against. And the two votes against were from 
the Fish and Wildlife. So it seems that the Fish and Wildlife 
is sort of apart from everyone else on that issue, making those 
changes.
    Mr. Guertin. I understand, Mr. Chairman. And our official 
position is to work through this Council on a potential 
solution, but we would be glad to sit down with yourself, the 
members and the staffs to continue to hold discussions on this 
issue going forward.
    Dr. Fleming. OK. And Chairman Mansell--oh, I'm sorry. This 
is Mr. Guertin here, yeah. I'm sorry, back to Mr. Guertin. What 
steps can the Fish and Wildlife Service take to encourage non-
hunters and those who observe wildlife at our national wildlife 
refuges to purchase an annual Duck Stamp? And are these Federal 
stamps prominently offered and displayed in every refuge 
throughout the country?
    Mr. Guertin. Yes, Mr. Chairman, we have a very aggressive 
marketing campaign underway to reach out to non-consumptive 
citizens who also enjoy the value of wildlife. We can offer 
them through web portals, at refuge visitor centers, through 
the post office and a lot of other mechanisms.
    And we could certainly point to your leadership in 
introducing this legislation to increase the bill as a good 
example of the strong support for this program nationwide. And 
we will redouble our efforts to market this product to a lot 
more constituent groups out there to help support the larger 
vision for conservation that up until now has been largely paid 
on the shoulders of hunters, both male and female, for the last 
several decades.
    Dr. Fleming. My time has expired. The Chair now recognizes 
Mr. Sablan.
    Mr. Sablan. Thank you very much. Mr. Chairman, I ask 
unanimous consent to enter into the record the written 
statement of Mr. Dingell, as well as a report from the 
Migratory Bird Conservation Commission.
    Dr. Fleming. Without objection, so ordered.
    Mr. Sablan. Thank you, Mr. Chairman. I must be getting old 
but are those microphones working? I can hardly hear either one 
of you. Are they working?
    Mr. Guertin. Yes, Mr. Chairman.
    Mr. Sablan. Oh, now they are working.
    Dr. Fleming. Again, I think the problem tends to be that 
the tips are not close enough. So if you are not hearing a 
little bit of echo in the background, you are probably not 
close enough.
    Mr. Sablan. Alright, can we start my time now, please? I 
have four questions for Mr. Guertin. So, Mr. Guertin, welcome.
    I asked these questions to Director Ashe at the last 
hearing on wildlife refuge. And I will ask you them again today 
just for the record.
    One, the expansion of the Refuge System is authorized by 
the National Wildlife Refuge Improvement Act of 1997. Do you 
recall the votes by which that legislation passed a Republican-
controlled House and Senate?
    Mr. Guertin. Yes, I believe the vote was 407 to 1.
    Mr. Sablan. In the Senate?
    Mr. Guertin. In the Senate, I don't know. In the House it 
was a 407 to 1 vote against.
    Mr. Sablan. In your opinion then why did Congress ask the 
Service to plan and direct the continued growth of the Refuge 
System? Why does it need to grow?
    Mr. Guertin. We believe that our agency mission in the 
Refuge Organic Act charges us on behalf of the American public 
to make strategic investments for future generations for 
biologically important land acquisition, protection and habitat 
restoration and other congressionally driven mandates to 
support mission delivery objectives out there. And we believe 
that this legislation would not allow the Service to have the 
management flexibility, as well as the opportunity and 
nimbleness we need to pursue these objectives on behalf of the 
American people.
    Mr. Sablan. Alright, thank you. And, Mr. Guertin, H.R. 5026 
would mandate that, ``Fish and wildlife may not permanently 
close, reprogram, repurpose, decommission, significantly alter 
or move to caretaker status any fish and other aquatic species 
propagation hatchery or propagation program within the National 
Fish Hatchery System of the Department of the Interior unless 
such action is expressly authorized by an Act of Congress.''
    What would be the practical implications of these 
restrictions, how would it affect the Service's ability to 
operate the Hatchery System for the benefit of the public and 
to carry out other responsibilities?
    Mr. Guertin. Yes, we fully recognize the emerging concerns 
from all of our partners and constituents on the future of the 
National Fish Hatchery System and the ongoing investment all of 
our partners, particularly the states, have made in its 
direction. We are the agency that is charged with implementing 
on the ground the operational imperatives of the refuge and 
hatchery system, and we believe that the director needs the 
authority, now and in the future, to make strategic investments 
based on the operational tempo and emerging priorities that 
occur on a daily basis.
    We also want to note for the record that under the 
guidelines included in the current year appropriations for the 
Fish and Wildlife Service, we were directed that we would not 
close any national fish hatcheries, and we have not closed any 
fish hatcheries. We have only out of the 270 individual 
production lines for propagation within the hatchery system 
over the last 2 years have discontinued about four of those, 
largely pan fish production in some southeast states where 
there was no request from the states to deliver that product to 
them.
    Mr. Sablan. OK, and I am going to H.R. 3409, which would 
prohibit the Service from adding land to the National Wildlife 
Refuge System without the express permission of Congress, even 
if the land is donated by a private individual or company. So 
does the Service frequently add donated land to the System? And 
how would H.R. 3409 affect people's willingness to donate their 
lands?
    Mr. Guertin. Over the last several years, a number of 
individuals have stepped up and made donations on behalf of the 
American people for several hundred thousand acres, which was 
incorporated into the National Wildlife Refuge System, either 
in fee title donations or more likely in an easement donation, 
including several large landowners who have donated over 
100,000 acres at a time for their conservation value. And so 
this legislation we believe would have a chilling effect on 
individuals wanting to step up to make those kind of donations.
    Mr. Sablan. Alright, I have one more question, Mr. Guertin. 
In the second panel, Chairman Angius in her testimony refers to 
a Fish and Wildlife Service report that valued the hatchery 
system and other fishery conservation efforts. Ms. Angius 
claims that the economic value of the hatchery system is $3.6 
billion. Is that accurate or is $3.6 billion the economic 
impact of all the Fish and Wildlife Service fisheries 
conservation activities, including habitat conservation and 
control of invasive species? What is the economic impact of the 
hatchery system alone based on the study reference by Chairman 
Angius, and what is the economic impact of the National 
Wildlife Refuge System?
    Mr. Guertin. I believe the study they are referring to 
cites a larger objective of economic contributions of $3.6 
billion from all aquatic conservation programs in the Fish and 
Wildlife Service program delivery toolbox. The National Fish 
Hatchery System is a subset of that at about $900 million, and 
then the literature cites about a $2.5 billion contribution to 
the economy from refuge visitation and about $32 billion from 
the refuges in ecosystem services impact to the national 
economy overall.
    Mr. Sablan. So the $900 million has turned into what, $3.6 
billion----
    Mr. Guertin. Yes, the $900 million is a subset of a larger 
aquatic conservation. And we would be glad to provide for the 
record all of those economic reports.
    Mr. Sablan. Thank you, my time is up. Thank you, Mr. 
Chairman.
    Dr. Fleming. The gentleman's time has expired. The Chair 
now recognizes Mr. Young for 5 minutes.
    Mr. Young. Thank you. Thank you, Mr. Chairman. Mr. Guertin, 
the 97 protocols in the migratory bird treaties, how did these 
protocols address non-edible parts of the migratory birds?
    Mr. Guertin. Mr. Chairman, I am personally not aware, but I 
would be glad to provide that for the record for the hearing.
    Mr. Young. Well, again, you guys came down and opposed my 
bill, and I would wish you had the answer. I want you to know 
that right now. Now, what feathers were used in this mask when 
this gentleman was cited?
    Mr. Guertin. The case you are referring to, Congressman, I 
believe were a raven species as well as a flicker.
    Mr. Young. Now, the raven is a species that migrates?
    Mr. Guertin. It does, Mr. Chairman, yes.
    Mr. Young. Where does it migrate to?
    Mr. Guertin. Some of them cross over into Canada. Some of 
them move north and west. Some of them are local populations as 
well, but it does qualify----
    Mr. Young. They do not migrate really to the lower 48.
    Mr. Guertin. Some of them have been seen----
    Mr. Young. No, they do not. Now, do not argue with me. They 
do not. Now, I can say you may think a crow is a raven but it 
is not. It is a black bird but it is not a raven. Ravens stay 
in Alaska. They may go to Canada because they are part of 
Canada. Keep that in mind.
    Now, this raven to my knowledge was a dead raven, was not 
shot, roadkill, and you cited him. That is the first time I 
think in many, many years there were any citations issued. What 
instigated or why did your agent cite that individual?
    Mr. Guertin. Congressman, it was a very long process. The 
individual in question advertised on Craigslist that he had for 
sale a headdress that included feathers from two species.
    Mr. Young. But you have to listen to me now. Why did your 
agency--remember all this land, gentlemen and ladies, about 
this donation of lands. It is not the idea of refuge, which I 
am a big supporter of. It is the management of. And your 
government, not mine, insistence on citing people who have 
never done this before. They had never been cited until you 
came along. Now, what instigated that?
    Mr. Guertin. Again, Congressman, our agents noticed on 
Craigslist that he had been posting for sale----
    Mr. Young. And your agent, and that goes back to what I 
said. Did that come from headquarters?
    Mr. Guertin. No, our agents are empowered to make 
operational decisions.
    Mr. Young. Your agent is a hot-dog. That is what he is. And 
interfered with Alaskan Natives and the raven has always been 
used as a sacred bird in their testimony and in their culture. 
And they have never been cited. And along comes Uncle Sam and 
the Fish and Wildlife. That is where you are getting a black 
eye. You are getting a black eye because you are not managing 
with people. You say you are working now with the co-management 
of the Commission. Now, what is your work? I noticed that there 
were only two votes against trying to do this that was from 
you. Is that what you call working together?
    Mr. Guertin. No, Congressman, we are trying to implement 
these larger international treaties. We are trying to be a good 
partner. And on the case you are citing, our agent actually 
called the individual in question several times and told him 
both unofficially and officially that he needed to take his 
Craigslist post down.
    Mr. Young. It was a dead raven, roadkill raven. It was not 
shot. And your agency cites this individual that is culturally 
creating a mask because you can. That is the problem with your 
agency now. You have become the Park Service, the EPA, over-
extending. And that is why you are getting a black eye. And 
that is why we are going to address your agency again and again 
and again, as long as I sit here, because you are not working 
with the people. This is not ``deplenishing'' the raven. It is 
not ``deplenishing'' the flicker. These are birds that are not 
being shot for this type thing.
    Now, you brought the attention to it, and we are going to 
pass this bill. It probably will not pass the Senate. The dark 
hole never does anything. But we will get it done someday if 
you do not address this issue enthusiastically. You have the 
authority to do this right now executively, is that correct?
    Mr. Guertin. We have prosecutorial discretion on how we 
move forward.
    Mr. Young. You have the authority to negotiate with the 
Natives, do you not?
    Mr. Guertin. Well, Congressman, we are really sitting down 
with our advisors at DOJ and the Solicitor's office to make 
sure that this over-arching----
    Mr. Young. That makes me feel very comfortable, the 
Department of Justice. I mean that really makes me comfortable, 
believe me.
    Mr. Guertin. I know, sir, we are aspiring to envision where 
we can come back to you next spring and give you a better 
status report on this situation.
    Mr. Young. I would make a suggestion. Do not cite anybody 
in my state again until we work this issue out because if you 
do not, we will do it legislatively because this is silly when 
you are using a dead bird's feather that has no value to 
anyone, to cite a person, an individual citizen of my state, 
especially when they have cultural background. That is what I 
want you guys to start thinking about. You are not God for 
God's sakes. Keep that in mind.
    I yield back.
    Dr. Fleming. The gentleman yields. Mr. Southerland, the 
gentleman from Florida, is recognized.
    Mr. Southerland. Thank you. Mr. Guertin I wanted to ask you 
a question or some questions. First of all, thank you for being 
here today.
    I am just curious, tell me about the Duck Stamp issue. I am 
just curious how since 1960--let me start here. What is the 
purpose of the Duck Stamp?
    Mr. Guertin. The Duck Stamp program was set up in response 
to the decline in waterfowl species exacerbated by the larger 
Dust Bowl and other factors that biologically were wiping out a 
lot of habitat back in the 1920s and 1930s. And a group of 
sports people banded together and got congressional support to 
voluntarily step up to the plate and make strategic investments 
in waterfowl conservation through agreeing to buy a stamp that 
would allow them to----
    Mr. Southerland. OK.
    Mr. Guertin [continuing]. Entrust resources.
    Mr. Southerland. I got it.
    Mr. Guertin. It's a user fee kind of program.
    Mr. Southerland. So basically in common language, it was 
to--it was to increase duck population?
    Mr. Guertin. The money was plowed back into buying up and 
restoring waterfowl nesting----
    Mr. Southerland. For the purpose of increasing duck 
population?
    Mr. Guertin [continuing]. So that it would yield a larger 
population for bird watchers, hunters and others.
    Mr. Southerland. Just increase duck population? That is 
what the American people can understand.
    I am looking at data that you gave that is off your Web 
site. In 1960, there were five million duck and geese harvested 
nationwide. Do you want to take--do you know how many were 
harvested in 2010?
    Mr. Guertin. Probably in the 10 to 15 million overall.
    Mr. Southerland. Actually, you are off 100 percent. There 
were 20 million duck and geese harvested nationwide. So if we 
started in 1960, and, by the way, just for disclaimer, last 
year I hunted duck in three states with a Duck Stamp. I want to 
make that clear. And so I think if the purpose of the Duck 
Stamp was to increase duck population, and we have gone from 5 
million in 1960 to 20 million in 2010, would that be effective? 
Would that be effective? Could we say, determine that it has 
been effective in increasing the duck populations?
    Mr. Guertin. Yes.
    Mr. Southerland. Yes, OK. I am just curious, are the funds 
generated by this proposed increase, is it to fund existing 
easements or is it to purchase new easements?
    Mr. Guertin. The legislation would authorize the use for 
either new easements or expanding current easements.
    Mr. Southerland. Give me a percentage? How much would be 
for managing existing easements? What is the percentage for 
purchasing new easements?
    Mr. Guertin. Probably 60 to 40 would be a good working 
ratio.
    Mr. Southerland. OK, so here is my question: So when is 
enough enough? And how many ducks must be harvested above 20 
million for you to know that you have accomplished the goal of 
the Duck Stamp? And let me say this, I am not in favor of 15-, 
16-year-olds having to pay more for a Duck Stamp. And I am not 
in favor of giving you guys more land. You cannot manage what 
you have properly. I mean we are seeing inefficiencies 
everywhere in government. We cannot even harvest emails for 
God's sakes or track an elephant in the snow. So what I am 
curious is, when is enough enough?
    Mr. Guertin. Sure, our concern from a conservation 
perspective is that we want to maintain what you are able to 
harvest and other hunters are able to harvest.
    Mr. Southerland. OK, so based on that, and we are 
harvesting 20 million ducks, which is by your own admission, 
that is good. Why would we not say that every dollar in this 
increase would maintain the existing easements rather than 
trying to purchase more?
    Mr. Guertin. Because a lot of these species may be moving 
where they are nesting and rearing. A lot of the current----
    Mr. Southerland. But you all do not allow that to happen. I 
mean you all----
    Mr. Guertin. Well, sir, there is a lot of development 
pressure----
    Mr. Southerland. So you are saying that the wood ducks are 
going to migrate somewhere where we are not currently managing?
    Mr. Guertin. We are going to use probably the hen mallard 
and a lot of the species up in the----
    Mr. Southerland. Like Teal?
    Mr. Guertin [continuing]. Grasslands that--yes, that are 
nesting up there. There is just a lot of pressure on that land.
    Mr. Southerland. And so you are saying they are going to go 
somewhere else that they have gone for hundreds and hundreds 
and thousands of years?
    Mr. Guertin. Some of them being squeezed out of those 
traditional nesting grounds.
    Mr. Southerland. Well, let me give you an example, a 
practical example. This past year in Henderson, Louisiana, I 
harvested a banded Teal, a banded Teal. He was banded 13 years 
ago in North Dakota. That duck, and ducks like it, are going 
from North Dakota to Louisiana every year. And if you are 
trying to convince me that that duck may one day just say, you 
know what, I think I want to go Arizona.
    Mr. Guertin. They are not going to go to Arizona, 
Congressman.
    Mr. Southerland. No, they are not. They are not. So my 
point is why would we not use the dollars to manage what we 
have because it is effective? By your own numbers, you state 
they go from 5 million in harvesting to 20 million.
    Mr. Guertin. True. Again, the concern is that these 
traditional nesting grounds are under a lot of pressure and the 
more agriculture conversion, the more land is lost through 
nesting and rearing habitat, we may not be able to see those 
kinds of populations and that kind of harvest in the future. It 
is an opportunity lost for us.
    Mr. Southerland. I yield back.
    Dr. Fleming. OK, the gentleman's time has expired. Mr. 
Gosar is now recognized.
    Dr. Gosar. You know, Mr. Chairman, I only wish that we 
would have started this hearing by putting the witnesses under 
oath. I am getting a little bit tired of bureaucrats and their 
two-talk.
    Deputy Director Guertin, you testified that, and I quote, 
``Our hope is that by engaging in a transparent and open dialog 
with the subcommittee''----
    Dr. Fleming. I do not think the gentleman's microphone is 
on or close enough to you, we are not hearing you. Try that 
again.
    Dr. Gosar. I will start my quote all over again. ``Our hope 
is that by engaging in a transparent and open dialog with this 
subcommittee and others in Congress, our partners and 
stakeholders, we can chart a unified course forward for the 
National Fish Hatchery System.''
    Wow, that is a fish whopper. First, the Fish and Wildlife 
Service did not consult with the state prior to establishing 
the new profiles in November 2013's report. Second, David 
Hoskins from the Fish and Wildlife Service testified before 
this very subcommittee in March and failed to tell the 
subcommittee that as many 13 recreation fishing propagation 
programs had already been terminated.
    How many, now listen carefully because I do not want you to 
misunderstand this, how many do you plan to terminate in Fiscal 
Year 2015, not 2014, 2015?
    Mr. Guertin. Congressman, I do not believe, and we will 
provide clarification for the record for you in detail so you 
believe us, I do not believe we have made any proposal at this 
point to put any on the chopping block so to speak. We are 
instead going to work through this stakeholder process over the 
coming year before we implement the 2015 year plan. And we 
would be glad to sit down with you in detail.
    Dr. Gosar. I am going to cut you off because I have lots, 
lots of questions for you. I mean the way that you answered 
your question about termination was very, very cleverly crafted 
because you have actually terminated a bunch in 2013. In 2014, 
you may not have because all of a sudden we have had such a 
spirited debate coming out of Arizona in regards to this.
    But, Mr. Chairman, I would like to hold Exhibit 1 here. 
Chairman Fleming, I would like to make this for the record.
    Dr. Fleming. Without objection, so ordered.

    [The document submitted for the record by Dr. Gosar titled 
Exhibit 1 follows:]
                               EXHIBIT 1
                               
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
NOTES:

    Private John Allen NFH--``To the economy of the state of 
Mississippi where Pvt John Allen NFH stocks its half million plus fish 
each year, a whopping $714,000 is infused each year. That includes more 
than $369,000 in retail sales, $54,000 in taxes generated, and the 
creation of 8 jobs with salary and wages of $171,300. National Fish 
Hatchery System stocked recreational warm water fish contributed 11,025 
angler days to the State of Mississippi.''
    A 2011 study by the U.S. Fish and Wildlife Service found that the 
annual economic benefit of the National Fish Hatchery System was 
approximately $3.6 billion which would represent a cost-benefit of 
1:26. The system provides jobs to 68,000 Americans and for every tax 
dollar invested, there is a return of $28 to our national economy 
because of the sport fishing opportunities they provide.
    Dr. Gosar. Yes, there are a number of them. When I look at 
this list, this actually not only comes from your office but 
let's go back into the answers to the questions that were 
submitted to you.
    ``How many of the stocking programs throughout the United 
States have been terminated in the last 12 months? Please 
provide a complete list of these propagation programs and the 
reasons why they are no longer producing fish.''
    So, once again, being asked questions over and over again, 
we are getting two different remarks. And that is not 
tolerated. And when you start citing the DOJ, well, I can tell 
you right now I have very little respect for what is happening 
in the DOJ.
    Mr. Guertin, was there a public comment period prior to 
changing the priorities with the propagation program within the 
release of the November report? Yes or no?
    Mr. Guertin. No.
    Dr. Gosar. So here in my introduction you actually said 
that you want to have this confident dialog with Congress and 
members of communities and yet you produce this report without 
even a comment. Shame on you. Absolutely shame on you. That is 
why the public does not trust bureaucrats like yourself. That 
is exactly the problem here.
    By the Fish and Wildlife Service's own estimates, the 
National Fish Hatchery System returns $28 to the national 
economy for every dollar spent and $3.6 billion to our economy 
annually. Does the Service consider the impacts to local 
economies before terminating recreation fishing propagation 
programs?
    Mr. Guertin. Under the vision in the report, the Service 
put on the table----
    Dr. Gosar. Yes or no? I mean yes or no? You either do or 
you do not.
    Mr. Guertin. It did not.
    Dr. Gosar. You did not?
    Mr. Guertin. It did not.
    Dr. Gosar. Why would you not?
    Mr. Guertin. We approached it from a biological perspective 
and from----
    Dr. Gosar. Well, wait a minute. Wait a minute. Biological 
program? Once again, you are interpreting your own systematic 
venue here. You are not talking to the communities of reference 
that have enjoyed these hatcheries, this recreation and this 
industry for years. Who are you to tell them no? Please tell 
me? Tell me who you are?
    Mr. Guertin. Congressman, I would say that this was 
probably not our finest hour as an organization and our pledge 
to you going forward is that we need to rebuild trust and 
confidence with you and other elected officials.
    Dr. Gosar. Well, you know it is getting a little old 
between the IRS and the Department of the Interior and now the 
Fish and Wildlife Service. You know, trust is a series of 
promises kept, and there is no trust whatsoever.
    My friend, Don Young, and everybody sitting up here hears 
this rhetoric coming from you over and over and over again. I 
have two witnesses from my home state that are just, every time 
something happens with this administration, it comes over to 
Arizona and pokes us in the eye. I am getting a little sick and 
tired of it. And that is why I wish we would have put you under 
oath.
    My time has expired.
    Dr. Fleming. The gentleman's time has expired. Mr. 
Crawford, the gentleman from Arkansas, is now recognized.
    Mr. Crawford. Thank you, Mr. Chairman. I appreciate you 
allowing me to participate.
    This hatcheries deal is very sensitive to me. We have two 
hatcheries in my district, Norfork and Greer's Ferry. And I 
have always had an admiration for fly fishermen and became one 
myself as a result of getting very familiar and acquainted with 
the operation of these two hatcheries. And I am not sure if you 
are aware but these two hatcheries, just the two of them, in my 
district account for 1,700 jobs, $5 million in state and local 
tax revenue, $5.5 million in Federal tax revenue. All of it on 
a budget for the two of them less than $2 million.
    So my question is, and you have answered it, but, you know, 
again, I want folks at home to know that I have asked you this 
question, and I have gotten an answer: Does the Fish and 
Wildlife Service consider the devastating economic impacts 
before making a decision to shutdown a hatchery or 
fundamentally change their propagation? Not only are we seeing 
the threat of closure looming over. Every year I get a phone 
call, every year, people--not the hatcheries, they are not the 
ones calling, it is the local folks that are concerned that 
these hatcheries are going to be shut down. It is groups that 
have come together, Friends of Norfork, because they are 
concerned, how do we continue to fight this battle with the 
Federal Government. They have no confidence.
    And then folks that work there are under this continual 
specter of termination, is my job going to be here when I come 
to work tomorrow? It is just ridiculous.
    And, again, I would just like to get some clarification. Is 
any consideration of the economic impact to the local community 
given as you set out your priorities on pages 8 and 9 of the 
recently released Strategic Hatchery and Workforce Planning 
Report?
    Mr. Guertin. No, Congressman, it was not included as one of 
the factors in that draft vision document.
    Mr. Crawford. That is entirely unacceptable, entirely 
unacceptable. You have folks that are directly employed there 
and obviously the ripple effects of these hatcheries, it is 
going to be devastating to our local economy certainly but 
would certainly have a drastic impact on our state. My 
colleague, Mr. Gosar, has illustrated that in some detail.
    Just for the record, on March 4, Assistant Director David 
Hoskins testified before this subcommittee and said the report 
is not a decision document. It offers options and 
recommendations. I understand Mr. Hoskins was new to the 
position in March, but why was this committee not told on that 
day that 13 of the 70 propagation programs had already been 
terminated? Why this secrecy? Why do you not communicate with 
this committee?
    Mr. Guertin. Well, Congressman, again, this was viewed as a 
draft strategic plan to start engaging the stakeholders. No 
decisions----
    Mr. Crawford. Draft plan?
    Mr. Guertin [continuing]. Were made.
    Mr. Crawford. It sounds like you were working right off 
that draft plan to go ahead and implement without any 
congressional oversight or counsel.
    Mr. Guertin. Well, sure, but we have not actually 
implemented any of the recommendations in that larger vision 
document. They have been put out there. And, as I told your 
colleague, our pledge to you is we hear you loud and clear. And 
going forward, all we can say is we will redouble our efforts 
to come back up and sit down with you and the other leaders and 
your staffs to work you through our version of the world.
    Mr. Crawford. OK, let me just say this. I go to those 
hatcheries in my district, and I look them right in the eye and 
I talk to them. And they are concerned. The folks that are 
working there, Fish and Wildlife employees, the surrounding 
community, they are concerned. Has anybody in Washington left 
the beltway and visited those hatcheries and looked them in the 
eye and said, ``Here is the plan. We are going to go ahead and 
shut you down, and we are going to go ahead and deal a 
devastating blow to the local economy. Have a nice day'' ?
    Mr. Guertin. Before coming here last summer, I served as a 
regional director for our mountain prairie region and made it a 
practice on a weekly basis to go out in our field stations, 
visit all of our employees. My geography did not include the 
states you gentlemen represent but it was Montana, Wyoming and 
others. Certainly all of our leaders are out there meeting the 
employees, the partners and others. Personally, now that I am 
in Washington, my 700 employees are here in the Washington 
area. That is my area of focus now. But current leaders in the 
hatchery program, the regional directors and others are 
certainly out there looking folks in the eye. And we have folks 
at the Western Association right now.
    Mr. Crawford. OK, real quick, I have 20 seconds left here. 
The Fiscal Year 2015 Interior appropriations bill increased 
funding of the hatchery program by $9 million. Will that be 
enough to keep the remaining propagation programs fully 
operating next year, yes or no?
    Mr. Guertin. Yes.
    Mr. Crawford. Do you intend to restart some of those that 
have already been terminated, yes or no?
    Mr. Guertin. Off the top of my head, I do not know, 
Congressman. I apologize.
    Mr. Crawford. I will take that as a no, and we will be 
following up with that. And my time has expired. Thank you, Mr. 
Chairman.
    Dr. Fleming. The gentleman yields back. Mr. Fincher is 
recognized for 5 minutes.
    Mr. Fincher. Thank you, Mr. Chairman. And I just want to 
tell the chairman I appreciate him allowing us to testify today 
and ask questions and the committee staff and all the work that 
they have been able to do.
    You know, Mr. Guertin, I listened to your testimony today, 
and a lot of us from rural America appreciate the job that Fish 
and Wildlife does for the most part and is trying to do. And as 
my colleague, Mr. Southerland, talked about being an avid 
hunter, I am as well and have two boys and a lot of family 
members that do.
    I guess the root of the problem here is, I go home one 
weekend and Randy Cook, our Fish and Wildlife guy from my 
district presents me a map with the expansion of the Hatchie 
Wildlife Refuge's new boundaries, proposed boundaries. And I 
was looking at the development of the proposal and a public 
process during which we reach out to state agencies, local 
communities, congressional offices and partners to help shape 
the plan. And I guess the problem from day one has been it was 
a slap in the face not only to me, and I remind myself everyday 
and every weekend when I go home, whom I work for. I do not 
work for Washington. I do not work for the Speaker or the 
President or Fish and Wildlife. I work for my folks in my 
district. And not only me but my constituents, my folks were 
just--I mean my phones blew up over the course of a few weeks 
and months there from not having any input in this process. And 
I guess it is the perception that the private sector is getting 
that it looks like these agencies are just railroading the 
folks.
    So there is much to be done. I think our bill today, H.R. 
3409, is a step in the right direction to give Congress the 
authority before any of these refuges are expanded, that we can 
have a say because of incidents like this. Look, we are not 
wanting to harm the environment or harm the wildlife. We are 
wanting to make it better--I am a farmer--and make it better 
for future generations.
    A couple of questions. Can you explain the public's role in 
drafting an expansion proposal?
    Mr. Guertin. Yes, Congressman. What we do is float a trial 
balloon so to speak with a land protection plan where we have 
looked at key habitats based on priority species, our belief 
that we need those for priority conservation measures. We then 
initiate a very robust and transparent public planning process, 
which would include outreach and public forums, open houses, 
visits to landowners, ranchers, county commissioners, elected 
officials at the local, state and----
    Mr. Fincher. Was it unusual for Randy Cook to present me 
with a map of the new boundaries with them already being drawn 
without talking about this with our office or other offices? 
And, look, we had meetings after this happened, folks. And 
these meetings were packed, running over with people, every one 
of them saying, ``We do not want this. We do not want this. 
What is happening? Explain this.''
    Mr. Guertin. I cannot speak to the specifics of your 
encounter but arguably the map that was presented to you and 
other elected officials and the public would have just been a 
draft schematic of a vision and not a decision document. I have 
been involved in a few of these refuge expansions or creations 
myself in my former leadership role, and we painstakingly did a 
lot of partnership building, town and county meetings, outreach 
communication. And in many cases, there was no public support 
or interest and the Service abandoned the proposal then and 
there. In others, if there was a common ground for a vision for 
conservation, we would pursue it and finalize it.
    Mr. Fincher. Well what scares me, Mr. Guertin, is when all 
of this started and we were running into a brick wall it 
seemed, we had an oversight hearing, and then after that 
hearing, it seemed like things started becoming more clear for 
Fish and Wildlife and all of the partners that were operating 
in this realm. And the next thing we know, they had canceled 
the expansion.
    In closing, maybe the process of how this--and Mr. Ashe and 
I have talked about this, in communicating with the folks at 
home, communicating with Members of Congress, maybe this can be 
better going forward.
    But Congress, again, our bill I think is a step in the 
right direction. It gives us some authority before these 
decisions are made. And I appreciate your time.
    With that, I yield back, Mr. Chairman.
    Dr. Fleming. The gentleman yields back. We do not have time 
to do a full second round, but I will open the dais up. I think 
Mr. Gosar has one other question?
    Dr. Gosar. I do, Mr. Chairman.
    Dr. Fleming. OK, why don't you--let's see, then in that 
case--OK, I will recognize Mr. Gosar for his one question, and 
then we will go to Mr. Sablan.
    Dr. Gosar. It is about three subsets of one question, is 
that OK?
    Dr. Fleming. Yes, go ahead.
    Dr. Gosar. You know, in our dialog right before, you said 
that the Service does not consider jobs. So the 1,700 jobs in 
Mohave County and the $75 million in economic output associated 
with the Willow Beach Hatchery that is now in jeopardy are a 
result of terminating the trout stocking program and the annual 
production of $150,000 worth of rainbow trout, that just does 
not matter to the U.S. Fish and Wildlife Service?
    Mr. Guertin. Well, certainly it matters. These are jobs for 
our fellow citizens.
    Dr. Gosar. But wait a minute, you said it does not matter. 
Earlier you testified that it just is never put into the 
equation.
    Mr. Guertin. Well, may I clarify, sir? What we were talking 
about is we put out a draft blueprint to manage the National 
Fish Hatchery System. The matrix of decisions, recommendations 
that we include in there, because no decisions were made yet, 
did not factor into the economic impact as one of our criteria. 
We looked at biological outcomes instead. And you are pointing 
out, and the leaders are, maybe Fish and Wildlife Service, you 
guys have it all wrong, you should be factoring in some 
economic impact to your decision as well. I cannot go back----
    Dr. Gosar. That would be really nice if it was really 
something true. It is not because you are taking it right off 
of--your litany off this playbook. And you are not engaging the 
state wildlife services, game and fish, you are not dialoging 
with the state stakeholders, local municipalities. So that is a 
bunch of crap. Four thousand jobs, $60 million in payroll, does 
the Fish and Wildlife Service once again consider these figures 
before terminating the rainbow trout stocking programs?
    Mr. Guertin. If we could use the report as it is currently 
written, it would not be one of the factors.
    Dr. Gosar. Yes or no?
    Mr. Guertin. No.
    Dr. Gosar. No. Boy, I mean this is just--this is absurd to 
me. The Fish and Wildlife Service stated in a letter to this 
subcommittee sent on May 30, 2014 that the reason for 
terminating the rainbow trout stocking program at the time was 
that the agency did not have $1.5 to $8.5 million to repair a 
broken water line and to keep the trout stocking program 
holding. I would like to put Exhibit 2 into the record.
    Recent engineering reports indicate that these estimates 
were a gross exaggeration, and the broken water line would only 
cost $100,000 to fix. If the water, now, let's listen very 
carefully, if the water supply line is fixed, does the Fish and 
Wildlife Service plan to reinstate the trout propagation 
program at Willow Beach Hatchery?
    Mr. Guertin. I believe we would, yes.
    Dr. Gosar. Whew, great. I am liking that. We want to make 
it a little more certain. The answer should be yes, totally.
    In your testimony, you dismissed one aspect of my bill and 
say, ``As announced in November, we do not intend to close any 
hatcheries in Fiscal Year 2014.'' You fail to mention that 113-
6, enacted by the Congress, prevents such closures. Are you 
aware of that?
    Mr. Guertin. Yes, I am, Congressman.
    Dr. Gosar. Did the Fish and Wildlife Service even discuss 
closing fish hatcheries in Fiscal Year 2014 prior to the 
release of the November 13 report with Congress?
    Mr. Guertin. Internally, there were some conversations but 
we did not publicly announce it.
    Dr. Gosar. Well, I want to make sure you understand the 
law.
    Mr. Guertin. Oh, yes, we do, Mr. Congressman.
    Dr. Gosar. So we've got a problem here, right? Yes or no?
    Mr. Guertin. Yes.
    Dr. Gosar. We violated the law. Yes or no?
    Mr. Guertin. If we had closed one, yes.
    Dr. Gosar. You closed them prior to 2014, right, 2013?
    Mr. Guertin. I am not aware of us unilaterally closing a 
single----
    Dr. Gosar. We are going to go a little further here.
    Mr. Guertin [continuing]. Field station, Congressman.
    Dr. Gosar. If there was not, then why did Congressman Scott 
Tipton feel compelled to write Dan Ashe a lengthy letter on 
September 9, 2013 and state in part, ``I am told that based on 
a review of the propagation hatcheries within NFHS, that there 
will likely be some closures of hatcheries nationwide. I would 
strongly urge you to keep the Leadville National Fish Hatchery 
open.''
    Media reports also indicate that there will likely be 
hatchery closings, correct?
    Mr. Guertin. That is a--and I am not trying to give you a 
indirect answer, but that is a complicated question to answer.
    Dr. Gosar. No, no, if we are going to close hatcheries, you 
have to come talk to us.
    Mr. Guertin. Under this current appropriation law, yes, we 
do.
    Dr. Gosar. And so everything that you have told us, I mean 
you do not take into consideration economies, you are supposed 
to be talking to stakeholders, you do not do that, why would I 
even--why would we trust you?
    Mr. Guertin. Congressman, we clearly are off to a very bad 
start with you. And all I can pledge is going forward, we will 
redouble our----
    Dr. Gosar. It is not just with me. You are on a bad footing 
with a lot of people.
    Mr. Guertin. I understand. We can do a better job, and we 
will. And we would appreciate your giving us that opportunity 
to come back and re-earn that trust and credibility with you 
and the other elected members here.
    Dr. Gosar. Well, I want you to turn to your left, and I 
want to turn to right behind you to two people that you better 
be very familiar with, Chairman Mansell and Chairman Angius. I 
want you to make sure that those people are on your speed dial.
    Mr. Guertin. Yes, Congressman.
    Dr. Gosar. Chairman, I yield back.
    Mr. Guertin. I met Mr. Mansell at a WAFA meeting previously 
in the West.
    Dr. Fleming. The gentleman yields back. Mr. Gosar, do you 
have something to submit to the record?
    Dr. Gosar. Yes, I have a number of exhibits that I want to 
make sure that are included for the record.
    Dr. Fleming. OK. Without objection, they are accepted.

    [The documents submitted for the record by Dr. Gosar titled 
Exhibit 2 through Exhibit 6 follow:]
                               EXHIBIT 2
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 __
                                 

    Dr. Fleming. The Chair now recognizes Mr. Sablan.
    Mr. Sablan. Thank you, Mr. Chairman. I do not have any 
questions. I would just like to take notice that I very much 
appreciate Mr. Gosar and Mr. Crawford actually voicing their 
support for the economic stimulus the hatchery system provides. 
It appears that we are coming to an agreement that direct 
government spending can actually create jobs and grow this 
economy. I just have to note, I cannot help myself, I just took 
notice of it. And I yield back my time, Mr. Chairman.
    Dr. Gosar. Will the gentleman yield?
    Dr. Fleming. Well, let's move along because we have an 
entire other panel to get to. So I would ask--I would thank our 
two witnesses or, Mr. Guertin, I believe you are not in our 
second panel, I do not believe. Is he?
    Mr. Guertin. No, Mr. Chairman.
    Dr. Fleming. At either one? So we will go ahead and excuse 
both of our witnesses from the first panel and ask our next 
panel to move forward.
    We are now ready for our second panel, which includes the 
Honorable Hildy Angius, Chairman, Mohave County Board of 
Supervisors; Ms. Jacqueline Pata. Pata or Pata?
    Ms. Pata. Pata.
    Dr. Fleming. Pata, Vice Chair, Sealaska Corporation; Mr. 
Paul Schmidt, Chief Conservation Officer, Ducks Unlimited; and 
Mr. Martin Clifford Cornell III, Grant Administrator and member 
of the board of the Friends of Brazoria Wildlife Refuges.
    Your written testimony will appear in full in the hearing 
record, so I ask that you keep your oral statements to 5 
minutes, as outlined in our invitation letter to you and under 
Committee Rule 4(a).
    Our microphones are not automatic, so please press the 
button when you are ready to begin. And, as you understand, we 
have a problem, witnesses oftentimes and even members sometimes 
do not get close enough to the microphone. And also your 
testimony will be 5 minutes. You will be under a green light 
for 4, yellow light for 1 and then when it turns red, please go 
ahead and conclude your statement. It will be submitted in its 
entirety for the record.
    Chairman Angius, you are now recognized for 5 minutes. Mr. 
Gosar--Dr. Gosar, would like to do an introduction.
    Dr. Gosar. Thank you, Mr. Chairman. It is my honor to 
introduce my friend and the chairwoman for the Mohave County 
Board of Supervisors, Hildy Angius. Hildy, it is great to see 
you, and I sincerely appreciate your leadership on this 
important issue. You have been there from the very beginning.
    Chairman Angius was elected to the Mohave County Board of 
Supervisors in 2012 and represents Bullhead City, Arizona. Ms. 
Angius is a former small business owner and managed significant 
budgets in her previous roles as marketing manager for Kokusai 
Wireless technology, marketing manager for LG Wireless and 
public relations manager for the Cable Television Advertising 
Bureau.
    She is passionate about her community and has also served 
as president of her homeowner's association, as well as several 
other local organizations.
    Hildy testified before the House Appropriations Committee 
in April about the importance of preserving recreational 
fishing propagation programs and her testimony was a big part 
of the reason why the House took a strong position in favor of 
recreational fishing in the 2015 Interior and Environmental 
appropriations bill.
    Chairman Angius, anglers throughout the country should be 
grateful for all your efforts. And I really appreciate you 
making a secondary trip back to Washington, DC, just do not 
drink the water.
    You may begin your testimony.

  STATEMENT OF THE HON. HILDY ANGIUS, CHAIRMAN, MOHAVE COUNTY 
                      BOARD OF SUPERVISORS

    Ms. Angius. Thank you very much. Mr. Chairman and members 
of the subcommittee, thank you for the opportunity to provide 
this testimony. My name is Hildy Angius, and I am the chairman 
of the Mohave County Board of Supervisors for Mohave County, 
Arizona. I provide this testimony on behalf of the more than 
200,000 citizens of Mohave County, which is the fifth largest 
county by square miles in the United States.
    Mohave County unequivocally supports the Fish Hatchery 
Protection Act, and we thank Representative Gosar for 
introducing such a critically important piece of legislation. 
Now, this is the second time this year I have traveled across 
the country to testify before a House subcommittee about the 
National Fish Hatchery System, specifically about the Willow 
Beach National Fish Hatchery.
    The Willow Beach National Hatchery has a been a critical 
component of Mohave County's economy since it was established 
in 1962. It was established to raise rainbow trout for release 
into the Lower Colorado River system to offset the massive 
impacts to local fisheries caused by the construction and 
operation of the Hoover Dam and related water resource 
management projects.
    The hatchery is located along the Colorado River near the 
border of Nevada and Arizona within Mohave County and the Lake 
Mead National Recreation Area. It helps support recreational 
sport fishing and tourism throughout the region. Those 
industries make up over 30 percent of Mohave County's economy. 
In fact, according to a study prepared for the Arizona 
Department of Fish and Game, recreational fishing within Mohave 
County in 2001 alone contributed $74.5 million to the local 
economy and supported approximately 1,682 jobs, numbers that we 
believe have remained the same or increased since that time.
    The Willow Beach facility is, or at least was until this 
year, a significant piece of that economic activity because it 
releases thousands of rainbow trout each year into our region's 
waters. The trout is an iconic species that attracts 
recreational anglers to our county from all over the country. 
In fact, it would be hard to imagine a more effective Federal 
stimulus program for our region, as pointed out.
    But yet on November 24, 2013, Mohave County learned that 
the U.S. Fish and Wildlife Service was terminating the rainbow 
trout propagation program at the Willow Beach Hatchery. The 
Service claimed that it lacked sufficient funds to prepare a 
broken water line that delivers water from Lake Mohave to the 
trout ponds at the hatchery. The Service has known since 2010 
that its water delivery system was in need of maintenance, but 
it failed to take corrective measures. My county is now 
suffering because of that failure. In fact, the Service's 
incompetence in managing the water delivery system resulted in 
the deaths of over 60,000 fish last year. That tragedy was 
completely avoidable.
    Now, the Service is claiming that it has no choice but to 
eliminate the entire trout program because it cannot afford to 
fix a pipe. We seriously doubt those claims, particularly 
because the Service's estimates for repairing the pipe are more 
than 10 times higher than the detailed estimates prepared by 
Mohave County engineers.
    The Service will tell you that they are not shutting down 
the Willow Beach Hatchery. Well, that is true. But going 
forward they will spend all available funding on raising 
bonytail chubs and razorback suckers for release into the 
Colorado River using an alternative water supply.
    While Endangered Species recovery efforts are obviously 
worthwhile, Mohave County has been struggling to understand 
where the Service gets its authority to unilaterally alter the 
fundamental purpose of a national mitigation fish hatchery that 
has operated for more than half a century. Nor has the agency 
explained how it prioritizes maintenance projects throughout 
the fish hatchery system or why it lacks sufficient funds to 
support the Willow Beach program. The reason we fear is because 
the Service is getting out of the sport and recreation fish 
hatchery business altogether.
    At the same time that Mohave County learned about the 
Service's decision to terminate trout operations at Willow 
Beach, and we learned that through the news media I want to 
add, we also learned about a new strategy that the Service had 
developed early in 2013 without any public or stakeholder 
participation for the entire National Fish Hatchery System. The 
new strategy clearly prioritizes the use of the Nation's fish 
hatcheries for threatened and endangered species recovery 
efforts and calls for the Service to dramatically curtail 
hatchery operations that support recreation and sport fishing.
    That is why Mohave County fully supports the Fish Hatchery 
Protection Act. We believe that Congress should establish the 
goals and priorities for the National Fish Hatchery System. The 
unelected executive agency charged with this administration 
should not be able to unilaterally walk away from commitments 
the Federal Government made decades ago. That type of dramatic 
shift in operational strategy should not be made without 
congressional oversight and public and stakeholder 
participation.
    H.R. 5026 will ensure that Congress maintains that 
authority. We implore this subcommittee to move this important 
piece of legislation forward and protect the economy of Mohave 
County and counties like it all over the country that benefit 
from the economic power of our Nation's national mitigation 
fish hatcheries.
    Thank you very much, Mr. Chairman, Congressman Gosar, 
members of the subcommittee, for giving me the opportunity to 
testify today on behalf of the citizens of Mohave County. We 
appreciate your time and consideration. And I will be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Angius follows:]
 Prepared Statement of Hildy Angius, Chairman, Mohave County Board of 
            Supervisors, Mohave County, Arizona on H.R. 5026
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide this testimony. I am Hildy Angius, Chairman of 
the Mohave County Board of Supervisors for Mohave County, Arizona. I 
provide this testimony on behalf of the citizens of Mohave County.
    Mohave County fully supports H.R. 5026--the Fish Hatchery 
Protection Act--because it addresses a fundamental concern the County 
has with the U.S. Fish and Wildlife Service's (``USFWS'') operation and 
management of the National Fish Hatchery System. We believe that the 
USFWS is no longer committed to operating the National Fish Hatchery 
System to offset the devastating impacts to our Nation's recreational 
sport fisheries caused by the development of Federal water resource 
management projects. Many of our national fish hatcheries were 
established decades ago to ensure that recreational fishing 
opportunities in our Nation's waters were not eliminated by those 
projects. These hatcheries provide immense economic and environmental 
benefits to the regions in which they are located, including many rural 
areas--like Mohave County--that depend on outdoor recreation and 
tourism to survive. But the USFWS is now ignoring both the history of 
the National Fish Hatchery System and its importance to our national 
economy, and is instead using the System to promote the preservation 
and reestablishment of threatened and endangered species to the 
detriment of recreational fishing and other management objectives. 
Mohave County believes that such a fundamental shift in operational 
priorities for the National Fish Hatchery System should be directed by 
Congress. That is why Mohave County endorses H.R. 5026.
    Mohave County's support for the Fish Hatchery Protection Act is 
grounded in unfortunate experience. Last November, the USFWS 
unilaterally closed the rainbow trout propagation program at the Willow 
Beach National Fish Hatchery in Mohave County. In doing so, the USFWS 
ignored its legal responsibilities, failed to engage with its local and 
state partners, and took action that will have severe economic 
consequences in Mohave County, the fifth largest county by land area in 
the United States. The Willow Beach story, which I share below, 
demonstrates why H.R. 5026 must be enacted.
  willow beach national fish hatchery--an economic engine in jeopardy
    The Willow Beach National Fish Hatchery is located along the 
Colorado River near the border of Nevada and Arizona within Mohave 
County and the Lake Mead National Recreational Area. The hatchery was 
established in 1962 to raise rainbow trout for release into the lower 
Colorado River system to help mitigate for impacts to that system from 
the construction and operation of the Hoover Dam and related subsequent 
water resource management projects, like the Davis Dam. The hatchery 
was established pursuant to the Fish and Wildlife Coordination Act of 
1934 and a 1959 Memorandum of Understanding (``MOU'') between the 
Bureau of Reclamation, National Park Service, and the USFWS. The 1959 
MOU is still in effect today.
    For nearly 52 years, the Willow Beach Hatchery has been an economic 
engine for Mohave County and the surrounding region, providing 
recreational fishing opportunity to replace that which was destroyed by 
Bureau of Reclamation water resource management projects along the 
lower Colorado River. According to a study prepared for the Arizona 
Department of Fish and Game, recreational fishing within Mohave County 
in 2001 alone contributed $74.5 million to the local economy and 
supported approximately 1,682 jobs.\1\ The Willow Beach facility has 
played a huge role in generating that economic activity. The USFWS, for 
example, estimates that the overall National Fish Hatchery System 
generates $3.6 billion in economic activity, creates 68,000 jobs, and 
provides a $28 return on investment for every Federal tax dollar 
invested in the system--a remarkable Federal stimulus success story.\2\ 
Recreational fishing factors significantly into those calculations.
---------------------------------------------------------------------------
    \1\ Jonathon Silberman, The Economic Importance of Fishing and 
Hunting, at 32 (undated but reporting 2001 data).
    \2\ USFWS, Net Worth: The Economic Value of Fisheries Conservation 
(Fall 2011).
---------------------------------------------------------------------------
    To lose that kind of economic activity would have dire consequences 
on any local and regional economy, but that is exactly what Mohave 
County is currently facing. On November 24, 2013, the USFWS announced 
that it was terminating the rainbow trout propagation program at the 
Willow Beach facility, a development the government of Mohave County 
had to learn about after-the-fact through local news media. The USFWS 
claimed that it lacked sufficient funds to repair a broken water line 
that delivered water from Lake Mohave to the trout ponds at the 
hatchery, estimating that the water line would cost somewhere between 
$3.0 and $9.0 million to repair. The USFWS has known since 2010 that 
its water delivery system was in need of maintenance, but failed to 
take corrective measures. Once the water delivery system failed, the 
USFWS claimed that it had no choice but to eliminate the trout program 
because it could not afford the repairs. The agency will, however, 
continue to raise and release bonytail chub and razorback suckers at 
the Willow Beach facility, species that are listed as endangered under 
the Endangered Species Act. Water for raising those species at the 
hatchery comes from groundwater through a delivery system that was not 
impacted by the facility's maintenance failures.
    While endangered species recovery efforts are obviously worthwhile, 
Mohave County has been trying to understand the USFWS's authority to 
unilaterally alter the fundamental purpose of the Willow Beach National 
Fish Hatchery. The facility was established and has been operated for 
more than five decades as a mitigation hatchery. ``The fundamental 
purpose of fishery mitigation,'' according to the USFWS, ``is to 
compensate for adverse impacts to fishery resources caused by the 
construction of Federal dams and Federal water development projects.'' 
\3\ That is precisely why the Willow Beach facility was created in 
1962. As explained by the Government Accountability Office in a June 
2000 report addressing the National Fish Hatchery System, the Willow 
Beach facility was ``constructed in 1962 to mitigate for fish losses 
associated with Hoover Dam's construction.'' \4\ This fundamental 
purpose was acknowledged by the USFWS in the early 1990s, when the 
agency described the Willow Beach facility as a ``mitigation hatchery 
established to produce a fishery in the coldwater habitat created by 
the construction of the Hoover Dam.'' \5\ And in 2006, the Willow Beach 
facility was highlighted by the USFWS as an exemplary mitigation 
hatchery in a report describing the significant positive impact rainbow 
trout production in the National Fish Hatchery System has on the U.S. 
economy.\6\ Moreover, the facility remains subject to the 1959 MOU, 
which specifically limits the USFWS's use and occupancy of the land on 
which the hatchery is located ``for the purpose of propagating trout.'' 
\7\
---------------------------------------------------------------------------
    \3\ USFWS, Economic Effects of Rainbow Trout Production by the 
National Fish Hatchery System, at 5 (Jan. 2006).
    \4\ Government Accountability Office, National Fish Hatcheries, 
GAO/RCED-00-151, at 12 (June 2000).
    \5\ USFWS, Station Profile for Willow Beach National Fish Hatchery, 
at 1 (undated, circa 1991).
    \6\ USFWS, Economic Effects of Rainbow Trout Production by the 
National Fish Hatchery System, at 7 and 9 (Jan. 2006).
    \7\ U.S. Department of the Interior, Memorandum of Understanding, 
at 2 (Apr. 24, 1959).
---------------------------------------------------------------------------
    But now, after a half-century of operation, the USFWS has started 
referring to the Willow Beach facility as a ``non-mitigation 
hatchery.'' According to a February 14, 2014 letter from Mr. David 
Hoskins, Assistant Director for Fish and Aquatic Conservation, to 
Senator John McCain, the Willow Beach facility ``was established as a 
non-mitigation hatchery to produce fish for Lake Mohave and other 
impoundments on the lower Colorado River system.'' Mohave County is 
perplexed by this revisionist history, and is concerned by its intent.
    Mohave County has patiently worked with the USFWS to try to 
understand this abrupt shift in operational strategy, but to no avail. 
The USFWS has not explained its authority for summarily dropping the 
rainbow trout program at Willow Beach. Nor has the agency explained how 
it prioritizes maintenance projects throughout the National Fish 
Hatchery System, or why it lacks sufficient funds to support the Willow 
Beach trout propagation program. The reason, we fear, is because the 
USFWS is getting out of the sport and recreational fish hatchery 
business altogether.
           national fish hatchery system--shifting priorities
    It is becoming increasingly clear that the USFWS's decision to 
shutter the trout propagation operations at the Willow Beach National 
Fish Hatchery is simply the first step in what appears to be an overall 
effort to retool the National Fish Hatchery System from a multi-purpose 
conservation, recreation and economic instrument into an endangered 
species breeding and recovery program. The USFWS released a report in 
March 2013 entitled the National Fish Hatchery System: Strategic 
Hatchery and Workforce Planning Report that de-prioritizes the use of 
the Nation's fish hatcheries for mitigation purposes related to native 
and non-native species. Instead, the USFWS intends to primarily use the 
hatcheries to recover and restore threatened and endangered species and 
address its tribal trust responsibilities. While these are certainly 
worthwhile objectives, Mohave County is struggling to understand how 
the USFWS can walk away from mitigation commitments made to offset 
impacts associated with Federal water development projects across the 
country. The agency is also walking away from its commitment 
(articulated in the March 2013 report) to wait until Fiscal Year 2015 
before closing down any particular fish hatchery operation, and to do 
so only after careful study. The Willow Beach experience clearly 
demonstrates that the USFWS has failed to live up to even that basic 
commitment.
                      willow beach--current status
    The trout propagation program at Willow Beach is still closed. 
Since learning of its closure, Mohave County has been trying to work in 
good faith with the USFWS to develop short- and long-term strategies 
for restoring and continuing the rainbow trout program consistent with 
its 52-year history. Initially, the USFWS rebuffed any meaningful 
dialog with Mohave County or other interested stakeholders, even after 
Mohave County shared its own engineering assessments and cost estimates 
for repairing the water delivery system that were remarkably less than 
the Federal estimates. That position changed somewhat after Mohave 
County provided testimony before a public witness hearing of the U.S. 
House of Representatives Committee on Appropriations, Subcommittee on 
Interior, Environment, and Related Agencies, on April 10, 2014. At that 
hearing, Mohave County expressed its concerns that the USFWS lacked the 
legal authority to ignore the mitigation commitments that spurred the 
original need for the Willow Beach National Fish Hatchery. We also 
questioned whether the USFWS had complied with the National 
Environmental Policy Act and the Endangered Species Act before 
terminating the trout propagation program, \8\ or whether the National 
Park Service had amended its General Management Plan or its Lake 
Management Plan for the Lake Mead National Recreation Area to reflect 
the cessation of rainbow trout stocking activities.\9\
---------------------------------------------------------------------------
    \8\ According to the National Park Service, ``rainbow trout are 
becoming increasingly significant as prey species for striped bass'' in 
Lake Mead and Lake Mohave. Final Environmental Impact Statement for 
Glen Canyon National Recreation Area Lake Management Plan, at 111 (Dec. 
2002). Eliminate the trout, and striped bass are more likely to prey on 
bonytail chub or other endangered species in the region.
    \9\ The National Park Service specifically indicated in its 
Environmental Impact Statement for the current Lake Mead National 
Recreation Area Lake Management Plan that it would undertake a separate 
environmental analysis with other state and Federal agencies if rainbow 
trout stocking activities were ever discontinued in the future. Final 
Environmental Impact Statement for Glen Canyon National Recreation Area 
Lake Management Plan, at 218 and 240 (Dec. 2002).
---------------------------------------------------------------------------
    Since that time, the USFWS has worked with the Arizona Department 
of Game and Fish and Mohave County to evaluate both short- and long-
term solutions for Willow Beach. In April 2014, Arizona Game and Fish 
committed to providing 21,000 six- to eight-inch trout to be reared at 
Willow Beach and released into the Colorado River below the Davis Dam 
this fall. The parties also recently gathered their engineers together 
to discuss long-term fixes for the broken water delivery system. At 
that meeting, Mohave County shared several engineering solutions for 
repairing the water delivery system that cost between $300,000 and 
$500,000 to implement, a far cry from the $3.0 to $9.0 million 
estimates the USFWS used to justify permanently shutting down the 
rainbow trout propagation program last fall. We are therefore hopeful 
that a short-term solution to the Willow Beach problem may be found, 
but we are not confident in the long-term viability of the hatchery. 
The USFWS has publicly stated its intent to shift the focus of all 
national fish hatcheries away from supporting recreational sport 
fishing. Without congressional intervention, the Willow Beach 
facility--like all other national fish hatcheries--will be at risk.
                        summary--enact h.r. 5026
    In summary, Mohave County fully supports the Fish Hatchery 
Protection Act. The Federal Government committed to mitigating for the 
impacts of Federal water resource development projects years ago by 
ensuring that recreational sport fisheries would be sustained post-
construction through the National Fish Hatchery System. The USFWS has 
done an admirable job of operating that System for the past 50 years, 
but has recently changed the fundamental goals and priorities for the 
System under the guise of limited funding. Congress should decide 
whether and how to modify the public's goals and objectives for the 
National Fish Hatchery System, not the executive agency charged with 
its administration. H.R. 5026 would ensure that Congress maintains that 
authority.

                                 ______
                                 

    Dr. Fleming. Thank you, Ms. Angius. Ms. Pata, you are now 
recognized for 5 minutes to present your testimony on H.R. 3109 
on behalf of the Sealaska Corporation.

 STATEMENT OF JACQUELINE PATA, VICE CHAIR, SEALASKA CORPORATION

    Ms. Pata. [Gives greeting in Tlingit language.] Chairman 
and Ranking Member and members of the committee, thank you for 
the opportunity to testify today. My name is Jacqueline Johnson 
Pata and my Tlingit name is Kuseen. I am a Raven from the 
Lukaax.adi Clan from the Raven House in Haines, Alaska. I am 
also the vice chair of the Sealaska Corporation that was 
created by Congress to implement the Alaska Native Claims 
Settlement Act and holds a portion of our aboriginal land in 
southeast Alaska.
    Native Alaskans have used migratory birds and birds' parts, 
including feathers, for thousands of years in the making of our 
traditional regalia, our tools and handicrafts such as our 
masks, our garments, our jewelry, our clothing, our dance 
regalia, our fans and rattles, and hunting equipment, such as 
our spears and arrows. And for just as long as we have made 
these crafts and these tools, we have bartered them, traded 
them and sold them as Alaskan Natives in sustainable fashion. 
In fact, our protocol does not allow us to make them for 
ourselves, but we have to have someone from the opposite clan 
make them for them, and then repay them for whatever it is that 
we are purchasing, in white man's terms, purchasing from them.
    I believe there are misconceptions about the use of 
migratory bird parts and erroneous assumptions that convey a 
false impression that this amendment will facilitate an 
exponential growth in the use of migratory bird parts. In fact, 
this is just simply not true. Let me begin by sharing with you 
that our cultural values guide us on our land use and our 
resources.
    Indigenous peoples have lived in our homelands for over 
10,000 years, and our core cultural values ensure our economic 
sustainability for the future generations. Those culture values 
include Haa Aani, which speaks both to our land use and how we 
respect our land and our resources and Haa Shuka. Haa Shuka 
establishes links between us and the current generation and our 
ancestors that dictate our responsibilities and our survival of 
the future generations.
    These cultural protocols have ensured sustainability for 
thousands of years and have been in place prior to the 
unregulated commercial harvest of migratory birds that led to 
the near extinction of migratory bird populations.
    I would like to offer you some examples of our use of 
migratory bird parts and feathers. And I believe in my written 
testimony I submitted pictures for the testimony.
    But our shaakee.at is a headdress, a headdress that uses a 
few flicker feathers. And in the one that was talked about 
earlier from Congressman Don Young, the shaakee.at also had 
raven feathers, which does not, as you can well note, does not 
constitute a massive use of bird parts.
    There are less than 500 traditional artists, with less than 
fewer of those, much less than fewer of those, that actually 
produce those same kind of products or hats that we use the 
feathers. So we do not anticipate unchecked growth in the use 
of bird parts.
    I also offer you another photo, which is a rattle with 
puffin beaks. And the puffin beaks are traditionally gathered 
after the Puffins naturally shed them following their mating 
season, a sustainable use that does not threaten the 
population.
    Alaskan Natives are not looking to commercialize the use of 
feathers but rather to continue a tradition of culture that 
respects our ancient cultural values of trade and the 
principles of conservation that allows a small number of 
Alaskan Native artists, who have fashioned painstakingly with 
great skill, art, handicrafts and clothing in the footsteps of 
those who came before them.
    For us, it is really a benefit twofold: Alaskan Natives can 
revitalize a suppressed cultural practice in an art form whilst 
simultaneously allowing for the sale of these handicrafts, 
which is a vital source of modest income, which we can purchase 
a few basic human needs, such as heating fuel of the villages 
of Alaska. Our communities are economically depressed and 
suffer the highest unemployment and poverty rates in the 
country.
    All we are asking through H.R. 3109 is to be able to begin 
to help ourselves in a very small way by providing a modest 
income to the severely impoverished communities and traditions.
    So I just want to speak real quickly in closing to the 
comment that you said earlier about the Migratory Co-Management 
Council. There are 12 members of the Council, as you noted. All 
10 of the Native members agree with this. The two others were 
the Federal Government that did not support the provision. And 
I want to let you know that they have made an agreement that 
they only put forward recommendations that they unanimously 
consent to. So therefore we need this bill to move forward and 
not wait for the recommendations to come from the Migratory 
Bird Co-Management Council.
    Thank you. Gunulcheesh.

    [The prepared statement of Ms. Pata follows:]
    Prepared Statement of Ms. Jacqueline Pata, Vice Chair, Sealaska 
                        Corporation on H.R. 3109
                              introduction
    Thank you for the opportunity to testify on a bill that has great 
significance for Alaska Natives.
    My name is Jackie Johnson Pata and my Tlingit name is Kuseen. I am 
Raven of the Lukaax.adi Sockeye clan and the Raven House in Haines, 
Alaska. I am also the Vice Chair of Sealaska Corporation that was 
created by Congress to implement the Alaska Native Claims Settlement 
Act and that holds a portion of our aboriginal land base in Southeast 
Alaska.
    Alaska Natives have used migratory birds and bird parts, including 
feathers, for thousands of years in the making of traditional 
handicrafts such as masks, garments, jewelry, clothing and dance 
regalia (fans, hats rattles), and hunting equipment such as spears and 
arrows. For just as long, these items have been bartered, traded, and 
sold by Alaska Natives in a sustainable fashion.
    I believe that there are many misconceptions about the use of 
migratory bird parts and erroneous assumptions that convey a false 
impression that this amendment will facilitate an exponential growth in 
the use of migratory bird parts or feathers. This is simply untrue.
    First, let me begin by sharing with you our cultural values that 
guide the use of our land and resources. Indigenous Peoples have lived 
in our homeland for more than 10,000 years, and our core cultural 
values ensure cultural and economic sustainability for future 
generations. Those cultural values include Haa Aani that speaks to both 
using our land while respecting our land and resources. Haa Shuka 
establishes links between the current generation and our ancestors and 
it dictates our responsibility for the survival of future generations. 
These cultural protocols have ensured sustainability for thousands of 
years and have been in place prior to the unregulated commercial 
harvest of migratory birds that led to the near extinction of the 
migratory bird populations.
    I would like to offer you some examples of our use of migratory 
bird parts and feathers in a collection of images that I have submitted 
with my testimony. The first photo is of a shaakee.at or hat, which as 
you can see does not constitute a massive use of bird parts. With less 
than 500 traditional artists and a fewer number within our tribe who 
produce objects or hats that use feathers, we do not anticipate an 
unchecked growth in the use of bird parts. I also offer you another 
photo of a rattle with puffin beaks. Puffin beaks are traditionally 
gathered each year after the puffins naturally shed them following 
their mating season--a sustainable use that does not threaten the 
population.
    Alaska Native people are not looking to commercialize the use of 
feathers, but rather, to continue a tradition and culture that respects 
our ancient cultural values and the principles of conservation and 
allows a small number of Alaska Native artists, who have fashioned 
painstakingly and with great skill, art, handicrafts and clothing in 
the footsteps of those who came before them. For us, the benefits are 
two-fold. Alaska Natives can revitalize a suppressed cultural practice 
and art form while simultaneously allowing the sale of these 
handicrafts as a vital source of a modest income with which we can 
purchase a few of the basic human needs such as heating fuel or baby 
formula.
    Our communities are economically depressed and suffer the highest 
unemployment and poverty rates in the country. All that we are asking 
through H.R. 3109 is to be able to begin helping ourselves in a very 
small way by providing a modest income to severely impoverished 
communities through a traditional means.
    Ignorance of the law is not an excuse for violation of a law. 
However, in reality, we were not aware that we could not sell arts with 
feathers until one of my fellow tribal members was cited for creating 
and attempting to sell two Tlingit clan hats one of which is featured 
in the photograph I've shared with you. It underscored that our culture 
and the future of our arts were in jeopardy. We then advanced language 
to amend the Migratory Bird Treaty Act (MBTA) to allow for the use of 
non-edible bird products in Alaska Native handicrafts.
    It is germane to this discussion to know that this amendment 
parallels the Marine Mammal Protection Act exemption for Alaska Native 
handicrafts. The MMPA ``Native Handicraft exemption'' was previously 
supported and recognized by Congress as being ``morally bound to 
respect the traditions and lifestyle of these people'' and that by 
``stripping these rights from them, they will face the certain fate of 
cultural extinction.''
    We find it disheartening that the MBTA and subsequent regulations 
were certain to preserve the rights under 50 CFR 20.91 to make and sell 
pillows, blankets or fishing flies:

        ``any person may possess, purchase, sell, barter, or transport 
        for the making of fishing flies, bed pillows, and mattresses, 
        and for similar commercial uses the feathers of migratory 
        waterfowl (ducks, geese, brant, and swans) killed by hunting 
        pursuant to this part, or seized and condemned by Federal or 
        state game authorities . . .''

    Unfortunately, protecting Alaska Native culture and its utilization 
of migratory bird feathers and parts was less important in 1918.
    We understand that FWS proposes to delay action on this bill citing 
work with the Alaska Migratory Bird Co-Management Council. I would like 
to point out that all Alaska Native members of the Council, 10 of the 
total 12 members support this amendment. The other two represent the 
Federal and state government. The Council's protocols require unanimous 
consent on any action or position which served to deter expression of a 
formal position on this amendment.
    This amendment is consistent with the Marine Mammal Protection Act 
and with our national policies and laws that support cultural diversity 
and tribal self-determination. This bill would allow Native people to 
practice their tradition and provide a modest income without the fear 
that they will be suffering the consequences of a law that currently 
undermines their culture and livelihood.
    Let us amend this archaic and discriminatory law and allow this 
important cultural and artistic use by Alaska Native artists. We urge 
you to support this bill. Thank you for the opportunity to provide 
testimony on this important legislation.
    Gunulcheesh Aan yatgu sani. Thank you Noble People.
                               background
    The Migratory Bird Treaty Act of 1918 (MBTA) implements four 
international treaties that the United States holds with Canada, 
Russia, Japan, and Mexico. These treaties call for the conservation of 
protected species and groups of birds they cover. The MBTA prohibits 
the take of protected bird species, including, in part, to kill, 
capture, pursue, sell, transport, trade, or barter. In this way, the 
statute broadly covers the somewhat divergent requirements of the four 
treaties.
    With the exception of the treaty with Japan, the treaties have been 
interpreted to provide for regulated subsistence take of protected 
birds by Canada and Alaskan Natives. The Mexico treaty provides more 
broadly that the parties will establish ``close seasons'' for take, 
sale, and transport of protected birds. The treaty with Russia provides 
that the parties will establish laws to govern any exemption to its 
prohibitions.
    The treaty with Canada provides that seasons may be established for 
subsistence harvest of birds, eggs, and down by indigenous inhabitants 
of Alaska (meaning Alaska Natives and permanent resident non-natives 
with legitimate subsistence hunting needs living in designated 
subsistence hunting areas). The 1996 revised Senate Foreign Relations 
Committee Protocol for the treaty with Canada further states that 
``Sale of these items is not permitted, except for limited sale of non-
edible by-products of birds taken for nutritional purposes incorporated 
into authentic articles of handicraft. The harvest of such items must 
be consistent with `customary and traditional uses' of indigenous 
inhabitants for their `nutritional and other essential needs'.''
    The Protocols thus allow for a subsistence harvest of migratory 
birds and the limited sale of items made with their parts by Alaska 
Natives, however in implementing the treaties through the MBTA, 
Congress only allowed the subsistence hunt. Consequently, the non-
edible parts are discarded, despite the provisions negotiated into the 
Protocols to allow their sale.
    The United States negotiated Protocols amending the Canadian and 
Mexican treaties to allow for a spring/summer subsistence harvest of 
migratory birds by Alaska Natives for their nutritional, social, 
cultural, spiritual, ecological, economic and aesthetic values. Current 
regulations governing the Migratory Bird Subsistence Harvest in Alaska, 
however, prohibit the sale or purchase of migratory bird parts, 
including feathers and parts of birds taken for subsistence. 50 CFR 
Sec. 92.6. Alaska Natives are allowed to harvest migratory birds for 
food, but are prohibited from using any non-edible part from these same 
birds for any other purpose, including the creation of traditional 
handicrafts, tools, or clothing. There are no exceptions to the 
prohibition on sale, not even for the use of dead birds found in the 
wilderness.
                precedent and impact of changing the law
    There is precedent for changing the law. The Bald and Gold Eagle 
Protection Act (BGEPA) prohibits killing, possessing, or selling bald 
and golden eagle, alive or dead, including any part, nest, or egg, 
unless allowed by permit. 16 U.S.C. 668(a); 50 CFR 22. Native American 
Religious Purposes Permits and Native American Eagle Aviary Permits are 
available for various religious activities. Bald and gold eagles are 
also covered by the MBTA, but through the BGEPA and enacting 
regulations, Native Americans are able to continue traditional 
religious practices that use the parts of those birds.
    The BGEPA recognized the specific and important cultural needs of 
Native Americans and expressly allowed for those continued activities 
contrary to one of the four international treaties.
    Exemptions also exist in the Endangered Species Act (ESA) and the 
Marine Mammal Protection Act (MMPA) to allow Alaska Natives to continue 
their subsistence practices and associated use of by-products for 
handicrafts and art. The ESA at 16 U.S.C. Sec. 1539(e) states that it 
does not apply to the non-wasteful taking or importation of endangered 
or threatened species by Alaska Natives for subsistence, and that non-
edible byproducts of the species taken pursuant to this section may be 
sold in interstate commerce when made into authentic Native articles of 
handicrafts and clothing. The MMPA contains much the same language in 
its exception for Alaska Natives at 16 U.S.C. Sec. 1371(b).
                               conclusion
    The creation of art, handicrafts and clothing from non-edible parts 
of migratory birds by Alaska Natives is a customary and traditional use 
of these parts. It is also an essential need for many Alaska Natives 
and incorporates indigenous knowledge, institutions and practices. 
Indeed, it is ingrained into many of our cultures not to waste any part 
of an animal.
    Providing such an exemption would have no significant impact on the 
migratory bird population because currently the feathers and bird parts 
of migratory birds taken for subsistence are discarded. The exemption 
would prevent the waste of these by-products.
    The possession, sale, barter, purchase, shipping, and transporting 
of authentic Alaskan Native articles of handicraft, clothing or art 
that contains migratory bird parts is consistent with the treaties for 
the conservation of migratory birds.

                                 ______
                                 

    Dr. Fleming. Thank you, Ms. Pata. Thank you for your 
testimony. Mr. Schmidt, before I introduce you, I have some 
other introductions I want to make and then a video. I want to 
recognize my good friend, Skipper Dickson, who is here today 
from my district, a good friend of mine.
    Also his brothers, Mark and Paul live and work in our 
district. They are noted sportsmen, particularly when it comes 
to migratory fowl. They are sixth generation Dicksons that 
settled in the Shreveport area beginning as early as the early 
1800s. They are lifelong members of Ducks Unlimited. They 
operate two businesses, one of which caters to the needs of our 
Nation's sportsmen. And they are true champions of the field of 
wildlife conservation, as I said.
    And, Skipper, I appreciate your leadership on this, on this 
important issue. And I welcome you here today, although I know 
you are no stranger to Washington, DC. You are up here often to 
advocate for the important conservation issues that you and 
your brothers are so interested in.
    It is also my understanding that Mr. Schmidt has a short 
video. So why don't you go ahead and show that video, and then 
we will get back to your testimony and your introduction.
    [Video of Mr. Dale Hall, Chief Executive Officer, Ducks 
Unlimited.]
    Mr. Hall. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Dale Hall, and I am the CEO of Ducks 
Unlimited. And I am pleased to lend our full support for 
passage of H.R. 5069, to increase the price of the Duck Stamp 
from $15 to $25, with the increase dedicated to the purchase of 
willing seller conservation easements.
    I want to thank Chairman Fleming for your leadership and 
the bipartisan support of cosponsors.
    The Duck Stamp was born during the Depression and the Dust 
Bowl, asked for by hundreds of conservationists to do what 
needed to be done for habitat. At that time, it was only $1 but 
a lot has been done with the Duck Stamp, a wonderful example of 
the North American Model of Wildlife Management.
    Wetlands and grasslands provide a myriad of ecosystem 
benefits, from flood damage reduction to water purification, to 
habitat for hundreds of species. The price of the Duck Stamp 
has not been increased since 1991 while land values have 
tripled. Current buying power has never been this low. Ninety-
eight cents out of every Duck Stamp dollar go directly to on-
the-ground conservation.
    Over 30 conservation and hunting organizations have signed 
a letter in support of this $10 increase. Ducks Unlimited is 
committed to working with Congress to pass H.R. 5069, and we 
urge expeditious and favorable committee action to report it to 
the House Floor.
    Once again, I want to thank you for your leadership and 
support of this wonderful endeavor.
    [End of video.]
    Dr. Fleming. And that is Ducks Unlimited's chief executive 
officer, the Honorable Dale Hall. And we appreciate his words 
today on that.
    So back to Commissioner Schmidt. As someone who has 
dedicated his life to wildlife conservation in both the Fish 
and Wildlife Service and Ducks Unlimited, I am pleased to 
recognize you for 5 minutes to present your testimony on H.R. 
5069.
    So you now have 5 minutes, sir.

 STATEMENT OF PAUL SCHMIDT, CHIEF CONSERVATION OFFICER, DUCKS 
                           UNLIMITED

    Mr. Schmidt. Thank you, Mr. Chairman. It is a pleasure to 
be here and see you again and other members of the committee. 
We appreciate the opportunity to testify on H.R. 5069 today, 
the Federal Duck Stamp Act of 2014. And we appreciate your 
leadership in sponsoring it, along with your bipartisan 
cosponsors in both the House and the Senate, a Senate version. 
We applaud both and hope for its quick passage.
    The Migratory Bird Hunting and Conservation Stamp has been 
a critically important tool used to benefit migratory bird 
populations over the last eight decades for habitat 
conservation on refuges. And Ducks Unlimited strongly supports 
this bill to continue the success of the program.
    Since 1934, sportsmen and women have led the way to 
conserve critical habitat through the purchase of these stamps. 
The bill will increase the price of the stamp from $15 to $25, 
and will dedicate the amount of the increase to voluntary 
conservation easements with landowners. During the 23-year 
period, the price has been flat at $15. The conservation buying 
power has diminished greatly.
    As in the past, waterfowl hunters and passionate 
conservationists are willing to take the lead. Further, in 
today's economy and increasing pressures on land use, 
conservation success will depend upon a mixture of public lands 
and private land conservation. Easements provide an invaluable 
tool that allows landowners to retain ownership, manage the 
land for their objectives but provide conservation benefits to 
the public.
    Easements are already a component of the National Wildlife 
Refuge System, and DU welcomes the opportunity to further 
facilitate the delivery of these voluntary, incentive-based 
conservation on private lands. Thus, keeping working lands 
working for the landowner and for the conservation.
    Founded by waterfowl hunters and conservationists in 1937, 
DU has more than a million members and supporters and is the 
world leader in wetlands conservation. Duck hunters and other 
conservationists rallied, urging Congress to pass the Migratory 
Bird Hunting and Conservation Stamp Act in 1934. What this 
program has done for waterfowl and other wildlife since is one 
of the greatest success stories of this country.
    Yet, despite significant conservation achievements, we 
continue to lose wetlands at an alarming rate. The program is a 
model of conservation and public and private partnership. These 
refuges and waterfowl production areas not only benefit 
migratory birds but also hundreds of other fish and wildlife 
species. In addition, wetlands restored and protected on these 
lands provide clean water, mitigate floods, buffer storm 
surges, reduce soil erosion and a host of other benefits for 
our Nation.
    Today, the Duck Stamp program remains a vital component of 
the North American Model for Wildlife Conservation, which keeps 
wildlife in the public domain while promoting responsible use, 
ethical hunting and science-based management.
    Funding for wildlife conservation in the United States is 
predicated on a user pay/user benefit model, based on receipts 
from hunting and fishing licenses and stamps. But in reality, 
the Federal Duck Stamp Program is a user pay/public benefit. 
And to me that is a great success story. So while hunters and 
wildlife enthusiasts are paying to benefit wildlife, the public 
is benefiting for goods and services derived from that 
conservation.
    For decades, DU has partnered with the Service to conserve 
and restore wetlands on refuges across the country. Many of 
these areas are crucial to the objectives of the North American 
Waterfowl Management Plan. DU looks forward to bringing this 
expertise to working with landowners to further wetlands 
conservation. By leveraging these dollars with DU, they use 
private funds and public resources, such as the North American 
Wetlands Conservation Act, DU and its partners were able to 
protect almost 70,000 acres in North and South Dakota last year 
alone. Today, substantial demands exist among agriculture 
producers to enroll in these voluntary conservation programs.
    Unfortunately, the buying power of the stamp has never been 
lower because its price has not been raised since 1991. This is 
the longest period in history without a price increase. 
Meanwhile, land costs have tripled and wildlife habitat needs 
have continued to increase. Many hunting and wildlife 
conservation organizations have joined with us in signing a 
letter in support of this legislation.
    We thank the Chairman and this subcommittee for their 
commitment to the wetlands and waterfowl conservation. The 
Federal Duck Stamp Act of 2014 will secure vital habitat for 
generations of waterfowl hunters and wildlife enthusiasts to 
come.
    On behalf of Ducks Unlimited's more than one million 
supporters, we pledge our commitment and our support to work 
with you to enact H.R. 5069. Thank you.

    [The prepared statement of Mr. Schmidt follows:]
 Prepared Statement of Paul Schmidt, Chief Conservation Officer, Ducks 
                      Unlimited, Inc. on H.R. 5069
    Mr. Chairman, members of the committee, my name is Paul Schmidt. I 
am the Chief Conservation Officer for Ducks Unlimited, Inc. (DU). Prior 
to joining DU in May 2011, I worked for the U.S. Fish and Wildlife 
Service (Service) for 33 years. For the last six of those years, I was 
the agency's Assistant Director for Migratory Birds, overseeing all 
activities related to the management of migratory birds.

    We are grateful for the opportunity to testify regarding the 
Federal Duck Stamp Act of 2014 and appreciate the chairman's 
sponsorship of H.R. 5069 with several bipartisan co-sponsors. We 
applaud the introduction of a Senate bipartisan companion bill, 
reflecting broad support for this important legislation.

    The Migratory Bird Hunting and Conservation Stamp has been a 
critically important tool used to benefit migratory bird populations 
over the last eight decades through the dedication of its receipts for 
habitat conservation on national wildlife refuges, and DU strongly 
supports H.R. 5069 to continue the success of this program. Since 1934, 
sportsmen and women have led the way to conserve critical migratory 
bird habitat across the country through the purchase of these stamps.

    H.R. 5069 will increase the price of the stamp to $25 from its 
current level of $15 and will dedicate the amount of the price increase 
to voluntary conservation easements with private landowners. Ducks 
Unlimited strongly endorses this long overdue price increase, which 
hasn't occurred in over 23 years. During this same period, land prices 
have tripled, our conservation buying power has diminished greatly, and 
virtually all consumer goods from a loaf of bread (70 cents to $1.38; 
97 percent increase) to a gallon of gas ($1.24 to $3.27; 163 percent 
increase) have increased dramatically. Simply stated, we need to raise 
the price of the stamp merely to keep up with the times, and waterfowl 
hunters and passionate conservationists are willing to take the lead.

    Further, in today's economy and with increasing pressures on land 
use, wildlife habitat conservation success will depend on the 
appropriate mix of public lands as national wildlife refuges in 
conjunction with conservation on private lands. Conservation easements 
provide an invaluable tool that allows landowners to retain ownership, 
continue to meet their individual land management objectives, and 
provide conservation benefits to the public. Conservation easements are 
already used appropriately as a component of the National Wildlife 
Refuge System, and DU welcomes this opportunity to further facilitate 
landowners' involvement in the delivery of voluntary incentive-based 
habitat conservation on private lands, thus keeping working lands 
working for the landowner and for conservation.

    Founded by waterfowl hunters and conservationists in 1937, DU has 
more than 1 million members and supporters and is a world leader in 
wetlands conservation. We work in all 50 states and across the 
continent to further our science-based mission of conserving, 
restoring, and managing wetlands and associated habitats for North 
America's waterfowl, as well as for the benefits these resources 
provide to other wildlife and to all Americans.

    During the early 1930s, the most devastating drought in U.S. 
history was turning vital wetlands into barren wastelands and 
decimating duck populations. It was the worst of times for ducks, and 
the bleakest of times for duck hunters and people concerned about the 
landscape. Hunters had seen duck numbers decline steadily since the 
turn of the 20th century, but the situation had never been so dire. 
Something had to be done--and fast--to save waterfowl. Duck hunters and 
their allies rallied, urging Congress to pass the Migratory Bird 
Hunting and Conservation Stamp Act, popularly known as the Duck Stamp 
Act, in 1934. What this program has done for waterfowl and other 
wildlife since is one of the greatest conservation success stories of 
all time. Yet, despite significant conservation achievements, we still 
continue to lose wetlands at an alarming rate. According to a recent 
U.S. Fish and Wildlife Service report, an estimated 74,340 acres of 
wetlands were lost in the U.S. portion of the Prairie Pothole Region 
alone between 1997 and 2009--and once again, we as duck hunters and 
conservationists must stand up and do our part, and increasing the 
price of the Federal Duck Stamp is one important step.

    This year marks the 80th anniversary of the Federal Duck Stamp. 
Since its enactment, this landmark initiative has generated over 900 
million dollars--paid for and supported by waterfowl hunters, refuge 
visitors, conservationists, and stamp collectors--to conserve more than 
6 million acres of wetlands across the United States. The program is a 
model of conservation, public-private partnerships and government 
efficiency. Approximately 98 cents out of every duck stamp dollar is 
spent to acquire or lease lands for the National Wildlife Refuge 
System. These refuges and waterfowl production areas not only benefit 
migratory birds but also hundreds of other fish and wildlife species. 
In addition, wetlands restored and protected on these lands provide 
clean water, mitigate floods, buffer storm surges, reduce soil erosion, 
and offer a host of other benefits for our Nation.

    Today, the Federal Duck Stamp Program remains a vital component of 
the North American Model of Wildlife Conservation, which keeps wildlife 
in the public domain while promoting responsible use, ethical hunting, 
and science-based management. Funding for wildlife conservation in the 
United States is predicated on a user-pay/user-benefit model based on 
receipts from hunting and fishing licenses and stamps, but in reality, 
the Federal Duck Stamp Program is a user-pay/public-benefits program. 
So while hunters and wildlife enthusiasts are paying through stamp 
purchases to benefit waterfowl and other wildlife, the public is 
benefiting from goods and services derived from wetlands conservation.

    For decades, Ducks Unlimited has partnered with the Service to 
conserve and restore wetlands on national wildlife refuges across the 
country. Many of these areas are crucial to DU's continental and 
regional conservation goals and to the objectives of the North American 
Waterfowl Management Plan and other continental bird plans. Ducks 
Unlimited looks forward to bringing its expertise in working with 
private landowners through conservation easements to realizing 
opportunities provided by H.R. 5069 to further wetlands conservation 
within the refuge system.

    For example, much of DU's work with the Service is focused on the 
Prairie Pothole Region, where Federal Duck Stamp dollars are used to 
purchase or lease critical wetland and grassland easements from willing 
landowners. In Fiscal Year 2014, it is estimated that more than $53 
million in public and private partner funds will be invested in the 
Prairie Pothole Region to protect these vital waterfowl breeding areas, 
including nearly $34 million (64 percent) in Federal Duck Stamp 
funding. By leveraging these dollars with other DU private funds and 
public resources from popular programs like the North American Wetlands 
Conservation Act and the Land and Water Conservation Fund, DU and its 
partners were able to protect 68,554 acres in North Dakota and South 
Dakota last year. Since 1997, this partnership between DU and the 
Service has protected approximately 1.6 million acres of some of the 
best waterfowl breeding habitat in North America. Today, substantial 
demand exists among agricultural producers to enroll in these voluntary 
conservation programs. We understand from discussions with the Service 
that more than 1,300 farmers and ranchers (reflecting over 390,000 
potential acres) across the Dakotas are on a waiting list wanting to 
receive an easement offer from the Service. An increase in the Federal 
Duck Stamp would help address this demand and a portion of this 
substantial backlog (with an estimated value of $340 million) of 
willing landowners who want to enroll in the program.

    The Mississippi Alluvial Valley, another DU conservation priority, 
is home to a number of national wildlife refuges, including Grand Cote 
National Wildlife Refuge. Located in Avoyelles Parish near Marksville, 
Louisiana, this refuge was established with funds from the Federal Duck 
Stamp Program in 1989. Since then, DU and other partners have worked 
with the Service to restore 6,000 acres of wetlands and associated 
upland habitat on the refuge to provide important wintering habitat for 
waterfowl and recreational opportunities for duck hunters and other 
outdoor enthusiasts.

    In the Great Lakes region, DU continues to enhance and restore 
vital wetlands on a number of national wildlife refuges purchased with 
Federal Duck Stamp dollars. A prime example is Ottawa National Wildlife 
Refuge, located in northwest Ohio on the shore of Lake Erie. Ducks 
Unlimited, The Nature Conservancy, and the Service are leveraging Great 
Lakes Restoration Initiative grants to enhance about 2,500 acres of 
coastal wetlands in this marsh complex to provide vital feeding and 
resting habitat for waterfowl during spring and fall migration.

    The duck stamp's conservation impact also extends west to the 
Pacific Flyway, where Federal funds are helping restore wetlands in the 
Central Valley of California. Located in the Sacramento Valley, Colusa 
National Wildlife Refuge comprises 5,000 acres and supports as many as 
234,000 ducks and 133,000 geese during fall and winter. Over the years, 
DU has worked closely with the Service to enhance more than half the 
refuge's wetland habitat, including 388 acres of wetlands and adjacent 
uplands recently purchased thanks to Federal Duck Stamp dollars. DU and 
the Service are also currently working on plans to restore habitat on a 
parcel of land recently acquired through the Federal Duck Stamp 
Program.

    Unfortunately, the conservation buying power of the Migratory Bird 
Hunting and Conservation Stamp has never been lower because its price 
has not been raised since 1991. This 23-year lapse is the longest in 
the program's history without a price increase to keep up with 
inflation. Meanwhile, land costs have tripled, and wildlife habitat 
needs have continued to increase, while the Federal Duck Stamp has lost 
40 percent of its conservation buying power. This decline in the 
stamp's buying power is a step backward for wetland and waterfowl 
conservation. More than 30 hunting and wildlife conservation 
organizations--ranging from Ducks Unlimited to the National Rifle 
Association--have signed a letter supporting the price increase from 
$15 to $25. This letter is attached for the committee record.

    We thank the Chairman and this committee for your commitment to 
wetlands and waterfowl conservation. The Federal Duck Stamp Act of 2014 
will secure vital habitat for generations of waterfowl hunters and 
wildlife enthusiasts to come. On behalf of DU's more than 1 million 
supporters, we pledge our commitment and support to work with you to 
enact H.R. 5069.

Attachment

                               ATTACHMENT

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                 __
                                 

    Dr. Fleming. Thank you, Mr. Schmidt. Thank you for your 
work. Mr. Cornell, you are recognized for 5 minutes to present 
your testimony on H.R. 3409 and H.R. 5069 on behalf of the 
Friends of Brazoria Wildlife Refuges.

STATEMENT OF MARTIN CLIFFORD CORNELL III, GRANT ADMINISTRATOR, 
              FRIENDS OF BRAZORIA WILDLIFE REFUGES

    Mr. Cornell. Good morning. I am Marty Cornell, a retired 
Dow Chemical scientist and now the volunteer grant 
administrator and member of the board of the Friends of 
Brazoria Wildlife Refuges. I am here today in the latter 
capacity.
    Friends, a tax-exempt organization, acquires funds through 
grants, gifts and fundraising to support a variety of 
activities within the Texas Mid-Coast National Wildlife Refuge 
Complex, located about an hour and a half south of Houston, 
Texas.
    Over 36 percent of these funds have supported land 
acquisition discovery activities to streamline the Service's 
process of acquiring tracts of property. I very much appreciate 
the opportunity to speak to this subcommittee on the negative 
impacts that H.R. 3409 would have on our local refuges.
    Because of its unique location and ecology, along the Texas 
Gulf Coast, the Complex is home to over 100 species of resident 
birds and more than 200 species of non-resident migrating 
birds, totaling over 29 million individuals. Most of these 
birds are attracted to our area because of our old growth 
hardwood forest, known as the Columbia Bottomlands, which 
provides food, water and shelter for travel-weary migrants.
    Over 75,000 visitors enjoy the refuges each year for 
wildlife observation, photography, duck hunting and fishing. 
This activity provides an annual economic boost of over $118 
million to our local economy.
    In 1997, concern over the rapid destruction of the Columbia 
Bottomlands ecosystem led to a coordinated effort by government 
agencies, including Texas Parks and Wildlife, private 
landowners and conservation organizations, to preserve enough 
of this forest to sustain its bio-diversity on which resident 
and migratory birds depend. It is believed that 70,000 acres or 
just 10 percent of its original expanse would provide this 
insurance. Since then, more than 33,000 acres have been 
acquired by the Service from donors and willing sellers.
    Non-profit organizations, like the Trust for Public Land, 
often purchases and holds land until the Service completes due 
diligence and secures funding for acquisition. These non-
profits provide elasticity to accommodate the timing needs of 
the seller and the funding constraints of the buyer. The result 
is a process that is steadily moving toward the goal of 
conserving a sustainable amount of forest ahead of urban 
encroachment as metropolitan Houston moves south.
    It is noteworthy that 61.1 percent of the funds for the 
acquisition of this land came from the Migratory Bird 
Conservation Fund, Duck Stamp money, thank you Paul--16.6 
percent of the cost of the land purchase came from private 
grants and 14.9 percent represents the appraised value of 
donated tracts of land. That totals 92.5 percent. Only 7.5 
percent of the cost of acquisition came from direct 
congressional appropriation via the Land and Water Conservation 
Fund.
    Industrial and private landowner neighbors of the Complex 
appreciate the value of our natural ecosystems. And over the 
years, many have offered to donate or sell property to the 
Service. One recent example is the 338-acre tract of 
Bottomlands Forest, appraised at $1.8 million, donated by the 
Dow Chemical Company, our county's largest employer. Today, the 
Dow Woods Unit of the San Bernard National Wildlife Refuge, 
which is solely contained within the confines of the city of 
Lake Jackson, Texas, is an urban refuge. It enjoyed over 4,500 
visitors last year.
    If H.R. 3409 is enacted, expansions like the Dow Woods, 
would require a time-consuming, cumbersome and likely deal-
killing Act of Congress.
    Currently, the Complex is working on the acquisition of 
over 21,000 additional acres, bringing us closer to our goal. 
If enacted, H.R. 3409 would essentially halt the process of 
preserving this critical hardwood wetland forest and threaten 
the dwindling population of migrating songbirds who depend on 
it.
    The bottom line is that H.R. 3409 is a blunt instrument. 
Congressional oversight is already provided by the Migratory 
Bird Conservation Act, which funds most of our refuge land 
acquisition programs. For these reasons, I respectfully request 
that H.R. 3409 be rejected by this subcommittee and by the 
House of Representatives.
    I thank you for your time.

    [The prepared statement of Mr. Cornell follows:]
 Prepared Statement of Martin C. Cornell, Grant Administrator, Friends 
        of Brazoria Wildlife Refuges on H.R. 3409 and H.R. 5069
    Good morning. I am Marty Cornell. I retired 12 years ago after 35 
years as a scientist for The Dow Chemical Company, and since then I 
have been an active volunteer and member of the board of the Friends of 
Brazoria Wildlife Refuges (Friends).\1\ I am here today in that latter 
capacity, where I serve as Grant Administrator. In that role, I apply, 
administer, and report on a constant flow of grants and gifts to 
support three National Wildlife Refuges located along the mid-coast of 
Texas; the Brazoria, San Bernard, and Big Boggy National Wildlife 
Refuges. These three refuges are administered by the Texas Mid-coast 
National Wildlife Refuge Complex (TMCNWRC).\2\ Many of these grants and 
gifts are targeted to support the acquisition of tracts of land for the 
San Bernard National Wildlife Refuge (SBNWR). I shall be using the 
experience of the San Bernard NWR to frame our case regarding the Bill 
H.R. 3409.
---------------------------------------------------------------------------
    \1\ http://www.refugefriends.org/.
    \2\ http://www.fws.gov/southwest/refuges/texas/texasmidcoast/
index.htm.
---------------------------------------------------------------------------
    I very much appreciate the opportunity to speak to this 
subcommittee on the negative impacts that would occur to the Land 
Protection Plan of the San Bernard NWR if the Bill, H.R. 3409, known as 
the National Wildlife Refuge Expansion Limitation Act of 2013, were to 
become law.
    First, some orientation is in order. Starting in 1996, the 
Department of the Interior, under the U.S. Fish and Wildlife Service 
(USFWS), began acquiring land in Brazoria County, Texas, because this 
region along the Gulf coast, with our coastal shores, bays, estuaries, 
prairies, and riparian forests, is an ideal habitat for wildlife, 
especially for resident and migrating birds.
    Of special importance are the bayous, streams, and three major 
rivers in Brazoria and neighboring Matagorda County that empty into the 
Gulf of Mexico, the Brazos, San Bernard, and Colorado Rivers. These 
rivers and streams support old growth hardwood forests that provide 
shelter, food, and water for native and migrating wildlife. Named 
Austin's Woods or the Columbia Bottomlands Forest, this land is the 
southernmost riparian forest along the Gulf Coast of the United States 
(Figure 1). It is an oasis, separated from other coastal forests by 
vast expanses of prairie, farmland, and urban areas.

      Figure 1. Strategic location of the wildlife refuges of the 
            Texas Mid-coast National Wildlife Refuge Complex
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    

    Prior to European settlement, these forests and wetlands 
consisted of about 700,000 acres. Their location and size attracted 
Nearctic and Neotropical migrating birds, and became ingrained in their 
instinctive migration routes. Today, millions of birds make this trek 
through the Columbian Bottomlands forests, many taking the 600-mile 
path from Mexico's Yucatan Peninsula over the Gulf of Mexico to the 
Columbia Bottomlands Forest, where they find safe haven (Figure 2). 
This pattern is dramatically shown on Figure 3 in the Doppler radar 
image taken in February, 2006, with massive flocks nearing our 
coastline, and other birds, having rested and refreshed, continuing 
their journey north to breeding grounds.
     Figure 2. Spring northern migration pathways pass through the 
                      Columbia Bottomland Forests
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Figure 3. Doppler radar of the northern spring migration of 
    Nearctic and Neotropical birds through the Columbia Bottomland 
                  forests. Dr. Sidney Gauthreaux, Jr.
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    

    .epsBecause of our unique location and ecology, we are blessed to 
have over 100 species of resident birds, and in 1997 counted 237 
species of non-resident birds, totaling over 29 million individuals, 
migrating through our forests. During migration, bottomland hardwood 
forests are particularly valuable to a large variety of warblers, 
vireos, thrushes, tanagers, buntings, goatsuckers, and other forest 
birds that seek out forest resources after a long flight to recuperate 
and refuel. In Mississippi, research has demonstrated that Neotropical 
migrants using coastal forests are found in increasing abundance with 
increasing density of forest trees and increasing numbers of insects in 
forest understories.\3\
---------------------------------------------------------------------------
    \3\ Jeffrey J. Buler, Frank R. Moore, and Stefan Woltmann 2007. A 
Multi-Scale Examination of Stopover Habitat Use by Birds. Ecology 
88:1789-1802. http://dx.doi.org/10.1890/06-1871.1.
---------------------------------------------------------------------------
    This makes southern Brazoria County and our refuges a Mecca for 
birders from all over the world. A 2011 survey by the USFWS estimated 
that one million people ventured away from home to observe wildlife in 
Texas and spent $1.8 billion in the process.\4\ Over 75,000 visitors 
enjoy our three refuges each year, including over 32,000 who cite 
wildlife observation as the attraction for touring the San Bernard and 
Brazoria National Wildlife Refuges. Additionally, 3,400 visitors hunt 
migrating waterfowl during the hunting season and an estimated 30,000 
fishermen enjoy the bays and estuaries of the complex; 70 percent of 
them by boat. Using the expenditure per person ratio from the 2011 
USFWS survey, this equates to $1,800 per person in direct and trickle 
down impact, or $118 million per year for the ecotourism on our 
refuges.
---------------------------------------------------------------------------
    \4\ U.S. Fish and Wildlife Service and U.S. Census Bureau; 2011 
National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation--Texas; https://www.census.gov/prod/2013pubs/fhw11-tx.pdf.
---------------------------------------------------------------------------
    We are also fortunate that southern Brazoria County and the 
adjoining Matagorda, Fort Bend, and Wharton counties remain largely 
rural, despite being as close as a 1-hour drive from Houston, Texas, 
the fourth largest metropolis in the United States. A great many of the 
industrial and private landowner neighbors of our refuges fully 
appreciate the value of our natural ecosystems, as opposed to urban 
sprawl, and offer property to be donated or sold to the U.S. Fish and 
Wildlife Service.
    A recent example of this is a 338-acre tract of bottomlands forest, 
bisected by Bastrop Bayou, and located within the extraterritorial 
jurisdiction of the city of Lake Jackson, Texas. This land, appraised 
at $1,800,000, was donated to the San Bernard National Wildlife Refuge 
by The Dow Chemical Company, our county's largest employer. Subsequent 
development of 2.5 miles of ADA-compliant trails and other facilities 
were made possible from over $300,000 in grants and gifts awarded to 
the Friends of Brazoria Wildlife Refuges. Today, this Dow Woods Unit of 
the San Bernard NWR is an ``urban refuge'' that was enjoyed by over 
4,500 visitors in 2013, with visitation growing as the recently 
completed trails become better known (Figure 4).
    Figure 4. ADA-compliant trail in the Dow Woods Unit of the San 
                              Bernard NWR
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    

    .epsIt is noteworthy that the prevision of the proposed National 
Wildlife Refuge Expansion Limitation Act of 2013 would have required a 
time-consuming and cumbersome Act of Congress for this donated land to 
become part of our refuge system. With such a substantial negative 
impact, the question is begged, ``What would be the net gain if H.R. 
3409 were to become law? '' In our case, where only a small portion of 
discretionary Federal funds are involved, the answer would lead to a 
loss to the citizens, not a gain.
    The Dow Woods Unit is also an example of public access development 
done with private funds, such as those from our Friends organization.
    The Friends of Brazoria Wildlife Refuges was chartered in 1994 and 
became a 501(c)(3) tax-exempt organization in 1995. One of our major 
activities is to acquire funds through grants, gifts, and fundraising 
efforts. These funds are used to develop public use facilities, support 
environmental education programs, and conduct wildlife surveys. Over 36 
percent of these funds support pre-land acquisition discovery 
activities, which streamlines the process of acquiring donated or 
purchased tracts of property, such as the Dow Woods Unit (Figure 5).
            Figure 5. Allocation of Friends Funds, 1996-2014
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    In 1997, concern over the rapid destruction of prime, old-
growth bottomland hardwood forest in the Columbia Bottomland ecosystem 
led to a coordinated effort by Federal, state, and local government 
agencies, together with landowners and conservation organizations, to 
preserve enough of this forest and adjoining prairie to sustain its 
biodiversity on which substantial populations of migratory birds 
depend. It is believed that 70,000 acres would provide this insurance 
(10 percent of the original 700,000 acres).
    As part of the resulting 1997 Decision Document of the Austin's 
Woods Conservation Plan, the U.S. Fish and Wildlife Service was 
authorized to purchase of up to 28,000 acres as its share of the 
70,000-acre goal of the involved conservation partners. For various 
reasons, the other partners have since been unable to execute any 
substantial land purchases. They have, however, been active in 
assisting the Service in its land-acquisition process. On June 25, 2013 
the Service authorized an increase of the acquisition cap to the full 
70,000 acres within the established acquisition boundary shown on 
Figure 6.
     Figure 6. Acquisition boundary of the Austin's Woods Unit of 
                the San Bernard National Wildlife Refuge
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    

    Over the 16 years through the end of 2013, over 33,000 acres 
have been acquired by the U.S. Fish and Wildlife Service, as shown on 
the map of Figure 7. Details of this plan are covered in the Texas Mid-
coast NWR Complex Comprehensive Conservation Plan and Environmental 
Assessment, approved in September, 2013.\5\
---------------------------------------------------------------------------
    \5\ http://www.fws.gov/southwest/refuges/Plan/docs/Texas/
TMC_CCP_portfolio.pdf.
---------------------------------------------------------------------------
     Figure 7. 33,653 acres of acquired and proposed additions to 
                the conserved Columbia Bottomland Forest
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    

    It is noteworthy that 61.1 percent of the funds for the 
acquisition of this land came from the Migratory Bird Conservation Fund 
(MBCF), paid for by Duck Stamps sold to duck hunters and aficionados of 
the stamp art. The funds are thus fees paid by appreciative users of 
wetland ecosystems, to the benefit of future generations of all 
Americans; 16.6 percent of the cost of the land purchased came from 
private grants, and 14.9 percent represents the appraised value of 
donated tracts of land. Only 7.5 percent of the cost of acquisition 
came from congressional appropriation via the Land and Water 
Conservation Fund (Figure 8).
     Figure 8. Funding Sources of Columbia Bottomlands Additions, 
                               1996-2013
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    All of these 33,636 acres were obtained from willing donors and 
sellers, primarily via fee title purchase. Non-profit organizations 
like the Trust for Public Land, The Conservation Fund, and the National 
Fish and Wildlife Foundation often purchase and hold lands until the 
U.S. Fish and Wildlife Service completes due diligence and secures 
funding for acquisition. Friends, through grants from Houston 
Endowment, provides funds for pre-acquisition discovery processes. 
These non-profits provide elasticity to accommodate the timing needs of 
the seller and the funding constraints of the buyer. The result is a 
process that is steadily moving toward the goal of conserving a 
sustainable amount of Columbia Bottomland Forest ahead of urban 
encroachment as metropolitan Houston grows south.
    Currently, the TMCNWRC is working on the acquisition of 12 tracts 
of Columbia Bottomland forest, having a total of 21,805 acres, bringing 
us closer to our goal of 70,000 acres.
    The current quantity of land in conservation status is not adequate 
to protect either the ecosystem or dependent wildlife species. The 
proposed National Wildlife Refuge Expansion Limitation Act of 2013 
would essentially halt the process of preserving this critical amount 
of hardwood wetland forest, and threaten the dwindling population of 
migrating songbird species, which are in significant decline.\6\ Since 
H.R. 3409 would be retroactive to January 3, 2013, the over 3,800 acres 
of land acquired since then by the San Bernard NWR would be in 
jeopardy.
---------------------------------------------------------------------------
    \6\ Saving Migratory Birds for Future Generations: The Success of 
the Neotropical Migratory Bird Conservation Act; Compiled by American 
Bird Conservancy; May 2009; http://www.abcbirds.org/newsandreports/
special_reports/act_songbirds.pdf.
---------------------------------------------------------------------------
    The bottom line is that H.R. 3409, which would stipulate that ``The 
Secretary may not expand any national wildlife refuge except as 
expressly authorized by law enacted after January 3, 2013'', is a blunt 
instrument. Congressional oversight is already provided by the 
Migratory Bird Conservation Act, which funds most of our refuge land 
acquisition programs. For these reasons, I respectfully request that 
H.R. 3409 be rejected by this subcommittee and the U.S. House of 
Representatives.
    I thank you for your time.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Cornell. At this point, we will 
begin Member questioning of our witnesses. To allow all Members 
to participate and ensure we will hear from our witnesses, we 
are limited to 5 minutes as before. If you have additional 
questions, if we have time, we will have another round. I now 
recognize myself for 5 minutes.
    Mr. Schmidt, I appreciate your years of service both in the 
Fish and Wildlife Service and with Ducks Unlimited. You have 
really had that combined experience and database of knowledge 
that is so important to this discussion. And what I think we 
all want today of course is to have more ducks. And the way to 
have more ducks is to have more habitat of course. The way to 
achieve that of course is sometimes up for discussion. And the 
reason why we went in the direction we did with H.R. 5069 is to 
say we have relative to the cost of land, we have fewer dollars 
to apply. Why not get the biggest bang for our buck, the best 
leverage, and that is, let's commit all of the new money into 
easements rather than purchases. And the reason being that, 
number one, it is probably less expensive to purchase an 
easement than fee simple. And the other is of course 
maintenance.
    You know, Mr. Southerland makes the point that we are not 
maintaining our easements as it is. And I would really disagree 
with him on that. I did not get a chance to bring that up, but 
I would love to get your comments. But that is the beauty of 
easements, it remains in the hands of the family, of certainly 
the owners where they can continue to manage it as their own 
land. They just simply cannot destroy the land. It has to 
remain habitat for birds. So I would love to get your response 
to that, and if you agree or disagree with those comments.
    Mr. Schmidt. Well, thank you, Mr. Chairman, very wise 
remarks, frankly. We see the value of easements. And we have 
for much of our history in Ducks Unlimited, we see them as so 
valuable in terms of an instrument and a tool for conservation 
that we dedicate our own philanthropic investment to easements. 
We currently manage almost 400,000 acres ourselves through 
easements. It has nothing to do with the Federal Government, 
but it is simply our donors and our supporters have suggested 
that is a good approach as well. And we think there is a nice 
balance between public lands and private lands.
    And in terms of the cost of maintaining, as you alluded to, 
maintaining easements, they are cheaper. We find that we have 
to monitor them, yes, to make sure they are in compliance with 
the legal documents but that is typically an annual sort of 
event to simply monitor. There is not an active management, if 
you will. That is on the shoulders of the private landowner who 
is doing their work on their land.
    Dr. Fleming. Right.
    Mr. Schmidt. So we think the balance that this bill 
provides, and frankly that the Duck Stamp program has provided 
for years, is appropriate and important, particularly as you 
reference the economics of the situation.
    Dr. Fleming. If I heard you correctly in your testimony, 
you said there were about a million Ducks Unlimited members?
    Mr. Schmidt. Members and supporters, yes.
    Dr. Fleming. Is that worldwide?
    Mr. Schmidt. Yes, yes.
    Dr. Fleming. In the United States, it would be what 
approximately?
    Mr. Schmidt. Well, we have actually officially about 
650,000 members in the United States. And there are members in 
Ducks Unlimited Canada, Ducks Unlimited Mexico as well. And 
then we have supporters beyond even those members that we 
count.
    Dr. Fleming. And you have been communicating with them, 
getting feedback on the idea of an increase committed toward 
the easements. What has been the response?
    Mr. Schmidt. Very strong support for this. Ninety percent 
of our members. About 90 percent of our members are hunters, 
migratory bird hunters. And so they are going to be required to 
buy this stamp year in and year out. And so we think it is 
important to ask them and to get their feeling. While I cannot 
say that 100 percent of our members support it, the vast 
majority are in support of this because they have seen the 
results that the Duck Stamp program has produced over the 
decades that it has been there.
    Dr. Fleming. Yes, well, I certainly agree with you. Again, 
government does not get a lot right, but this is one I think 
government has historically. We have lots of history in 
evidence. And so we want to continue what we are doing well, 
and we want to continue doing it.
    Mr. Schmidt. Thank you.
    Dr. Fleming. Chairman Angius, in the remaining time that I 
have, why is the Willow Beach National Fish Hatchery important 
to Mohave County, Arizona?
    Ms. Angius. Thank you. Mohave County, Arizona, obviously it 
is in the middle of the desert, surrounded by water. We have 
Lake Mohave, and the Mighty Colorado. Everything that happens 
in Mohave County basically happens on the Colorado River. Most 
people end up living in Mohave County. They have come through 
their lives, they have river homes or trailers that they come 
down, and they go to the river to recreate. That is how they 
end up there.
    So I am also right across the river from Laughlin, Nevada. 
So we are a tourist area. That is our economy. So without the 
trout propagation program fueling the ecosystem of our river, 
these fishermen are going to go away.
    We have, you know, anglers sort of get spots that they 
enjoy coming to, and they come on an annual basis. And they are 
stopping. They have read in the papers that this program is 
over, and they are going to find new places to go fish. And we 
are going to lose them forever.
    Dr. Fleming. Well, thank you. My time is expiring, but 
without fish, you do not have fishermen. Without fishermen, you 
do not have an economy in a lot of these communities.
    Ms. Angius. That is it.
    Dr. Fleming. And I now recognize Mr. Sablan.
    Mr. Sablan. Thank you, Mr. Chairman. Mr. Schmidt, good 
afternoon. Sir, in your testimony you stated that conserving 
and restoring waterfowl habitat in the Mississippi River, and 
you are going to have me with this, the Alluvial Valley?
    Mr. Schmidt. Alluvial, yes.
    Mr. Sablan. Alluvial Valley, you say, level one priority 
for Ducks Unlimited?
    Mr. Schmidt. Yes, sir.
    Mr. Sablan. And so this habitat is largely made up of 
seasonally flooded Bottomland hardwood forest, roughly 80 
percent of which has been destroyed according to the National 
Wildlife Federation. Why is that habitat so important?
    Mr. Schmidt. Oh, wow, that is a great question, 
Congressman. It is incredibly important for all the species 
that call that home and migrate through it. And we have lost a 
lot of that habitat over the years. And we think it is 
important to restore as much as we possibly can. Bottomland 
hardwoods are incredibly productive ecosystems that benefit 
many species and, frankly, humans first and foremost with 
mitigation of floods and clean water that can be filtered 
through those areas. We think they are invaluable for not only 
the sportsmen and women but frankly the general public.
    Mr. Sablan. So would it be safe to say, sir, that you 
support conserving more of this habitat in areas like those 
around the Lower Hatchie and Chickasaw National Wildlife Refuge 
in Tennessee?
    Mr. Schmidt. Yes, we think the refuge system provides a 
great public asset and would continue that with the Duck Stamp 
in lieu of H.R. 5069.
    Mr. Sablan. Thank you for that. And of the 561 national 
wildlife refuges, only 60 have been established by specific 
acts of Congress. Maybe that tells you how fast Congress works 
sometimes. Only 13 of these refuges in the lower 48 states have 
ever been expanded by Congress. Instead, the Fish and Wildlife 
Service has used authority Congress gave it to create and add 
to refuges, including science to help determine which land has 
the greatest conservation value. So do you think relying on 
Congress to approve every individual donation purchase or 
conservation easement, adding land to the refuge system would 
result in more conservation of waterfowl habitat or less? You 
know how Congress works, Mr. Schmidt, how fast.
    Mr. Schmidt. We value--Ducks Unlimited values the oversight 
the U.S. Congress provides.
    Mr. Sablan. But approval, I am talking about approval.
    Mr. Schmidt. And we think a good model is certainly the 
Migratory Bird Commission where the Dean of the House sat on 
for 45 years and others who have sat at this table. And we 
think that provides a great opportunity, and that is the review 
that occurs associated with the Federal Duck Stamp.
    In terms of the other bill, we do not have a particular 
position on that particular bill. And we appreciate the 
involvement in the process by the Congress and the public in 
making decisions about where we should invest resources in the 
future for refuges.
    Mr. Sablan. Thank you, Mr. Schmidt. Let me go to you, Mr. 
Cornell, if I may. You testified, sir, that the Dow Chemical 
Company, the largest employer in your area I understand, not 
only supports expanding the San Bernard National Wildlife 
Refuge but also donated a 338-acre tract of land to the refuge. 
The narrative we hear, sir, from the committee Majority states 
that the national wildlife refuges are detrimental to local 
economies. Dow Chemical is not exactly, you know, it is a 
business. So do you think Dow Chemical agrees with that--with 
that statement or that thought? What has been your experience?
    Mr. Cornell. I retired 11 years ago, and at that time I can 
tell you that they did. I have no reason to suspect that they 
have changed since then. In fact, of course they are my 
neighbors.
    Mr. Sablan. They think that wildlife refuges are 
detrimental to the local economy?
    Mr. Cornell. No, no, they believe it is very much a 
positive impact on the economy. I mean I deal with a lot of 
current Dow employees. They volunteer at the refuges. It is 
certainly like you said, it offers--our refuges are a buffer. 
They are right on the coast. And we get hit with tropical 
storms and hurricanes, and this is one of our buffers, these 
lands that will not be developed. And so that is very much an 
advantage.
    And one of the things any company like Dow wants to do is 
attract top-level employees and to do that they have to provide 
a desirable environment. And certainly this type of environment 
is very desirable by those employees. And so it really does add 
to the whole wealth and well-being of our community.
    Mr. Sablan. Thank you, Mr. Cornell. Mr. Chairman, my time 
is up.
    Dr. Fleming. The gentleman yields. Dr. Gosar.
    Dr. Gosar. Thank you, Mr. Chairman. I just want to remind 
this committee that Congress is supposed to work not fast but 
efficiently based on the facts under the rule of law. And the 
agencies are required to do the same thing, to follow the rule 
of law, and in doubt, come back to Congress to verify. And that 
is what we seem to have a huge problem with currently.
    Ms. Angius, I am going to go through a couple of things 
here real quick because once again we heard some good 
information here just a minute ago with the director.
    You testified that the Willow Beach Fish Hatchery was 
constructed in 1962 to mitigate for fish losses associated with 
the Hoover Dam's construction. This was the sole purpose, 
correct?
    Ms. Angius. Correct.
    Dr. Gosar. I recall looking at the Fish and Wildlife 
Service Web site several months ago when this issue first came 
up and it said, and I quote, ``The Willow Beach Fish Hatchery, 
National Fish Hatchery, was created for the sole purpose of 
producing rainbow trout for the sport fishing community.'' 
Strange that language has been removed from the page. And that 
the Service now is referring to the hatchery as a non-
mitigation hatchery, as you testified.
    You know about this, can you elaborate about why you think 
this is such?
    Ms. Angius. Well, I can only speculate. All that wording 
was there. It was there. In fact, I have press releases all 
over the place for the last decade that always referred to 
Willow Beach as a mitigation hatchery. But yet after November, 
after the incident where the fish died, and again that was an 
avoidable incident, after the fish died and the decision was 
made not to fix the pipe and continue the program, magically 
all the mentions of the Willow Beach being a mitigation 
hatchery disappeared. And so now what we are hearing from the 
agency is that it is not a mitigation hatchery.
    And, again, I do not think I said this in the testimony, 
the Willow Beach National Fish Hatchery was established by a 
memorandum of understanding between the Bureau of Reclamation, 
the National Park Service, and the U.S. Fish and Wildlife 
Service in April of 1959 solely as a mitigation hatchery for 
the propagation of trout, to mitigate recreational losses 
resulting from Federal dam construction of Hoover Dam and to 
contribute to the overall economic development of the area and 
increase recreational facilities in the region. That is the 
U.S. Fish and Wildlife's wording, not mine, not Dr. Gosar's. 
That is their wording. So here we are.
    Dr. Gosar. Well, and I find it strange that in 2006, the 
Willow Beach facility was highlighted by the Fish and Wildlife 
Service as an exemplary mitigation hatchery in a report 
describing the significant and positive impact rainbow trout 
production in the National Fish Hatchery System has on the U.S. 
economy. What a difference 8 years makes, huh? And what a 
difference it makes having no dialog with the Fish and Wildlife 
Service.
    I want to go back to this aspect, because you have been 
instrumental in mitigation, this aspect along with the Arizona 
Game and Fish. When we talked about this pipe, you went about 
trying to get an independent evaluation of this pipe and the 
cost with it. Can you describe a little bit about this?
    Ms. Angius. Well, we did. Actually, U.S. Fish and Wildlife 
and Arizona Game and Fish, we did come together and have a 
meeting about a month and a half ago at Willow Beach Hatchery. 
And we had all the engineers. It was very interesting to watch. 
And they sort of brainstormed to figure out what would be the 
best fix for this because we all knew that the numbers, $2.5 
million to $9 million, were wrong, just greatly exaggerated. 
And so my staff, my engineering staff, came back with a well 
put together document, which I have right here, I will put it 
in the record if you want.
    Dr. Gosar. Please.
    Ms. Angius. And there are six or seven suggestions on how 
to fix the pipe, ranging from--the water delivery system, 
ranging from $100,000 just to fix the pipe as it exists today, 
up to the highest being something like $1.3 million to dig all 
new wells to do that. But my engineering department, they 
suggest that we do a system that has to do with barges that 
would go up and down with the water because the problem--and I 
want to remind everyone, the problem at Willow Beach is it is 3 
days a year when the water levels get lower. That is all this 
is about, 3 days a year. So if we can come up with an idea, a 
way to fix that, then I will not be back here next year 
testifying and coming back and spending taxpayer's money.
    So U.S. Fish and Wildlife has agreed to look at it. But as 
of yet, we have not come up with a way.
    Mohave County has offered to help. We know that your hands 
are tied here in the Federal Government and the way you have to 
get estimates and get construction deals done. We have offered 
to help. Arizona Game and Fish has offered to help. We want to 
work together. We have always wanted to work together, but we 
are willing to put aside the sort of disrespectful way this was 
put forward to us. But we want to move on. We want to fix the 
pipe, and we want to get this program running again.
    Dr. Gosar. Just real quick indulgence. Did you find the 
estimates kind of outlandish like I did?
    Ms. Angius. Well, of course. We knew--when I testified in 
front of the Appropriations Committee a couple of months ago, 
when I was asked what were the estimates, and I said it was 
$2.5 to $9 million, they had to stop the meeting and everyone 
just laughed. Everyone laughed. And when they stopped laughing, 
I said, ``Well, we of course believe that the cost will be 
much, much lower than that.'' Honestly, you will have to ask 
them. I do not know where they came up with those numbers, but 
we believe these are firm engineering numbers, signed off by 
our chief engineers.
    Dr. Gosar. That is what I wanted to make sure. So thank 
you, empowering local solutions for local problems.
    Ms. Angius. Absolutely.
    Dr. Gosar. Thank you very much.
    Ms. Angius. Thank you. And, Congressman, if I may----
    Dr. Gosar. Do you want to put it into the record?
    Ms. Angius. I would just want to say one more thing. I 
traveled a long way.
    Dr. Gosar. Ask the Chairman.
    Ms. Angius. One minute, may I please, Congressman?
    Dr. Fleming. Very quickly. We are running out of time.
    Ms. Angius. Very quickly. I became a supervisor because I 
wanted to make a difference in my community, and I wanted to 
keep it the free and great place I moved to. But I did not 
expect to be confronted by the Federal Government on almost a 
weekly basis with a new rule, regulation, restriction, mandate, 
land grab, water grab. In Arizona alone, we are fighting the 
EPA. They want to destroy our coal industry. We are fighting 
Endangered Species. They want to put wolves and jaguars into 
the backyards of our cattle companies. Would you want wolves in 
your backyards? Critters we have never heard of and whose names 
we can barely pronounce.
    Mr. Sablan. Are we hearing a bill here or are we hearing a 
whole slew that I can read in the newspapers all over again?
    Ms. Angius. I just wanted to say that we are at our 
breaking point in the West. And Arizona is going to do whatever 
it has to do to preserve our sovereignty.
    Mr. Sablan. Sorry to interrupt but this is--you had a 
minute.
    Ms. Angius. That is all I want to say. Thank you.
    [Gavel.]
    Dr. Fleming. Yes, well, I want to thank all of our 
witnesses here today. This was a very informative hearing. 
Members were very engaged, very important issues. Before 
closing, I would also like to thank witnesses for traveling and 
going to great effort here preparing for testimony.
    I also ask unanimous consent to include in the hearing 
record the following documents: a letter from the Association 
of Fish and Wildlife Agencies, a July 10 letter from the Sport 
Fishing and Boating Partnership Council and a letter to Senator 
Vitter and I from the chief executive officer of Ducks 
Unlimited in support of H.R. 5069.

    [The letters submitted for the record by Dr. Fleming 
follow:]
              Letter Submitted for the Record on H.R. 5026

           Association of Fish & Wildlife Agencies,
                                            Washington, DC,
                                                     April 1, 2014.

Hon. Ken Calvert, Chairman,
Hon. Jim Moran, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies of the 
        Appropriations Committee,
U.S. House of Representatives,
Washington, DC 20515.

Re: USFWS Fish Hatchery System Report and Direction

    Dear Chairman Calvert and Ranking Member Moran:

    The Association of Fish and Wildlife Agencies (AFWA) is writing to 
alert you to a significant direction change in the U.S. Fish and 
Wildlife Service (USFWS) National Fish Hatchery Program and its 
associated programs that will have adverse effects on state fisheries 
programs and regional economies.
    Based on recent conversations and direct interactions with USFWS 
personnel, it appears that USFWS is intending to abandon fisheries 
programs that would benefit sport fishing including the production of 
key hatchery fish and the oversight of new aquaculture drugs that the 
USFWS, tribes, and states all depend upon in their hatcheries to ensure 
the efficient production of essential fish. We are particularly 
concerned as these decisions were made in absence of input from USFWS' 
long standing state partners, many whom have been close partners in 
fish production since 1870 when the U.S. Fish Commission, the 
progenitor organization of the USFWS, was first established.
    With respect to the USFWS Fish Hatchery Program, the USFWS in 2013 
developed a strategic hatchery and workforce planning report. The 
report laid out a new desired direction without any direct input from 
the any state partners who all have vested interests in the management 
and production of fish from the National Fish Hatchery System. The 
report expressly indicates that the USFWS will move away from producing 
fish that benefit of all of our Nation's sport fisheries and will focus 
on only producing fish that are federally listed, or federal trust 
species and imperiled aquatic species. This shift completely disregards 
the recent 2011 USFWS study that documents the annual economic benefit 
of approximately $3.6 billion to the Nation's economic activity from 
Federal fish hatcheries, a cost-benefit ratio of 1:26 which is unlikely 
rivaled in any Federal program. It is AFWA's opinion that the new USFWS 
Hatchery Report and its associated budget priorities and implications 
do not reflect needs of the Nation's aquatic resources or economy and 
will greatly harm our Nation's fisheries.
    Another area of deep concern to our member states is a significant 
shift in how USFWS mitigation hatcheries are operated. These Federal 
hatcheries were built to offset losses to public trust resources owned 
by states from Federal water and other infrastructure projects and are 
vital to replacing lost fisheries values. It appears to our members 
that the USFWS has little interest in continuing to meet the Federal 
obligations for mitigation unless they are completely compensated for 
the costs of operation and maintenance by the Federal agency 
responsible for these damages to state property. While our members have 
always been supportive of USFWS seeking due compensation from Federal 
project owners and operators, it does not make a difference to our 
members who in the Federal Government pays for these facilities as long 
as the mitigation for our lost fisheries resources is fully 
compensated.
    Additionally, it has been communicated to AFWA that the USFWS 
Directorate wants to use only ``native'' fish species in any type of 
mitigation hatchery work. This position completely ignores that most of 
the ``non-native'' fish produced in Federal and state hatcheries are 
essential to the management of our Nation's fisheries and are now 
naturalized species in the United States. It also assumes that our 
Nation's fish habitat can support all native species which is 
frequently incorrect as much of the Nation's aquatic habitats have been 
altered beyond the capacity of some native species to survive in them. 
Further, the states already have active long-term native fish 
management programs in place that have been developed in partnership 
with the USFWS. If the USFWS switches their aquaculture operations to 
focus primarily on Federal trust and imperiled species and then only 
native fish, it will add an unnecessary level of redundancy, require 
additional infrastructure improvements, cost billions in economic 
activity, and waste Federal funds.
    The USFWS also proposes reducing funding for the Aquatic Animal 
Drug Approval Partnership (AADAP), an associated Federal fish hatchery 
program and converting it to a completely user-pay system. The program 
is responsible for gaining U.S. Food and Drug Administration (USFDA) 
approval of aquaculture drugs to meet increasing fish health needs. 
This small, although highly essential, program once had an annual 
budget of $1.2 million dollars but is now funded at $800,000 with a 
loss of three full-time employees. The drugs that are researched 
through this program are essential for the production of our Nation's 
sports fish as well as imperiled native species and have saved state 
and Federal hatcheries approximately 10-30 percent of their yearly 
production costs, approximately $50 to $150 million annually. This 
unique partnership, administered by the USFWS AADAP staff, has state 
and tribal hatcheries pay an annual fee to use investigational new 
animal drugs (INAD) under USFDA permit, and then in turn provide 
essential data that allows the USFDA to ultimately register these drugs 
for use. By moving this program to strictly user-pay for the national 
INAD portion of the program, the program costs likely will exceed the 
state and outside funding sources available for the staffing and 
associated research required by USFDA, resulting in elimination of this 
amazing program. The USFDA has indicated if financial resources to 
support the INAD portion of the program are insufficient, they may 
shutter the program. The loss of this program will cost our members 
significantly and reduce the ability of our Nation's hatcheries to 
support the approximately $30 billion annually that Federal, state and 
tribal hatcheries contribute to our national economy.
    Given the importance of the USFWS Hatchery System's production of 
sports fish and national oversight of the AADAP program and the 
potential conversion of these assets to other programs, AFWA is 
requesting the assistance of the Chair and Ranking Member of the 
Subcommittee on Interior, Environment, and Related Agencies of the 
Appropriations Committee to: (1) request the USFWS Directorate to put 
any of the proposed policy changes to the USFWS Hatchery and AADAP 
Programs in abeyance and immediately begin discussions and 
consultations with our membership on the future direction of these 
programs; (2) require the USFWS Directorate to meet all of their 
current Federal obligations for mitigation, regardless of whether they 
are successful in receiving funds from Federal project owners, with no 
concurrent reduction to other fish production; (3) stop any potential 
policy change to require USFWS hatcheries to produce only ``native'' 
fish; and (4) request your support and assistance to ensure, at a 
minimum, the base funding of $800,000 continues for AADAP. We welcome 
the opportunity to discuss with you how USFWS mitigation 
responsibilities are met while not putting the sport fishing 
recreational economy at risk by underfunding fish hatchery production 
in favor of shifting USFWS priorities to Federal trust and imperiled 
species.
    We appreciate your immediate attention to this matter which has 
huge implications for our Nation's fisheries and the economies that 
depend on them.

            Sincerely,

                                               Dan Forster,
                                                         President.

                                 ______
                                 

              Letter Submitted for the Record on H.R. 5026

       Sport Fishing & Boating Partnership Council,
                                                     July 10, 2014.

Hon. Sally Jewell, Secretary,
Department of Interior,
1849 C Street, NW,
Washington, DC 20515.

    Dear Secretary Jewell:

    As you know, the Sport Fishing and Boating Partnership Council 
(Council) was established in 1993 to advise the Secretary of Interior, 
through the Director of the U.S. Fish and Wildlife Service (Director), 
on aquatic conservation endeavors that benefit recreational fishery 
resources and recreational boating, while encouraging partnerships 
among industry, the public, and government. It is with this charge in 
mind that the Council wishes to express our sincere concerns and 
disappointment with the recent National Fish Hatchery System--Strategic 
Hatchery and Workforce Planning Report (Report). Although the Report 
was dated March 2013, it was not released to the public until November 
15, 2013. The fact that no stakeholders, including the state agencies 
that depend on the National Fish Hatchery System (NFHS) as part of 
their overall fisheries management strategy, were consulted during the 
development of the Report highlights the significant and problematic 
lack of transparency in the current direction of the fisheries program 
in the U.S. Fish and Wildlife Service (Service). Furthermore, it is 
unclear as to whether the Service fulfilled its tribal trust 
responsibility to consult with any tribes on the potential impacts to 
their nations during the Report's development. When the Report was 
released last year the Assistant Director of Fisheries stated in a 
conference call that the agency would engage the sportfishing community 
in discussions to find solutions. To date there has been no such 
process save some ad hoc discussions.
    More specifically and of the utmost concern to the Council is that 
the recent Report clearly demonstrates that not only does the Service 
have no intention of incorporating the prior recommendations of 
stakeholders, but that the overall direction of the NFHS is 
fundamentally shifting away from sport fish propagation. This cannot be 
allowed to happen, and brings into question the authority the Service 
has to abdicate statutory responsibilities under various acts, 
including the Fish and Wildlife Coordination Act of 1934, to provide 
for recreational fishing opportunities and fulfill tribal trust 
responsibilities.
    The NFHS was established in 1871 to address seriously declining 
fish populations by building a network of Federal hatcheries to 
propagate fishery resources for future generations of Americans. Since 
that time, the NFHS has provided millions of sport fish each year for 
America's angling public, resulting in an astounding economic ripple 
effect and increased recreational opportunities. The facilities, which 
average more than 70 years old, annually produce and distribute 140 
million fish and 120 million fish eggs with a value over $5 billion. In 
addition to the more than 68,000 jobs supported by the NFHS, for every 
tax dollar invested in the system, there is a return of $28 to our 
national economy because of the sport fishing opportunities they 
provide.
    In 2000 an independent report entitled ``Saving a System in Peril'' 
was released that included suggested recommendations on how to improve 
the aging and financially strapped hatchery system in addition to 
highlighting the economic, historical, and cultural significance the 
NFHS plays. However, this report also concluded, ``. . . that without a 
national vision to define regional goals and objectives designed to 
fulfill overall FWS Fisheries Program strategies, the national hatchery 
system will continue to drift and will be in peril.'' Unfortunately, 
this report, and subsequent reports with similar recommendations in the 
14 years since, has been ignored by the Service, and the System is 
indeed in peril.
    More recently, during an oversight hearing before the House Natural 
Resources Committee on March 5th, the Assistant Director of Fisheries 
for the Service testified that the agency is using its new strategic 
Report to ``engage partners and stakeholders in a discussion on its 
major findings and recommendations.'' Yet, the Director of the Service 
had already issued a Memo last September to his Regional Directors, 
relative to the Report, indicating that ``to bring our expenditures in 
line; not by mindlessly reducing our programs functions but by making 
hard decisions to close lower priority facilities.'' Under the 
Service's new strategic plan, recreational propagation programs are now 
the lowest priority. However, when determining the priorities for the 
NFHS, the economic impacts to local, state and regional economies were 
not evaluated or considered by the Service, nor were the state agencies 
consulted about the negative ramifications of the Service's new 
direction on their ability to effectively manage fish populations.
    Therefore, the Council would appreciate your consideration, in the 
near term, to keep these recreational propagation programs operating in 
FY 15 as required by the Fish and Wildlife Coordination Act of 1934. 
And, in the long-term, to consider working with the Council to develop 
draft ``organic'' legislation for the Service's Fisheries Program that 
would, in part, ensure the long-term viability and proper performance 
of the NFHS.
    We appreciate your consideration of these requests and stand ready 
to assist you and your staff in these endeavors.

            Sincerely,

                                        Thomas J. Dammrich,
                                                             Chair.

                                 ______
                                 

        Letter Submitted for the Record in Support of H.R. 5069
                                   Ducks Unlimited,
                                               Memphis, TN,
                                                     July 14, 2014.

Hon. David Vitter, Chairman,
U.S. Senate Committee on Environment and Public Works,
SD-140 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. John Calvin Fleming, Chairman,
House Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs,
140 Cannon House Office Building,
Washington, DC 20515.

    Dear Chairman Vitter and Subcommittee Chairman Fleming:

    On behalf of the over one million members and supporters in all 50 
states, Ducks Unlimited applauds the Senate Chairman and House 
Subcommittee Chairman's Federal Duck Stamp Act of 2014 to support the 
Federal Duck Stamp Program. As you know, we at Ducks Unlimited, 
including your great Louisiana constituents, especially appreciate the 
importance of wetlands and waterfowl conservation. These companion 
bills in the Senate and House will secure vital habitat for generations 
of waterfowl hunters and wildlife outdoor enthusiasts to come.
    The Federal Duck Stamp was enacted in 1934 during the worst 
depression and drought the United States has ever known by a group of 
dedicated waterfowl hunters who stepped forward and asked to pay a user 
fee dedicated to conserving wetland habitat. In the program's 80th 
year, the buying power of the Federal Duck Stamp has unfortunately 
never been lower.
    Since its inception, over 6 million acres of waterfowl habitat have 
been conserved through the revenues of Federal Duck Stamp sales. The 
program has been a stellar example of the North American Model of 
Wildlife Management and government efficiency. Approximately $0.98 of 
every $1 of Federal Duck Stamp receipts is spent on habitat 
conservation of wetlands. These habitats not only benefit waterfowl and 
other wildlife but also provide flood attenuation, water filtration and 
buffering of storm surges for our citizens.
    The price of the Federal Duck Stamp has not been raised since 1991, 
while the cost of land has tripled. Wildlife habitat needs have 
continued to increase and the stamp has lost 40 percent of its value. 
We pledge our commitment and support to work with you to adjust the 
price of the Federal Duck Stamp to $25 to account for inflation and 
meet growing habitat conservation needs. I also assure you there is 
great support for this across the conservation/hunting community.
    Thank you for your work on this important issue, and we at Ducks 
Unlimited stand ready to support the Federal Duck Stamp Act of 2014 in 
any way we can. Please call me if I can be of assistance.

            Sincerely,

                                              H. Dale Hall,
                                                               CEO.

                                 ______
                                 

    Dr. Fleming. I also want to thank members of the staff, 
members and staff for their contributions to this hearing. 
There being no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

       Letter Submitted for the Record in Opposition of H.R. 3409
                            The Wilderness Society,
                                            Washington, DC,
                                                     July 22, 2014.

Hon. John Fleming, Chairman,
Hon. Gregorio Sablan, Ranking Member,
House Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs,
Washington, DC 20515.

Re: H.R. 3409: The National Wildlife Refuge Expansion Limitation Act of 
        2013

    Dear Chairman Fleming and Ranking Member Sablan:

    The Wilderness Society, on behalf of our over 500,000 members and 
supporters from across the country, would like to express our views on 
the legislation being heard tomorrow in the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs, and respectfully request that 
this letter be included in the July 23, 2014 hearing record for the 
subcommittee.
    If H.R. 3409 were to become law it would have a substantial and 
far-reaching impact on private land owners, willing sellers, refuge 
visitors, local communities, vulnerable wildlife populations and the 
National Wildlife Refuge System as a whole.
    The proposed National Wildlife Refuge Expansion Limitation Act runs 
counter to the intent of the 1997 Refuge Enhancement Act, undermines 
established conservation mechanisms and would essentially halt the 
ongoing process of preserving critical habitat across the country. 
Furthermore, since H.R. 3409 would be retroactive to January 3, 2013, 
all land acquired since then by any national wildlife refuge would be 
in jeopardy.
    Under this legislation a time-consuming and cumbersome Act of 
Congress would be required for any land acquisition, even donated land, 
to become part of our refuge system. This adds an unnecessary and 
duplicative step in the process of protecting critical habitat. 
Congressional oversight is already provided on the Migratory Bird 
Conservation Act and the Land and Water Conservation Fund Act, which 
fund a significant amount of refuge land acquisition programs.
    This legislation would also threaten public access and harm local 
economies by blocking willing sellers from using proven mechanisms like 
the Land and Water Conservation Fund to sell private inholdings. 
Acquisitions, even when completed with private funds from friends 
groups or other non-profit organizations would also be blocked.
    These mechanisms, which have been in place for decades, provide 
certainty for willing sellers, allow for increased management 
efficiency of our public lands by consolidating ownership and provide 
essential connected habitat for wildlife. Halting and potentially even 
reversing prior acquisitions undermines the certainty private land 
owners and willing sellers deserve and threatens existing and future 
habitat protections.
    The bottom line is that H.R. 3409 is a blunt and unnecessary 
instrument. For these reasons, The Wilderness Society strongly opposes 
the National Wildlife Refuge Expansion Limitation Act.

            Sincerely,

                                           Alan H. Rowsome,
                 Senior Director of Government Relations for Lands.

                                 ______
                                 

                 News Article Submitted for the Record

WEDNESDAY, JULY 23, 2014

BY JULIANNE LOGAN

CRONKITE NEWS

HTTP://CRONKITENEWSONLINE.COM

Arizona officials call for a halt to `devastating' hatchery changes

WASHINGTON--Arizona officials told a House panel Wednesday that the 
federal government's decision to end a rainbow trout program at the 
Willow Beach fish hatchery could have a devastating impact on the 
state's economy.

The U.S. Fish and Wildlife Service said last year it planned to stop 
sport-fish production at the hatchery after 52 years there. Local 
officials said they rely on the hatchery for tourism dollars, and were 
never consulted on the decision to end the trout program.

``Once the fish are gone, the fisherman will be gone. Then we will have 
nothing,'' said Mohave County Supervisor Hildy Angius, during a 
sometimes-testy hearing before a House Natural Resources subcommittee.

Angius and Arizona Game and Fish Commission Chairman Robert Mansell 
were in Washington to testify in support of a bill by Rep. Paul Gosar, 
R-Prescott, that would require a more-stringent review before U.S. Fish 
and Wildlife Service could stop hatchery programs.

The Fish Hatchery Protection Act would require congressional approval 
before the service could close or otherwise significantly alter 
operations at a federal fish hatchery.

Gosar said he introduced the bill after the service began making 
changes to several hatcheries last year as part of a new strategic 
plan, without first notifying state or local agencies.

Fish and Wildlife Deputy Director Steve Guertin said the service 
``strongly opposes'' the bill, saying it would ``jeopardize our ability 
to fulfill our ongoing legal obligations, respond to new and constantly 
evolving environmental challenges.''

The bill would also limit the agency's ability to restore native fish 
and protect endangered species, Guertin said.

Gosar said he understood those needs, but said the service had 
``absolutely no right'' to make such significant changes without first 
notifying the communities that would be affected.

``Shame on you, absolutely shame on you,'' a visibly angry Gosar said, 
in response to what he called Guertin's ``pathetic excuses'' for the 
proposed hatchery changes.

Mansell testified that hatcheries are ``vital to Arizona and the 
Nation's economies.'' He said Arizona relies not only on in-state 
hatcheries, but on others around the country.

They provide ``immense economic and environmental benefits to rural 
economies . . . like Mohave County that depend on outdoor recreation 
and tourism to survive,'' he said.

``Over 636,000 people fish in Arizona annually, resulting in an 
estimated fishing expenditures of over $1.5 billion annually,'' Mansell 
said in his testimony.

Mansell testified that local officials only learned about the service's 
plans for Willow Beach after 40,000 trout died at the hatchery, and the 
service said it could not afford repairs to a water pipeline that could 
have fixed the problem.

After that news was out, Mansell said, Willow Beach became ``ground 
zero'' as other states learned about similar plans for their 
hatcheries.

Angius said in her prepared testimony that local officials estimated 
that Willow Beach repairs could be done for as little as $300,000, not 
the $3 million to $9 million she said federal officials cited.

``We're at a breaking point in the West,'' she said. ``And Arizona will 
do whatever it takes to preserve its environment.''

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

-- Mohave County Development Services, Memorandum to Mike 
Hendrix, PE, County Administrator, County Engineer from Nick 
Hont, PE, Development Services Director, Deputy County Engineer 
David West, PE, Flood Control District Engineer, dated July 15, 
2014 regarding ``Design Concept Report for the repair or 
replacement of the water delivery system at the Willow Beach 
Fish Hatchery, Mohave County, Arizona--Submitted for the record 
by Chairman Angius.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
